No. 20A90
In the

Supreme Court of the United States
AGUDATH ISRAEL OF AMERICA, et al.,
Applicants,
V.

ANDREW M. CUOMO, Governor of New York
Respondent.
APPENDIX FOR RESPONDENT

November 20, 2020

LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
ANDREA OSER
Deputy Solicitor General
DUSTIN J. BROCKNER
BRIAN D. GINSBERG
Assistant Solicitors General
28 Liberty Street
New York, New York 10005
(212) 416-8016
barbara.underwood@ag.ny.gov
* Counsel of Record

Counsel for Respondent

TABLE OF CONTENTS
PAGE
Declaration of Howard A. Zucker, M.D., J.D. (D. Ct. Dkt. No. 12) ...................... R.A. 1
Zucker Decl., Ex. A (WHO Situation Report 1)
(D. Ct. Dkt. No. 12-1) ................................................................................ R.A. 25
Zucker Decl., Ex. B (WHO Situation Report 3)
(D. Ct. Dkt. No. 12-2) ................................................................................ R.A. 30
Zucker Decl., Ex. C (WHO Statement on the Second Meeting of
the International Health Regulations Emergency Committee)
(D. Ct. Dkt. No. 12-3) ................................................................................ R.A. 37
Zucker Decl., Ex. D (WHO Declares Global Pandemic)
(D. Ct. Dkt. No. 12-4) ................................................................................ R.A. 43
Zucker Decl., Ex. E (National Emergency Declaration)
(D. Ct. Dkt. No. 12-5) ................................................................................ R.A. 47
Zucker Decl., Ex. F (WHO Article)
(D. Ct. Dkt. No. 12-6) ................................................................................ R.A. 50
Zucker Decl., Ex. G (CDC Guidance)
(D. Ct. Dkt. No. 12-7) ................................................................................ R.A. 71
Zucker Decl., Ex. H (CDC Guidance)
(D. Ct. Dkt. No. 12-8) ................................................................................ R.A. 75
Zucker Decl., Ex. I (Executive Order 202)
(D. Ct. Dkt. No. 12-9) ................................................................................ R.A. 77
Zucker Decl., Ex. J (Executive Order 202.3)
(D. Ct. Dkt. No. 12-10) .............................................................................. R.A. 80
Zucker Decl., Ex. K (Executive Order 202.4)
(D. Ct. Dkt. No. 12-11) .............................................................................. R.A. 82
Zucker Decl., Ex. L (Executive Order 202.5)
(D. Ct. Dkt. No. 12-12) .............................................................................. R.A. 84
Zucker Decl., Ex. M (Executive Order 202.10)
(D. Ct. Dkt. No. 12-13) .............................................................................. R.A. 87

R.A. i

TABLE OF CONTENTS (cont’d)
PAGE
Declaration of Howard A. Zucker, M.D., J.D. (D. Ct. Dkt. No. 12) (cont’d)
Zucker Decl., Ex. N (Executive Order 202.32)
(D. Ct. Dkt. No. 12-14) .............................................................................. R.A. 91
Zucker Decl., Ex. O (Executive Order 202.33)
(D. Ct. Dkt. No. 12-15) .............................................................................. R.A. 94
Zucker Decl., Ex. P (Executive Order 202.42)
(D. Ct. Dkt. No. 12-16) .............................................................................. R.A. 95
Zucker Decl., Ex. Q (Executive Order 202.45)
(D. Ct. Dkt. No. 12-17) .............................................................................. R.A. 96
Zucker Decl., Ex. R (Executive Order 205)
(D. Ct. Dkt. No. 12-18) .............................................................................. R.A. 98
Zucker Decl., Ex. S (Executive Order 202.61)
(D. Ct. Dkt. No. 12-19) ............................................................................ R.A. 100
Zucker Decl., Ex. T (Scientific American Article)
(D. Ct. Dkt. No. 12-20) ............................................................................ R.A. 102
Zucker Decl., Ex. U (New Scientist Article)
(D. Ct. Dkt. No. 12-21) ............................................................................ R.A. 108
Zucker Decl., Ex. V (CDC Guidance)
(D. Ct. Dkt. No. 12-22) ............................................................................ R.A. 115
Zucker Decl., Ex. W (Asian Bioethics Review Article)
(D. Ct. Dkt. No. 12-23) ............................................................................ R.A. 123
Zucker Decl., Ex. X (Executive Order 202.6)
(D. Ct. Dkt. No. 12-24) ............................................................................ R.A. 131
Zucker Decl., Ex. Y (CDC Guidance)
(D. Ct. Dkt. No. 12-25) ............................................................................ R.A. 133
Zucker Decl., Ex. Z (Gov. Cuomo Announcement)
(D. Ct. Dkt. No. 12-26) ............................................................................ R.A. 137
Zucker Decl., Ex. AA (Status Report)
(D. Ct. Dkt. No. 12-27) ............................................................................ R.A. 142
R.A. ii

TABLE OF CONTENTS (cont’d)
PAGE
Declaration of Howard A. Zucker, M.D., J.D. (D. Ct. Dkt. No. 12) (cont’d)
Zucker Decl., Ex. BB (CDC Frequently Asked Questions)
(D. Ct. Dkt. No. 12-28) ............................................................................ R.A. 144
Zucker Decl., Ex. CC (CDC Guidance)
(D. Ct. Dkt. No. 12-29) ............................................................................ R.A. 147
Zucker Decl., Ex. DD (Executive Order 202.68)
(D. Ct. Dkt. No. 12-30) ............................................................................ R.A. 152
Zucker Decl., Ex. EE (Affidavit of Elizabeth M. Dufort, M.D., FAAP)
(D. Ct. Dkt. No. 12-31) ............................................................................ R.A. 154
Zucker Decl., Ex. FF (Declaration of Howard A. Zucker, M.D.)
(D. Ct. Dkt. No. 12-32) ............................................................................ R.A. 174
Order Denying Administrative Stay (Ct. App. Dkt. No. 30) ............................ R.A. 192

R.A. iii

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 1 of 24 PagelD #: 363

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
AGUDATH ISRAEL OF AMERICA, AGUDATH
ISRAEL OF KEW GARDEN HILLS, AGUDATH
ISRAEL OF MADISON, AGUDATH ISRAEL OF
BAYSWATER, RABBI YISROEL REISMAN, RABBI
MENACHEM FEIFER, STEVEN SAPHIRSTEIN,

DECLARATION
Civil No. 20-cv-04834

Plaintiffs,
vs.
ANDREW M. CUOMO, Governor of the State of New
York, in his official capacity,
Defendant.

Howard A. Zucker, M.D., J.D., on the date noted below and pursuant to § 1746 of title 28
of the United States Code, declares the following to be true and correct under penalty of perjury
under the laws of the United States of America:
Background and Qualifications
1)

I am the Commissioner of the New York State Department of Health

("Department"). I make this declaration in my capacity as the Commissioner after consultation

with Department program staff directing the initiatives detailed below. I respectfully submit this
declaration in order to place before the Court certain testimony and documents relevant to the relief
requested. I am familiar with the matters set forth herein, either from professional knowledge,
conversations with Department staff, or on the basis of documents that have been provided to and
reviewed by me. I have been asked to assist New York State in its response to the COVID-19

1

R.A. 1

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 2 of 24 PagelD #: 364

public health emergency. I have attended meetings of the Governor's COVID -19 Response and
Recovery Task Force (the "COVID-19 Task Force").

2)

I have extensive knowledge of pediatric medicine and care and am aware of many

family health issues. I am board-certified in six specialties/subspecialties and trained in pediatrics
at Johns Hopkins Hospital, anesthesiology at the Hospital of the University of Pennsylvania,
pediatric critical care medicine/pediatric anesthesiology at The Children's Hospital of
Philadelphia, and pediatric cardiology at Children's Hospital Boston/Harvard Medical School. I

was a professor of clinical anesthesiology at Albert Einstein College of Medicine of Yeshiva
University and pediatric cardiac anesthesiologist at Montefiore Medical Center in the Bronx. I
also served as associate professor of clinical pediatrics and anesthesiology at Columbia University
College of Physicians & Surgeons and pediatric director of the ICU at New York Presbyterian
Hospital. I am a former Columbia University Pediatrics Teacher of the Year.
3)

As Commissioner of the Department, I must "take cognizance of the interests of

health and life of the people of the state, and of all matters pertaining thereto and exercise the
functions, powers and duties of the department prescribed by law." Public Health Law ("PHL")

§206(1)(a).
4)

I preside over the State's Office of Public Health, which includes epidemiology,

the Medicaid program, the New York State Public Health and Health Planning Council, and the
Wadsworth Center, New York's premier public health lab, as well as the entire health care

workforce, and health care facilities.
5)

In the last five months, I have been personally involved in the development and

implementation of what is known as the "New York State on PAUSE" initiative-restrictions

2

R.A. 2

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 3 of 24 PagelD #: 365

implemented through a series of executive orders and associated guidance designed to stop the
transmission of the novel coronavirus (COVID-19)

and I am also familiar with the detailed plan

that the State adopted to allow the safe reopening of each New York industry, including all
gatherings. I am familiar with the facts set forth herein based upon personal knowledge,
discussions with Department staff, and Department records. This declaration has also been
informed by other declarations I and my colleagues have drafted to oppose challenges to State
regulations and guidance issued to respond to the COVID-19 pandemic. See Exhs. EE and FF.
6)

I make this declaration in support of Defendant s Opposition to P laintiffs' Motion

for a Temporary Restraining Order and Preliminary Injunction.
COVID-19
7)

On January 7, 2020, following an outbreak of pneumonia of unknown etiology in

China's Wuhan Province, Chinese authorities identified a novel coronavirus-COVID-19. Its

spread around the world has been well documented. Exh. A.
8)

COVID-19 is a highly infectious and potentially deadly respiratory disease caused

by a novel coronavirus that spreads easily from person-to-person. Exh. B.
9)

Because there is no pre-existing immunity against this new virus, it has spread

worldwide in an exceptionally short period of time, posing a "serious public health risk." _Id.

10)

On January 31, 2020, the World Health Organization ("WHO") declared a "public

health emergency of international concern." Exh. C.

11)

Less than two months later, on March 11, 2020, the World Health Organization

declared COVID-19 a global pandemic. Exh. D
3

R.A. 3

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 4 of 24 PagelD #: 366

12)

On March 13, 2020, the President of the United States declared a national

emergency. Exh. E.
13)

"Transmission of SARS -CoV-2 can occur through direct, indirect, or close contact

with infected people through infected secretions such as saliva and respiratory secretions or their
respiratory droplets, which are expelled when an infected person coughs, sneezes, talks or sings."

Exh. F.

" WHO, together with the scientific community, has been actively discussing and

evaluating whether SARS-CoV-2 may also spread through aerosols in the absence of aerosol
generating procedures, particularly in indoor settings with poor ventilation." _Id. "Current evidence

suggests that SARS-CoV-2 may remain viable for hours to days on surfaces made from a variety
of materials." Exh. G.

14)

COVID-19 has an incubation period of up to fourteen days. Exh. F. Social

distancing is one of the most effective means of limiting transmission of COVID-19. Id.
15)

The CDC has thus issued guidance recommending that people comply with social

distancing measures in order to prevent the spread of COVID-19. According to the CDC,
"[l]imiting face -to-face contact with others is the best way to reduce the spread" of COVID -19.

Exh. H.
16)

In order to limit exposure to COVID-19 and slow its spread, the CDC recommends

keeping "at least six feet away from other people" and limiting " close contact with others outside
your household in indoor and outdoor spaces" including avoiding groups and crowded places. _Id.
Social distancing "is one of the best tools we have to avoid being exposed to this virus and slowing
its spread locally and across the country and world" because it "helps limit contact with infected

people and contaminated surfaces." Id.
4

R.A. 4

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 5 of 24 PagelD #: 367

17)

The rapid spread of COVID-19 in New York, in the United States, and worldwide,

presented and continues to present a grave threat to New Yorkers and to New York's health care

system. However, by taking strong action to ensure social distancing as well as other important
measures, New York has mitigated that threat. To avoid a devastating resurgence of COVID-19,
responsible parties, business owners, and the public must continue to adhere to the Executive
Orders and guidance.
18)

At the end of September, we crossed the grim milestone of more than 1,000,000

deaths worldwide. As of October 8, 2020, 1,060,370 people have died worldwide 1; 211,132 people
have died of COVID-19 in the United States of COVID-19 2; and 25,555 have died in the State of
New York of COVID-193.
COVID-19 Surges in New York
19)

New York recorded its first cases of COVID-19 on March 1, 2020, in New York

City and on March 2, 2020, in Westchester County.
20)

On March 7, 2020, Governor Cuomo declared a State of Emergency. See Executive

Order 202, Exh. I4, available at https://www.governor.ny.gov/news/no-202-declaring-disasteremergency-state-new-york. As of March 7, 2020, 60 people had tested positive for COVID-19 in
the State of New York. See Fn. 3. Cases in the United States totaled 275. See Fn. 2. Cases

1

Johns Hopkins Coronavirus Resource Center COVID-19 Dashboard: https://coronavirus.jhu.edu/map.html; see
also WHO Coronavirus Disease (COVID-19) Dashboard found at https://covid19.who.int/ (last viewed October 8,
2020).
2
CDC Covid Tracker found at https://www.cdc.gov/covid-data-tracker/index.html#cases (last viewed October 8,
2020).
3
NYSDOH COVID-19 Tracker found at https://covid19tracker.health.ny.gov/views/NYS-COVID19Tracker/NYSDOHCOVID-19Tracker-DailyTracker?%3Aembed=yes&%3Atoolbar=no&%3Atabs=n#/views (last
viewed October 8, 2020).
4
All of Governor Cuomo's Executive Orders can be foun d at https://www.governor.ny.gov/executiveorders.

5

R.A. 5

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 6 of 24 PagelD #: 368

worldwide totaled 179,111, with 7,426 deaths reported. See Fn. 1.
21)

By March 20, 2020, the number of individuals testing positive for COVID-19 in

New York approached 10,000, and deaths exceeded 150. See Fn. 3.
22)

By April 20, 2020, over 267,000 individuals had tested positive for COVID-19, and

over 13,000 people had died from COVID-19 in New York State. See Fn. 3. See also,
https://www.syracuse.com/coronavirus/2020/06/where-is-coronavirus-in-ny-see-map-charts-ofcovid-19-cases-deaths-hospitalizations-sunday-june-14.html (includes similar charts with trends
over time).
23)

These events placed significant strain on New York State's healthcare system. For

example, as the virus spread, New York faced a shortage of hospital beds, ventilators, and personal
protective equipment such as masks and gloves.
24)

As a result, alternate care sites were set up, including at the Javits Center in New

York City. The United States Navy sent the U.S.N.S. Comfort, a Mercy-class hospital ship, to New
York to assist with medical care.
25)

Funeral homes were also overwhelmed, resulting in the use of mass graves to bury

the dead.
26)

At the worst stage of the pandemic, New York State had more coronavirus cases

than any single country in the world.
27)

Among other measures aimed at flattening the curve, slowing the spread of

COVID-19, and preventing the health care system from becoming overburdened, Governor
Cuomo issued multiple Executive Orders restricting gatherings.
28)

On March 16, 2020, gatherings in excess of 50 people were prohibited. On6

R.A. 6

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 7 of 24 PagelD #: 369

premises service of food and beverages in all bars and restaurants were indefinitely suspended and
gambling establishments, gyms, and movie theaters were indefinitely closed. Exh. J, Executive
Order 202.3. All non-essential state and local workers to stay home, "except for those personnel
essential to the . . . response to the COVID- 19 emergency." Exh. K, Executive Order 202.4. All
schools were closed. Id.
29)

On March 18, 2020, all malls and places of public amusement closed. Exh. L,

Executive Order 202.5.
New York State on PAUSE
30)

On March 20, 2020, the governor announced the New York State on PAUSE

initiative.
31)

The 10-point New York State on PAUSE plan is as follows:

•

All non-essential businesses statewide closed, effective March 22, 2020, at 8pm;

•

Non-essential gatherings of individuals of any size for any reason (e.g., parties,
celebrations or other social events) are canceled or postponed at this time;

•

Any concentration of individuals outside their home must be limited to workers
providing essential services and social distancing should be practiced;

•

When in public, individuals must practice social distancing of at least six feet from
others;

•

Businesses and entities that provide other essential services must implement rules
that help facilitate social distancing of at least six feet;

•

Individuals should limit outdoor recreational activities to non-contact and avoid
activities where they come in close contact with other people;

•

Individuals should limit use of public transportation to when absolutely necessary
and should limit potential exposure by spacing out at least six feet from other
7

R.A. 7

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 8 of 24 PagelD #: 370

riders;

32)

•

Sick individuals should not leave their home unless to receive medical care and
only after a telehealth visit to determine if leaving the home is in the best interest
of their health;

•

Young people should also practice social distancing and avoid contact with
vulnerable populations; and

•

Use precautionary sanitizer practices such as using isopropyl alcohol wipes.
Among the more important measures the Governor adopted as part of the New

York on PAUSE initiative were restrictions on non-essential gatherings.
33)

On March 23, 2020, the Governor issued Executive Order 202.10, which banned

"[n]on-essential gatherings of any size for any reason." Exh. M.

34)

That restriction remained in place until May 21, 2020, when the Governor issued

Executive Order 202.32 to permit non-essential outdoor gatherings of up to ten individuals for
religious services or Memorial Day service or commemoration, provided the participants follow
the social distancing and cleaning and disinfection protocols established by the Department. Exh.
N.
35)

The following day, May 22, 2020, the Governor issued Executive Order 202.33,

which further modified the ban to permit non-essential outdoor gatherings of up to ten
individuals for any lawful purpose or reason, provided the participants follow the social
distancing and cleaning and disinfection protocols established by the Department. Exh. O.
36)

On June 15, 2020, the Governor issued Executive Order 202.42, which extended

Executive Order 202.33 until July 15, 2020, and further modified the restriction to permit nonessential outdoor gatherings of up to twenty-five individuals for any purpose or reason, provided
8

R.A. 8

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 9 of 24 PagelD #: 371

the gathering was in a region that had reached Phase Three of the re-opening plan and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. Exh. P.
37)

On June 15, 2020, the Governor issued Executive Order 202.45, which permits

non-essential gatherings of up to 50 individuals for any purpose or reason, provided the
gathering was in a region that had reached fourth phase of the re-opening plan, and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. Exh. Q.
APRIL, MAY, and JUNE 2020
38)

New York Appears to Flatten the Curve

Before the New York State on PAUSE initiative, the daily increase in the number

of positive COVID-19 tests had been rising quickly. On March 19, the number of positive tests
increased nearly 70%, from, 1,769 to 2,950. For the remainder of March and early April, the
number of positive tests increased at an average rate of approximately 20% per day. On April 9,
2020, alone, over 10,000 people tested positive for COVID-19. Since April 9, 2020, the number
of positive tests per day has declined steadily. On May 28, 2020, over 1,551 people tested positive
for COVID-19. On June 29, 2020, 46,428 people were tested and only 319 tested positive

a

positivity rate below .7 %.5
New York Forward
39)

When New York transitioned from New York State on PAUSE to New York

Forward, four phases were created to guide non-essential businesses and offices, as well as the

5

Found at https://covid19tracker.health.ny.gov/views/NYS-COVID19-Tracker/NYSDOHCOVID-19TrackerDailyTracker?%3Aembed=yes&%3Atoolbar=no&%3Atabs=n (last viewed October 8, 2020).

9

R.A. 9

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 10 of 24 PagelD #: 372

essential businesses that remained open, on how to reopen.

See https://forward.ny.gov/ny-

forward.
40)

Due to the success of the people of the State of New York at flattening the curve,

all regions are in Phase Four. See https://forward.ny.gov/.
41)

Providing transmission and infection rates remain stable, restrictions can be relaxed

allowing for larger gatherings.
42)

By following the guidelines and requirements, such as social distancing and

wearing masks, New York has successfully reduced the spread of the virus. As testing throughout
the

state

has

increased,

the

number

of

positive

cases

has

decreased.

See

https://forward.ny.gov/percentage-positive-results-region-dashboard. On August 2, 2020, the
downward trend of positive cases continued as 51,839 individuals were tested and 545 of those
tested positive. Id.
43)

The transmission rate, also known as the reproduction rate

number of individuals infected on average by an infected individual

which measures the

was at 3.59 on February 24,

2020. The rate was as low as .67 on April 17, 2020. The rate remained consistent between .67 and
.73 until May when the NY Forward transition began. Since reopening the rate has remained low
but has begun inching up as the state progresses through the phases of reopening. On October 8,
2020, the transmission rate was 1.13%, slightly above the critical 1.0, which warrants close
monitoring. See https://rt.live/.

10

R.A. 10

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 11 of 24 PagelD #: 373

The Pandemic Continues to Present a Grave Threat to the Health and Safety
of the People of the State of New York
44)

Despite the gains that New York has made, the pandemic is not over as numbers

have continued to increase. On July 29, 2020, WHO reported 16,558,289 individuals confirmed
positive for COVID-19, and 656,093 confirmed COVID 19 deaths worldwide. 6 On July 29, 2020,
the CDC reported that 4,339,997 individuals in the United States had tested positive for COVID19, and 148,866 had died of COVID-19.7
45)

Indeed, during the week of July 18 through July 24, the United States reported the

highest seven-day average of new COVID-19 cases with the highest number of new cases reported
in a single day on July 24, 2020
46)

74,818. Id.

COVID-19 cases and deaths continue to grow globally. On October 8, 2020, Johns

Hopkins reported a total 36,423,659 individuals confirmed positive for COVID-19, and 1,060,370
confirmed COVID-19 deaths worldwide. See Fn. 1.
47)

A second wave of the COVID-19 pandemic is currently sweeping United States.

On September 29, 2020, the CDC reported that 7,095,422 individuals in the United States had
tested positive for COVID-19, and 204,328 had died of COVID-19. See Fn. 8.
48)

In an effort to sustain the gains attributable to the PAUSE initiative, the Governor,

on June 24, issued Executive Order 205, "Quarantine Restrictions on Travelers Arriving in New
York." Exh. R. The Order requires all travelers entering New York from a state with a positive

test rate higher than 10 per 100,000 residents, or higher than a 10% test positivity rate, over a

6
7

Found at https://covid19.who.int/ (last viewed September 25, 2020).
Found at https://www.cdc.gov/covid-data-tracker/index.html#trends (last viewed October 8, 2020).

11

R.A. 11

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 12 of 24 PagelD #: 374

seven-day rolling average, to quarantine for a period of 14 days consistent with Department of
Health regulations for quarantine. See also https://coronavirus.health.ny.gov/covid-19-traveladvisory.
49)

As of October 6, 2020, 33 states and two territories had a positivity rate of over

10%, or positive test rate higher than 10 per 100,000 residents, over a seven-day rolling average,
including Alabama, Alaska, Arkansas, Colorado, Delaware, Florida, Georgia, Guam, Idaho,
Illinois, Indiana, Iowa, Kansas, Kentucky, Louisiana, Minnesota, Mississippi, Missouri, Montana,
Nebraska, Nevada, New Mexico, North Carolina, North Dakota, Oklahoma, South Carolina, South
Dakota, Tennessee, Texas, Utah, West Virginia, Wisconsin, and Wyoming. See id., COVID-19
Travel Advisory, available at https://coronavirus.health.ny.gov/covid-19-travel-advisory.
50)

Executive Order 205 gives discretion to the Commissioner of the Department of

Health to issue additional protocols for essential workers, or for other extraordinary
circumstances, when a quarantine is not possible, provided such measures continue to safeguard
the public health. See Exh. R.
51)

On June 24, 2020, the Office of the Commissioner for the New York State

Department issued the "Interim Guidance for Quarantine Restrictions on Travelers Arriving in

New York State Following Out of State Travel. " See NYS Interim Guidance for Quarantine
Restrictions on Travelers Arriving in New York State Following Out of State Travel, available at
https://coronavirus.health.ny.gov/covid-19-travel-advisory.
52)

All individuals traveling to New York from any of the restricted states must

complete the form upon entering New York. Travelers coming to New York from designated
states through means of transport, including trains and cars, must fill out the form online. Id.
12

R.A. 12

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 13 of 24 PagelD #: 375

Risks for Non-essential Business and Indoor Gatherings
53)

Restrictions on the operation of non-essential businesses and indoor gatherings

are necessary to ensure sufficient space for proper distancing, thereby reducing potential
transmission rates.
54)

The four phases were intended to have gradually increasing gathering sizes and

decreasing occupancy restrictions, with Phase One having the most restrictions and Phase Four
having the least.
55)

The phases allowed monitoring for, and to quickly identify, any increase in virus

transmission in a particular community that may have occurred as a result of moving to a new, less
restrictive phase. This is necessary to ensure that virus transmission in a community is stable before
continuing on to the next phase.
56)

Providing transmission rates remained stable during each transition, restrictions on

less risky activities were relaxed allowing for larger gatherings in each subsequent phase. This can
be seen with respect to guidance for restaurants. For a region in Phase One, restaurants are
permitted to be open for takeout and delivery service only, with no indoor or outdoor dining
allowed. For a region in Phase Two, restaurants are permitted to expand their services to include
outdoor dining only, limited to a maximum of ten individuals per table. For a region in Phase Three,
restaurants added indoor dining with capacity limited to no more than 50% of the maximum
occupancy.
57)

The directive in Executive Order 202.48, which modified the directive contained

in Executive Order 202.41, that prohibited indoor food services and dining as part of Phase
Three in New York City, has been modified by EO 202.61 to allow indoor food services and
13

R.A. 13

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 14 of 24 PagelD #: 376

dining in New York City beginning September 30, 2020, so long as the Department's, and any
other applicable State-issued guidance, is strictly adhered to. Exh. S.
58)

The restrictions in the Executive Orders and guidance are developed in consultation

and cooperation with medical staff in the Department with the goal of reducing the opportunity for
the virus to spread.
59)

The limits and restrictions lessen and evolve as the curve continues to flatten

through the continuing practice of these social distancing and hygiene and disinfecting guidelines.
The numbers of new infections, hospitalizations, and deaths continue to decline in areas where
these guidelines are followed, which shows why adherence to these practices is so crucial to
safeguarding public health.
60)

Conversely, the limits and restrictions will increase, similar to the earlier phases, if

a review of the data indicates a trend of increasing COVID-19 cases or spikes of cases in cluster
areas.
61)

The Governor and the Department of Health are constantly monitoring transmission

and infection rates. See COVID-19 Early Warning Monitoring System Dashboard 8.
62)

Again, large gatherings present the greatest risk for rapid and widespread

transmission of the virus in a community given the nature of having many people in a single
enclosed space. For this reason, non-essential outdoor gatherings, excluding religious activity, were
limited to a maximum of 50 people for regions in Phase Four.

8

Found at https://forward.ny.gov/early-warning-monitoring-dashboard (last viewed September 29, 2020).

14

R.A. 14

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 15 of 24 PagelD #: 377

Large and Super-Spreader Gatherings
63)

Gatherings, both indoor and outdoor, pose a significant risk of becoming super-

spreader events. For example, "[a]s scientists have learned more about COVID-19, it has become
clear that so-called superspreader incidents
number of other individuals

in which one person infects a disproportionate

have played an oversized role in the transmission of the virus that

causes the disease." Exh T.

64)

" The more individuals you pile into one place, the greater the opportunity for the

coronavirus to infect many people at once

. If you max out at five people, it will be very hard

to have a superspreading event .... But as a group's size increases, so does the risk of transmitting
the virus to a wider cluster. A large group size also increases the chance that someone present
will be infectious " Id.
65)

It is critically important to control the size of gatherings, both indoor and outdoor,

since "as a group's size increases, so does the risk of transmitting the virus to a wider cluster. A

large group size also increases the chance that someone present will be infectious " Id.
66)

A research team " found that superspreading events tended to happen in indoor

spaces, with people in close proximity. Social occasions led to more clusters than exposure in the
workplace or home

mass transmissions occurred at weddings, temples, bars and karaoke

parties, for instance. The risk seems to be higher if people are raising their voices in some way,
such as singing or shouting." Exh. U.
67)

The Department tracks clusters throughout the State and data indicates that social

gatherings followed by restaurants/bars present the highest levels of clusters

46 and 30 from

New York State, excluding New York City, respectively from June 16, 2020 to September 28,
15

R.A. 15

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 16 of 24 PagelD #: 378

2020. Within each separate cluster are many individual cases of COVID-19.
68)

As CDC stated in guidance released on Friday June 12, 2020: The more people an

individual interacts with at a gathering and the longer that interaction lasts, the higher the potential
risk of becoming infected with COVID-19 and COVID-19 spreading. Exh. V.
69)

Gatherings provide an ideal platform for the efficient transmission of COVID-19

to multiple people at once. Those individuals who contract COVID-19 at a gathering may
themselves become super-spreaders if they attend further gatherings while they are
asymptomatic. Exh W.
70)

A super-spreader, usually identified in retrospect, has a greater than average

propensity to infect a larger number of people and it is thought that "10% of the [COVID -19]
cases may be responsible for 80% of the transmission". _Id.

71)

" [A]ny large gathering or movement of groups or individuals can constitute

super-spreading." _Id.
72)

The idea of "super-spreaders" or super-spreading events is not new to COVID-19.

" [S]uper-spreading was thought to be a driver ofMERS, SARS and, to a lesser extent, Ebola."

Id.
73)

Large social gatherings were only permitted if 10 or fewer people were in

attendance during Phase One, 25 or fewer people attending during Phases Two and Three, and
now if 50 or fewer people attend a social gathering during Phase Four. See
https://coronavirus.health.ny.gov/travel-large-gatherings-and-quarantines. During a large social
gathering, "[i] ndividuals must wear face coverings when they are in a public and are: within six

feet of distance from other individuals; or in a situation or setting where they are unable to
16

R.A. 16

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 17 of 24 PagelD #: 379

maintain six feet of distance from other individuals
74)

" Id.

While attending a service, "[a] distance of at least 6 ft. must be maintained

amongst all individuals at all times, unless safety or the core activity requires a shorter distance
(e.g. pallbearing) or the individuals are members of the same household. However, any singing
activity must provide for a distance between individuals of 12 ft., subject to additional protective
measures ." Exh X.
75)

Attendees are prohibited from " holding or shaking hands of members in different

households during services or prayers " Id.
76)

Attendees must also "[l]imit activities involving singing (e.g. choir, soloist,

cantor, musical ensemble), unless 12 ft. of separation can be provided between individuals or
additional distancing or physical barriers can reduce transmission of respiratory droplets
77)

,,

Id.

The CDC provides recommendations " to help communities of faith discern how

best to practice their beliefs while keeping their staff and congregations safe ." Exh. Y.
78)

It is important for these communities to promote social distancing and "[t] ake

steps to limit the size of gatherings in accordance with the guidance and directives of state
and local authorities and subject to the protections of the First Amendment and any other
applicable federal law ." Id. [Emphasis added.]
79)

It is important to consider the intention behind the guidance and the activities that

take place during normal business operations. Here, restaurants are not appropriate comparators
to religious services and therefore they should be treated differently. For example, when going
to a restaurant for a meal, the expectation during normal business operations is that small parties
(a maximum of 10 individuals per table) are there to eat their meal and leave, not to mix and
17

R.A. 17

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 18 of 24 PagelD #: 380

mingle with other patrons at the restaurant for hours. Patrons generally arrive with their group
and do not coordinate arrivals for the same time.
80)

In a religious service or ceremony, the idea is a group of people coming together

as a community to interact and pray together, as stated in ¶ 67 of the Complaint. Generally, the
congregants are arriving and leaving at the same time and are together over an extended period
of time. This type of close interaction, while having deep meaning for the congregants, poses a
higher risk of transmission of the virus. See Compl. ¶¶ 60-67.
81)
Since the beginning of September, the Department has seen the number of
clusters spike in a few areas around the state:

•
•
•
•

Broome County (One Area, Yellow)
Brooklyn (One Area, Red, Orange and Yellow)
Orange County (One Area, Red and Yellow)
Queens (Two Areas, Red, Orange and Yellow)
• Rockland County (One Area, Red and Yellow)
Exh. Z. See also Fn. 9 and Fn. 3.
82)

The data and report from the New York City Department of Health indicated that

immediate action was required to contain the virus and prevent a super-spreader event. A status
report submitted in the Soos case clearly summarizes the urgency in each of the cluster areas as
positivity rates spiked. Exh. AA. _For example, while most of New York City has a rate of
positive tests around 1%, the red zone area had a positivity rate of approximately 8% which is
alarming. Id.
83)

According to the CDC, " A high percent positivity means that SARS-CoV-2, the

virus that causes COVID-19, transmission is elevated in the jurisdiction and community
mitigation measures are warranted to reduce transmission. A high percent positivity means there
is a high rate of SARS-CoV-2 infections due to extensive transmission of the virus in the
18

R.A. 18

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 19 of 24 PagelD #: 381

geographic area." Exh. BB.
84)

The CDC also provides guidance for community mitigation when there is a high

positivity rate in an area. Exh. CC. " The goal of community mitigation in areas with local
COVID-19 transmission is to slow its spread and to protect all individuals, especially those
at increased risk for severe illness, while minimizing the negative impacts of these strategies.

,,

Id.
85)

The CDC describes layers of mitigation and levels of mitigation needed based on

the levels of transmission, which is what is being done through the creation of the three zones
described below. See id., Table 1.
86)

On October 6, 2020, the Governor announced a new Cluster Action Initiative to

deal with the hotspots found in Brooklyn and Queens, as well as Broome, Orange, and Rockland
Counties.9 The purpose is to " develop[ ] a science-based approach to attack these clusters and
stop any further spread of the virus, including new rules and restrictions directly targeted to areas
with the highest concentration of COVID cases and the surrounding communities. The new rules
will be in effect for a minimum of 14 days " See Exh Z.
87)

EO 202.68 was issued to address these hotspots and created three zones with the

level of restriction thee highest in red, and lower in yellow. Exh. DD.
88)

In the most severely impacted area, the "red zone",

Non-essential gatherings of any size shall be postponed or
cancelled; all non-essential businesses, as determined by the Empire
State Development Corporation based upon published guidance,
shall reduce in-person workforce by 100%; houses of worship shall
9

Cluster Action Initiative found at https://www.governor.ny.gov/news/governor-cuomo-announces-new-clusteraction-initiative (last visited October 8, 2020).

19

R.A. 19

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 20 of 24 PagelD #: 382

be subject to a capacity limit of 25% of maximum occupancy or 10
people, whichever is fewer; any restaurant or tavern shall cease
serving patrons food or beverage on-premises and may be open for
takeout or delivery only; and the local Department of Health shall
direct closure of all schools for in-person instruction, except as
otherwise provided in Executive Order.
Id.
89)

The "orange zone" is a moderately severe location and

Non-essential gatherings shall be limited to 10 people; certain nonessential businesses, for which there is a higher risk associated with
the transmission of the COVID-19 virus, including gyms, fitness
centers or classes, barbers, hair salons, spas, tattoo or piercing
parlors, nail technicians and nail salons, cosmetologists,
estheticians, the provision of laser hair removal and electrolysis, and
all other personal care services shall reduce in-person workforce by
100%; houses of worship shall be subject to a maximum capacity
limit of the lesser of 33% of maximum occupancy or 25 people,
whichever is fewer; any restaurant or tavern shall cease serving
patrons food or beverage inside on-premises but may provide
outdoor service, and may be open for takeout or delivery, provided
however, any one seated group or party shall not exceed 4 people;
and the local Department of Health shall direct closure of all schools
for in-person instruction, except as otherwise provided in Executive
Order.
Id.
90)

The precautionary or "yellow zone" requires that

Non-essential gatherings shall be limited to no more than 25 people;
houses of worship shall be subject to a capacity limit of 50% of its
maximum occupancy and shall adhere to Department of Health
guidance; any restaurant or tavern must limit any one seated group
or party size to 4 people; and the Department of Health shall issue
guidance by October 9, 2020 regarding mandatory testing of
students and school personnel, and schools shall adhere to such
guidance.
Id.
91)

Again, one of the most effective ways to mitigate the risk of infection and reduce

transmission is to reduce density.
20

R.A. 20

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 21 of 24 PagelD #: 383

92)

The purpose behind the initiative is to "take dramatic action within the cluster"

while also taking action in the surrounding area in order to contain and prevent spread of the
virus. Exh. BB Precautionary actions are taken in the outlying communities. Id.
93)

Each zone allows for a different maximum number of people allowed to gather.

In the red zone, only essential businesses are permitted to be open, dining is take-out only,
schools are closed and remote learning only, and all mass gatherings are prohibited, with the
exception houses of worship are allowed a maximum of 10 people

similar to regressing to

Phase One. Id.
94)

In the warning or orange zone, high risk non-essential businesses are closed, such

as gyms and personal care, only outdoor dining with four people maximum per table is
permitted, schools are still remote only, and mass gatherings allow a maximum of 10 people
indoor and outdoor, while an exception is made for houses of worship where it is 33% capacity
with a 25 person maximum. Id.
95)

The precautionary yellow zone businesses are open, indoor and outdoor dining are

permitted with a maximum of four people per table, schools are open with mandatory testing
each week of students, teachers, and staff, and a maximum of 25 people are allowed at a mass
gathering either indoor or outdoor, with the exception of houses of worship, which are allowed
50% capacity. Id.
96)

The zones are representative of the prior reopening phases, but now on a smaller

scale to target hotspots and clusters.

21

R.A. 21

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 22 of 24 PagelD #: 384

Responsible Parties
97)

For industries where people may gather, guidelines are directed at a responsible

party the individual who will ensure that the guidelines and EOs are being adhered to at the
gatherings. See https://forward.ny.gov/statewide-guidelines. It is the responsible party for any
gathering who must ensure that masks are worn, soap and water and/or hand sanitizer are
available, proper distances are maintained, and any necessary markings are made on the floor or
ground to show proper distancing.
98)

It is important for responsible parties to follow State and local guidance to prevent

transmission of COVID-19.
99)

True and accurate copies of the following documents are attached hereto:
Exhibit A: WHO Situation Report 1.
Exhibit B: WHO Situation Report 3.
Exhibit C: A true and accurate copy of the Statement on the Second Meeting of
the International Health Regulations (2005) Emergency Committee
Regarding the Outbreak of Novel Coronavirus (2019-nCoV) (Jan 30,
2020).
Exhibit D: WHO Declares Global Pandemic.
Exhibit E: A true and accurate copy of the National Emergency Declaration
signed by President Trump on March 13, 2020.
Exhibit F: WHO Article: Transmission of SARS-CoV-2: implications for
infection prevention precautions
Exhibit G: CDC: Cleaning and Disinfection for Households.
Exhibit H: CDC: Social Distancing.
Exhibit I: Governor Cuomo's Executive Order 202.
22

R.A. 22

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 23 of 24 PagelD #: 385

Exhibit J: Governor Cuomo's Executive Order 202.3.
Exhibit K: Governor Cuomo's Executive Order 202.4.
Exhibit L: Cuomo's Executive Order 202.5.
Exhibit M: Governor Cuomo's Executive Order 202.10.
Exhibit N: Governor Cuomo's Executive Order 202.32.
Exhibit O: Governor Cuomo's Executive Order 202.33.
Exhibit P: Governor Cuomo's Executive Order 202.42.
Exhibit Q: Governor Cuomo' s Executive Order 202.45.
Exhibit R: Governor Cuomo's Executive Order 205.
Exhibit S: Governor Cuomo's Executive Order 202.61.
Exhibit T: Scientific American Article.
Exhibit U: New Scientist Article.
Exhibit V: CDC Large Event Considerations.
Exhibit W: NIH, COVID-19 Super-spreaders: Definitional Quandaries and
Implications
Exhibit X:_Governor Cuomo's Executive Order 202.6.
Exhibit Y: CDC Considerations for Communities of Faith.
Exhibit Z: Governor Cuomo's Announcement of Cluster Initiative.
Exhibit AA: New York City Status Report in Soos, et al. v. Cuomo, et al., 1:20CV-651 (GLS)(DJS).
Exhibit BB: CDC Frequently Asked Questions: Calculating Severe Acute
Respiratory Syndrome Coronavirus 2 (SARS-CoV-2) RT-PCR
Laboratory Test Percent Positivity.
Exhibit CC: CDC Implementation of Mitigation Strategies for Communities.
23

R.A. 23

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 24 of 24 PagelD #: 386

Exhibit DD: Governor Cuomo's Executive Order 202.68
Exhibit EE: Affidavit of Elizabeth M. Dufort, M.D., FAAP, sworn to September
14, 2020 in Sportsmen's Tavern LLC v. N.Y. State Liquor Auth.,
Index No. 809297 (Sup. Ct., Erie Cnty.) (without exhibits)
Exhibit FF: Declaration of Howard Zucker, M.D., J.D, dated August 11, 2020.
in DiMartile et al v. Cuomo, et al., 20-cv-859 (N.D.N.Y.) (without
exhibits).
Dated: October 9, 2020
Albany, New York
____________________________
Howard A. Zucker, M.D., J.D.

24

R.A. 24

.

·

I

I ' :

'

.: !

:

I

t

.,

11 • I

( ~ \ World Health
~~ii Organization

11•

I•••·

t

•••·I:

ZIKA VIRUS

Novel Coronavirus (2019-nCoV)
SITUATION REPORT - 1
21 JANUARY 2020

Data as reported by: 20 January 2020

SUMMARY
Event highlights from 31 December 2019 to 20 January 2020:

•

•
•
•
•
•
•

On 31 December 2019, the WHO China Country Office was informed of cases of pneumonia
unknown etiology (unknown cause) detected in Wuhan City, Hubei Province of China. From
31 December 2019 through 3 January 2020, a total of 44 case-patients with pneumonia of
unknown etiology were reported to WHO by the national authorities in China. During this
reported period, the causal agent was not identified.
On 11 and 12 January 2020, WHO received further detailed information from the National
Health Commission China that the outbreak is associated with exposures in one seafood
market in Wuhan City.
The Chinese authorities identified a new type of coronavirus, which was isolated on 7
January 2020.
On 12 January 2020, China shared the genetic sequence of the novel coronavirus for
countries to use in developing specific diagnostic kits.
On 13 January 2020, the Ministry of Public Health, Thailand reported the first imported case
of lab-confirmed novel coronavirus (2019-nCoV) from Wuhan, Hubei Province, China.
On 15 January 2020, the Ministry of Health, Labour and Welfare, Japan (MHLW) reported an
imported case of laboratory-confirmed 2019-novel coronavirus (2019-nCoV) from Wuhan,
Hubei Province, China.
On 20 January 2020, National IHR Focal Point (NFP) for Republic of Korea reported the first
case of novel coronavirus in the Republic of Korea.

Situation update:

•
•
•

As of 20 January 2020, 282 confirmed cases of 2019-nCoV have been reported from four
countries including China (278 cases), Thailand (2 cases), Japan (1 case) and the Republic of
Korea (1 case);
Cases in Thailand, Japan and Republic of Korea were exported from Wuhan City, China;
Among the 278 cases confirmed in China, 258 cases were reported from Hubei Province, 14
from Guangdong Province, five from Beijing Municipality and one from Shanghai Municipality;

1

R.A. 25

:

Case 1:20-cv-04834-KAM-RML Document 12-1 Filed 10/09/20 Page 2 of 5 PagelD # : 388

•
•

Of the 278 confirmed cases, 51 cases are severely ill1, 12 are in critical condition2;
Six deaths have been reported from Wuhan City.

I. SURVEILLANCE
Reported incidence of confirmed 2019-nCoV cases
Table 1. Countries, territories or areas with reported confirmed cases of 2019-nCoV, 20 January
2020
WHO Regional
Country, territory, area
Total number of
Office
confirmed cases
WPRO
China Hubei Province
258
China Guangdong
14
China Beijing Municipality
5
China Shanghai Municipality
1
Japan
1
Republic of Korea
1
SEARO
Thailand
2
Total confirmed
282
cases
Details of cases reported on 20 January 2020:
•

Wuhan City:
•
60 new confirmed cases including three deaths.

•

Guangdong Province:
•
Fourteen confirmed cases (one case was confirmed on 19 January) including four severe
cases, two critical cases, no deaths;
•
Of the 14 confirmed cases, 12 had travel history to Wuhan and two cases had contact history
with cases;
•
Nine were male and fives were female.

•

Beijing Municipality:
•
Five confirmed cases (two cases were confirmed on 19 January);
•
Of the three new confirmed cases on 20 Jan, two were male and one was a female;
•
All five cases had a travel history to Wuhan and are currently asymptomatic.

•

Shanghai Municipality:
•
One confirmed case in a female;
•
Travelled to Shanghai from Wuhan on 12 January;

Severe illness: According to any of the following criteria:
(1) dyspnea; (2) respiratory rate more than 30 bpm; (3) hypoxemia; (4) chest X-ray with multi-lobar infiltrates or pulmonary
infiltration progressed more than 50% within 24 - 48 hours.
2 Critical condition: According to any of the following criteria:
(1) respiratory failure; (2) septic shock; (3) other organ failure which requires Intensive Care Unit (ICU) admission.
1

2

R.A. 26

Case 1:20-cv-04834-KAM-RML Document 12-1 Filed 10/09/20 Page 3 of 5 PagelD # : 389

•

Two contacts have been identified for follow up.

II. PREPAREDNESS AND RESPONSE:
WHO:
WHO has been in regular and direct contact with Chinese as well as Japanese, Korean and
Thai authorities since the reporting of these cases. The three countries have shared
information with WHO under the International Health Regulations. WHO is also informing
other countries about the situation and providing support as requested;
On 2 January, the incident management system was activated across the three levels of
WHO (country office, regional office and headquarters);
Developed the surveillance case definitions for human infection with 2019-nCoV and is
updating it as per the new information becomes available;
Developed interim guidance for laboratory diagnosis, clinical management, infection
prevention and control in health care settings, home care for mild patients, risk
communication and community engagement;
Prepared disease commodity package for supplies necessary in identification and
management of confirmed patients;
Provided recommendations to reduce risk of transmission from animals to humans;
Updated the travel advice for international travel in health in relation to the outbreak of
pneumonia caused by a new coronavirus in China;
Utilizing global expert networks and partnerships for laboratory, infection prevention and
control, clinical management and mathematical modelling;
Activation of R&D blueprint to accelerate diagnostics, vaccines, and therapeutics;
WHO is working with our networks of researchers and other experts to coordinate global
work on surveillance, epidemiology, modelling, diagnostics, clinical care and treatment, and
other ways to identify, manage the disease and limit onward transmission. WHO has issued
interim guidance for countries, updated to take into account the current situation.

III. COUNTRY RESPONSE:
China:

•
•
•
•
•
•

National authorities are conducting active case finding in all provinces;
Since 14 January 2020, 35 infrared thermometers have been installed in airports, railway
stations, long-distance bus stations, and ferry terminals;
Search expanded for additional cases within and outside of Wuhan City;
Active / retroactive case finding in medical institutions in Wuhan City;
The Huanan Seafood Wholesale Market in Wuhan city was closed on 1 January 2020 for
environmental sanitation and disinfection. Market inspection in expansion to other markets;
Public education on disease prevention and environmental hygiene further strengthened in
public places across the city, farmers' markets in particular.

3

R.A. 27

Case 1:20-cv-04834-KAM-RML Document 12-1 Filed 10/09/20 Page 4 of 5 PagelD # : 390

Thailand:

•

•
•
•

The Department of Disease Control has been implementing its surveillance protocol by fever
screening of travellers from all direct flights from Wuhan, China to the Suvarnabhumi, Don
Mueang, Chiang Mai, Phuket and Krabi airports, with the screening protocol starting at Krabi
Airport started on 17 January 2020;
From 3 to 20 January 2020, among 116 flights, 18,383 passengers and aircrew members
were screened for respiratory symptoms and febrile illness;
As of 20 January 2020, the Department of Disease Control, Ministry of Public Health,
Thailand has scaled up the Emergency Operations Center to Level 2 to closely monitor the
ongoing situation both at the national and international levels;
Risk communication guidance has been shared with the public and a hotline has been
established by the Department of Disease Control for people returning from the affected
area in China with related symptoms.

Japan:

•
•
•
•
•
•
•
•
•
•
•
•

Contact tracing and other epidemiological investigations are underway by the local health
authorities in Japan;
As of 20 January 2020, 41 contacts have been followed. Of the 41 contacts, 37 have not
shown any symptoms, three have left the country and efforts have been made to reach one
contact;
The Japanese Government has scaled up a whole-of-government coordination mechanism
on the 16 January;
The MHLW has strengthened surveillance for undiagnosed severe acute respiratory
illnesses since the report of undiagnosed pneumonia in Wuhan, China;
From 6 January, MHLW requested local health governments to be aware of the
respiratory illnesses in Wuhan by using the existing surveillance system for serious
infectious illness with unknown etiology;
NIID is supporting local authorities on epidemiologic investigations including contact
tracing;
Quarantine and screening measures have been enhanced for travelers from Wuhan city
at the point of entries since 7 January;
NIID established an in-house PCR assay for nCoV on 16 January;
Revision of the risk assessment by NIID is being conducted, including case definition of
close contacts;
The public risk communication has been enhanced;
A hotline has been established among the different ministries in the government;
The MHLW is working closely with WHO and other related Member States to foster
mutual investigations and information sharing.

Republic of Korea:

•
•

Contact tracing and other epidemiological investigation are underway;
The government of the Republic of Korea has scaled up the national alert level from Blue
(Level 1) to Yellow (Level 2 out of 4-level national crisis management system);

4

R.A. 28

Case 1:20-cv-04834-KAM-RML Document 12-1 Filed 10/09/20 Page 5 of 5 PagelD # : 391

•
•
•

The Republic of Korea health authority has strengthened surveillance for pneumonia
cases in health facilities nationwide since 3 January 2020;
Quarantine and screening measures have been enhanced for travelers from Wuhan at
the point of entries (PoE) since 3 January 2020;
Public risk communication has been enhanced.

Resources:
Technical interim guidance for novel coronavirus, WHO:
https://www.who.int/health-topics/coronavirus
WHO travel advice for international travel and trade in relation to the outbreak of pneumonia
caused by a new coronavirus in China:
https://www.who.int/ith/20200901_outbreak_of_Pneumonia_caused_by_a_new_coronavirus_in_C/en/
Press statement by KCDC (in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365794&act=view
#
Second Press statement by KCDC (in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365805&act=view
#
Wuhan Municipal Health Commission's briefing on the pneumonia epidemic situation, (in
Chinese):
http://wjw.wuhan.gov.cn/front/web/list2nd/no/710
Disease outbreak news, Novel Coronavirus:
https://www.who.int/csr/don/en/
Thailand Ministry of Public Health situation update on novel coronavirus (in Thai):
https://ddc.moph.go.th/viralpneumonia/index.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 16 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08906.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 6 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08767.html
Notice sent out from Health and Food Safety Planning Division, Quarantine Station Operation
Management Office (in Japanese):
https://www.mhlw.go.jp/content/10900000/000582967.pdf

5

R.A. 29

ZIKA VIRUS

Novel Coronavirus (2019-nCoV)
SITUATION REPORT - 3
23 JANUARY 2020

Data as reported by: 23 January 20201

SUMMARY
Situation update:

•
•
•
•
•
•

A total of 581 confirmed cases have been reported for novel coronavirus (2019-nCoV) globally;
Of the 581 cases reported, 571 cases were reported from China;
Cases have been reported in Thailand, Japan, Hong Kong Special Administrative Region, Taipei
Municipality, China, Macau Special Administrative Region, United States of America and the
Republic of Korea; All had travel history to Wuhan;
Of the 571 confirmed cases in China, 375 cases were confirmed from Hubei Province;
Of the 571 cases, 95 cases are severely ill2 ;
Seventeen deaths have been reported (all from Hubei Province);

On 23 January2020, the number of reported confirmed cases of 2019-nCoV has increased by 267
cases since the last situation report published on 22 January 2020. As of 23 January, China reported
cases in 25 provinces (autonomous regions and municipalities). Twenty five percent of confirmed
cases reported by China have been classified by Chinese health authorities as seriously ill (from
Wubei Province: (16% severely ill, 5% critically ill, and 4% having died).
Currently, cases infected in China have been exported to the US, Thailand, Japan and Republic of
Korea. It is expected that more cases will be exported to other countries, and that further
transmission may occur.
The initial source of 2019-nCoV still remains unknown. However, it is clear the growing outbreak is
no longer due to ongoing exposures at the Huanan seafood market in Wuhan; as in the last one
week, less than 15% of new cases reported having visited Huanan market. There is now more
evidence that 2019-nCoV spreads from human- to- human and also across generations of
cases. Moreover, family clusters involving persons with no reported travel to Wuhan have been

The situation report includes information reported to WHO Geneva by 10 AM CET
Severe illness: Accord ing to any of the following criteria:
(1) dyspnea; (2) respiratory rate more than 30 bpm; (3) hypoxemia; (4) chest X-ray with multi-lobar infiltrates or pulmonary
infiltration progressed more than 50% within 24 - 48 hours.

1
2

1

R.A. 30

92

Case 1:20-cv-04834-KAM-RML Document 12-2 Filed 10/09/20 Page 2 of 7 PagelD # : 393

reported from Guangdong Province. There have been very few reports of hospital outbreaks or
infections of health care workers, which is a prominent feature of MERS and SARS.
WHO assesses the risk of this event to be very high in China, high at the regional level and high at the
global level.3
Figure 1. Countries, territories or areas with reported confirmed cases of 2019-nCoV, 23 January
2020

Be ij ing
Tian~

Japan O

Sh ondong G

China

Hubei

Sichuan f)

Chongq ing O
-

•

Henan 8

-

Hunan

0

Shang ha i
Zhejiang

0

C,

f)

Jiangxi

C, Taipei

Guangd~ng .

Number of confirmed cases
by area•
•

l -2

•

3 - 20

•

21-100

Macao SA RC,,Hong Kong
SAR

0

•

United State$ of America

> 100
Country, area or territory wirtf cases

*There ore 131 addilionol coses reported

from 24 Provinces (autonomous regions and
municipalities), The detailed geographic
distribution of lhese coses is unknown.

3

Note: Error in situation reports published on 23,24 and 25 January as originally published, which incorrectly
summarized the risk for global level to be moderate.

2

R.A. 31

Case 1:20-cv-04834-KAM-RML Document 12-2 Filed 10/09/20 Page 3 of 7 PagelD # : 394

I. SURVEILLANCE
Reported incidence of confirmed 2019-nCoV cases
Table 1. Countries, territories or areas with reported confirmed cases of 2019-nCoV, 23 January
2020
WHO Regional Office

Confirmed
Cases

Country/Territory/Area
China

Total

571*

Hubei Province

375

Unspecified4

131

Guangdong Province

Beijing Municipality
Shanghai Municipality

Chongqing Municipality
Zhejiang Province

Jiangxi Province
Sichuan Province

WHO WPRO Region

Tianjin Municipality
Henan Province

Hunan Province

-

26

10
9

5
5

2
2

2
1

1

Shandong Province

1

Yunnan Province

1

Taipei Municipality

1

Hong Kong Special Administrative
Region

1

Macau Special Administrative Region

1

Japan

1

Republic of Korea

1

WHO SEARO Region

Thailand

4

WHO AMRO Region

United States of America

1

Total Confirmed cases

Total

4

581

These unspecified cases are reported from 24 Provinces (autonomous regions and municipalities). The distribution of
these cases as per Provinces is not known .

3

R.A. 32

Case 1:20-cv-04834-KAM-RML Document 12-2 Filed 10/09/20 Page 4 of 7 PagelD # : 395

II. PREPAREDNESS AND RESPONSE:
WHO:
WHO has been in regular and direct contact with Chinese as well as Japanese, Korean and
Thai authorities since the reporting of these cases. The three countries have shared
information with WHO under the International Health Regulations. WHO is also informing
other countries about the situation and providing support as requested;
On 2 January, the incident management system was activated across the three levels of
WHO (country office, regional office and headquarters);
Developed the surveillance case definitions for human infection with 2019-nCoV and is
updating it as per the new information becomes available;
Developed interim guidance for laboratory diagnosis, clinical management, infection
prevention and control in health care settings, home care for mild patients, risk
communication and community engagement;
Prepared disease commodity package for supplies necessary in identification and
management of confirmed patients;
Provided recommendations to reduce risk of transmission from animals to humans;
Updated the travel advice for international travel in health in relation to the outbreak of
pneumonia caused by a new coronavirus in China;
Utilizing global expert networks and partnerships for laboratory, infection prevention and
control, clinical management and mathematical modelling;
Activation of R&D blueprint to accelerate diagnostics, vaccines, and therapeutics;
WHO is working with our networks of researchers and other experts to coordinate global
work on surveillance, epidemiology, modelling, diagnostics, clinical care and treatment, and
other ways to identify, manage the disease and limit onward transmission. WHO has issued
interim guidance for countries, updated to take into account the current situation.

III. COUNTRY RESPONSE:
China:

•
•
•
•
•

National authorities are conducting active case finding in all provinces;
Search expanded for additional cases within and outside of Wuhan City;
Active / retroactive case finding in medical institutions in Wuhan City;
The Huanan Seafood Wholesale Market in Wuhan city was closed on 1 January 2020 for
environmental sanitation and disinfection. Market inspection in expansion to other markets;
Public education on disease prevention and environmental hygiene further strengthened in
public places across the city, farmers' markets in particular.

4

R.A. 33

Case 1:20-cv-04834-KAM-RML Document 12-2 Filed 10/09/20 Page 5 of 7 PagelD # : 396

Thailand:

•

•
•
•

The Department of Disease Control has been implementing its surveillance protocol by fever
screening of travellers from all direct flights from Wuhan to the Suvarnabhumi, Don
Mueang, Chiang Mai, Phuket and Krabi airports, with the screening protocol starting at Krabi
Airport started on 17 January 2020;
From 3 to 21 January 2020, among 123 flights, 19,480 passengers and aircrew members
were screened for respiratory symptoms and febrile illness;
As of 22 January 2020, the Department of Disease Control, Ministry of Public Health,
Thailand has scaled up the Emergency Operations Center to Level 3 to closely monitor the
ongoing situation both at the national and international levels;
Risk communication guidance has been shared with the public and a hotline has been
established by the Department of Disease Control for people returning from the affected
area in China with related symptoms.

Japan:

•
•
•
•
•
•
•
•
•
•

From 6 January, the Ministry requested local health governments to be aware of the
respiratory illnesses in Wuhan by using the existing surveillance system for serious
infectious illness with unknown etiology;
Quarantine and screening measures have been enhanced for travelers from Wuhan at
the point of entries since 7 January;
National Institute of Infectious Disease (NIID) established an in-house PCR assay for nCoV
on 16 January;
The Japanese Government scaled up a whole-of-government coordination mechanism on
the 16 January;
As of 21 January, National Institute of Infectious Disease (NIID) announced it will conduct
active epidemiological investigations for confirmed cases and close contacts;
The Ministry of Health has strengthened surveillance for undiagnosed severe acute
respiratory illnesses since the report of undiagnosed pneumonia in Wuhan;
Revision of the risk assessment by NIID is being conducted, including case definition of
close contacts;
The public risk communication has been enhanced;
A hotline has been established among the different ministries in the government;
The MHLW is working closely with WHO and other related Member States to foster
mutual investigations and information sharing.

Republic of Korea:

•
•
•
•
•

Contact tracing and other epidemiological investigation are underway;
The government has scaled up the national alert level from Blue (Level 1) to Yellow (Level
2 out of 4-level national crisis management system);
The health authority strengthened surveillance for pneumonia cases in health facilities
nationwide since 3 January 2020;
Quarantine and screening measures have been enhanced for travelers from Wuhan at
the point of entries (PoE) since 3 January 2020;
Public risk communication has been enhanced.

5

R.A. 34

Case 1:20-cv-04834-KAM-RML Document 12-2 Filed 10/09/20 Page 6 of 7 PagelD # : 397

United States of America:

•

•
•
•
•

On 7 January 2020, the US CDC established a 2019-nCoV Incident Management Structure. On
21 January 2020, US CDC activated its Emergency Response System to better provide ongoing
support to the 2019-nCoV response. On 21 January 2020, US CDC again updated its interim
travel health notice for persons traveling to Wuhan city, China. The travel notice was raised
from Level 1; Practice Usual Precautions, to a Level 2: Practice Enhanced Precautions advising
travellers that preliminary information suggests that older adults with underlying health
conditions may be at increased risk for severe disease.
CDC began entry screening of passengers on direct and connecting flights from Wuhan China
to the 3 main ports of entry in the United States on 17 January 2020 and will expand the
screening to Atlanta and Chicago in the coming days.
CDC issued an updated interim Health Alert Notice (HAN) Advisory to inform state and local
health departments and health care providers about this outbreak on 17 January 2020.
A CDC team has deployed a team to support the ongoing investigation in the state of
Washington in response to the first reported case of 2019-nCoV in the United States, including
potentially tracing close contacts to determine if anyone else has become ill.
CDC has developed a rRT-PCR test that can diagnose 2019-nCoV.

IV. Statistical Modelling
WHO is working with a number of mathematical model groups to better understand the
epidemiology and transmission dynamics of this event.

•

•

•

Phylogenetic analysis suggests based on 23 full genome sequences submitted to GISAID, that
the sequences exhibit little genetic variation, which is indicative of a recent origin of the
sampled and sequenced viruses. The sequenced genomes show no evidence of additional
introductions of the virus from a non-human animal reservoir, although the numbers of
sequences are limited at present. (Andrew Rambaut, University of Edinburgh, UK)
Updated estimated number of cases in Wuhan based on baseline assumptions and
alternative scenarios: a total of 4000 cases of 2019-nCoV in Wuhan City (uncertainty range:
1,000 9,700) had onset of symptoms by 18th January 2020 (Imai et al,
https://www.imperial.ac.uk/mrc-global-infectious-disease-analysis/news--wuhancoronavirus/)
The median size of the Wuhan outbreak is estimated to be 4, 050 infections (95% CI: 1.7007, 950) by using an estimate of 10 days from exposure to detection and an effective
population of 20 million people in Wuhan catchment as of January 20 (Matteo Chinazzi et al
https://www.mobslab.org/uploads/6/7/8/7/6787877/wuhan_novel_coronavirus_jan21.pdf)

6

R.A. 35

Case 1:20-cv-04834-KAM-RML Document 12-2 Filed 10/09/20 Page 7 of 7 PagelD #: 398

Resources:
Technical interim guidance for novel coronavirus, WHO:
https://www.who.int/health-topics/coronavirus
WHO travel advice for international travel and trade in relation to the outbreak of pneumonia
caused by a new coronavirus in China:
https://www.who.int/ith/20200901_outbreak_of_Pneumonia_caused_by_a_new_coronavirus_in_C/en/Press statement by KCDC
(in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365794&act=view
#
Second Press statement by KCDC (in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365805&act=view
#
Wuhan Municipal Health Commission's briefing on the pneumonia epidemic situation, (in
Chinese):
http://wjw.wuhan.gov.cn/front/web/list2nd/no/710
Disease outbreak news, Novel Coronavirus:
https://www.who.int/csr/don/en/
Thailand Ministry of Public Health situation update on novel coronavirus (in Thai):
https://ddc.moph.go.th/viralpneumonia/index.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 16 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08906.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 6 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08767.html
Notice sent out from Health and Food Safety Planning Division, Quarantine Station Operation
Management Office (in Japanese):
https://www.mhlw.go.jp/content/10900000/000582967.pdf
Situation report by WHO on Novel Coronavirus (2019-nCoV)
https://www.who.int/emergencies/diseases/novel-coronavirus-2019

7

R.A. 36

©

Statement on the second
meeting of the International
Health Regulations (2005)
Emergency Committee
regarding the outbreak of
novel coronavirus (2019-nCoV)
30 January 2020 j Statement j Geneva, Switzerland

The second meeting of the Emergency Committee convened by the WHO Director-General under
the International Health Regulations (IHR) (2005) regarding the outbreak of novel coronavirus
2019 in the People's Republic of China, with exportations to other countries, took place on Thursday,
30 January 2020, from 13:30 to 18:35 Geneva time (CEST). The Committee's role is to give advice
to the Director-General, who makes the final decision on the determination of a Public Health
Emergency of International Concern (PHEIC). The Committee also provides public health advice or
suggests formal Temporary Recommendations as appropriate.

Proceedings of the meeting
Members and advisors of the EmergencY. Committee were convened by teleconference
The Director-General welcomed the Committee and thanked them for their support. He turned the
meeting over to the Chair, Professor Didier Houssin.

R.A. 37

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

1/6

Professor Houssin also welcomed the Committee and gave the floor to the Secretariat.
A representative of the department of compliance, risk management, and ethics briefed the
Committee members on their roles and responsibilities.
Committee members were reminded of their duty of confidentiality and their responsibility to disclose
personal, financial, or professional connections that might be seen to constitute a conflict of interest.
Each member who was present was surveyed and no conflicts of interest were judged to be relevant
to the meeting. There were no changes since the previous meeting.
The Chair then reviewed the agenda for the meeting and introduced the presenters.
Representatives of the Ministry of Health of the People's Republic of China reported on
the current situation and the public health measures being taken. There are now 7711 confirmed
and 12167 suspected cases throughout the country. Of the confirmed cases, 1370 are severe and
170 people have died. 124 people have recovered and been discharged from hospital.
The WHO Secretariat provided an overview of the situation in other countries. There are
now 83 cases in 18 countries. Of these, only 7 had no history of travel in China. There has been
human-to-human transmission in 3 countries outside China. One of these cases is severe and there
have been no deaths.
At its first meeting, the Committee expressed divergent views on whether this event constitutes a
PHEIC or not. At that time, the advice was that the event did not constitute a PHEIC, but
theCommittee members agreed on the urgency of the situation and suggested that the Committee
should continue its meeting on the next day, when it reached the same conclusion.
This second meeting takes place in view of significant increases in numbers of cases and additional
countries reporting confirmed cases.

Conclusions and advice
The Committee welcomed the leadership and political commitment of the very highest levels
of Chinese government, their commitment to transparency, and the efforts made to investigate and
contain the current outbreak. China quickly identified the virus and shared its sequence, so that
other countries could diagnose it quickly and protect themselves, which has resulted in the rapid
development of diagnostic tools.

R.A. 38

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

2/6

The very strong measures the country has taken include daily contact with WHO
and comprehensive multi-sectoral approaches to prevent further spread. It has also taken public
health measures in other cities and provinces; is conducting studies on the severity and
transmissibility of the virus, and sharing data and biological material. The country has also agreed to
work with other countries who need their support. The measures China has taken are good not only
for that country but also for the rest of the world.
The Committee acknowledged the leading role of WHO and its partners.
The Committee also acknowledged that there are still many unknowns, cases have now been
reported in five WHO regions in one month, and human-to-human transmission has
occurred outside Wuhan and outside China.
The Committee believes that it is still possible to interrupt virus spread, provided that countries put in
place strong measures to detect disease early, isolate and treat cases, trace contacts, and promote
social distancing measures commensurate with the risk. It is important to note that as the situation
continues to evolve, so will the strategic goals and measures to prevent and reduce spread of the
infection. The Committee agreed that the outbreak now meets the criteria for a Public Health
Emergency of International Concern and proposed the following advice to be issued as Temporary
Recommendations.
The Committee emphasized that the declaration of a PHEIC should be seen in the spirit of support
and appreciation for China, its people, and the actions China has taken on the frontlines of this
outbreak, with transparency, and , it is to be hoped, with success. In line with the need for global
solidarity, the Committee felt that a global coordinated effort is needed to enhance preparedness in
other regions of the world that may need additional support for that.

Advice to WHO
The Committee welcomed a forthcoming WHO multidisciplinary technical mission to China, including
national and local experts. The mission should review and support efforts to investigate the animal
source of the outbreak, the clinical spectrum of the disease and its severity, the extent of human-tohuman transmission in the community and in healthcare facilities, and efforts to control the
outbreak. This mission will provide information to the international community to aid in
understanding the situation and its impact and enable sharing of experience and successful
measures.
The Committee wished to re-emphasize the importance of studying the possible source, to rule
out hidden transmission and to inform risk management measures

R.A. 39

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

3/6

The Committee also emphasized the need for enhanced surveillance in regions outside Hubei,
including pathogen genomic sequencing, to understand whether local cycles of transmission
are occurring .
WHO should continue to use its networks of technical experts to assess how best this outbreak can
be contained globally.
WHO should provide intensified support for preparation and response, especially in vulnerable
countries and regions.
Measures to ensure rapid development and access to potential vaccines, diagnostics, antiviral
medicines and other therapeutics for low- and middle-income countries should be developed.
WHO should continue to provide all necessary technical and operational support to respond to this
outbreak, including with its extensive networks of partners and collaborating
institutions, to implement a comprehensive risk communication strategy, and to allow for the
advancement of research and scientific developments in relation to this novel coronavirus.
WHO should continue to explore the advisability of creating an intermediate level of alert between
the binary possibilities of PHEIC or no PHEIC, in a way that does not require reopening negotiations
on the text of the IHR (2005).
WHO should timely review the situation with transparency and update its evidence-based
recommendations.
The Committee does not recommend any travel or trade restriction based on the current information
available.
The Director-General declared that the outbreak of 2019-nCoV constitutes a PHEIC and
accepted the Committee's advice and issued this advice as Temporary Recommendations
under the IHR.

To the People's Republic of China
Continue to:
• Implement a comprehensive risk communication strategy to regularly inform the population on the
evolution of the outbreak, the prevention and protection measures for the population, and the
response measures taken for its containment.

R.A. 40

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

4/6

• Enhance public health measures for containment of the current outbreak.
• Ensure the resilience of the health system and protect the health workforce.
• Enhance surveillance and active case finding across China.
• Collaborate with WHO and partners to conduct investigations to understand the epidemiology and
the evolution of this outbreak and measures to contain it.
• Share relevant data on human cases.
• Continue to identify the zoonotic source of the outbreak, and particularly the potential for
circulation with WHO as soon as it becomes available.
• Conduct exit screening at international airports and ports, with the aim of early detection
of symptomatic travelers for further evaluation and treatment, while minimizing interference with
international traffic.

To all countries
It is expected that further international exportation of cases may appear in any country. Thus, all
countries should be prepared for containment, including active surveillance, early detection,
isolation and case management, contact tracing and prevention of onward spread of 2019nCoVinfection, and to share full data with WHO. Technical advice is available on the WHO website.
Countries are reminded that they are legally required to share information with WHO under the IHR.
Any detection of 2019-nCoV in an animal (including information about the species, diagnostic tests,
and relevant epidemiological information) should be reported to the World Organization for Animal
Health (OIE) as an emerging disease.
Countries should place particular emphasis on reducing human infection, prevention of secondary
transmission and international spread, and contributing to the international response though multisectoral communication and collaboration and active participation in increasing knowledge on
the virus and the disease, as well as advancing research.
The Committee does not recommend any travel or trade restriction based on the current information
available.

R.A. 41

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

5/6

Countries must inform WHO about travel measures taken, as required by the IHR. Countries are
cautioned against actions that promote stigma or discrimination, in line with the principles of Article 3
of the IHR.
The Committee asked the Director-General to provide further advice on these matters and, if
necessary, to make new case-by-case recommendations, in view of this rapidly evolving situation.

To the global community
As this is a new coronavirus, and it has been previously shown that similar coronaviruses required
substantial efforts to enable regular information sharing and research, the global community should
continue to demonstrate solidarity and cooperation, in compliance with Article 44 of the IHR
(2005), in supporting each other on the identification of the source of this new virus, its full potential
for human-to-human transmission , preparedness for potential importation of cases, and research for
developing necessary treatment.
Provide support to low- and middle-income countries to enable their response to this event, as well
as to facilitate access to diagnostics, potential vaccines and therapeutics.
Under Article 43 of the IHR, States Parties implementing additional health measures that
significantly interfere with international traffic (refusal of entry or departure of international travellers,
baggage, cargo, containers, conveyances, goods, and the like, or their delay, for more than 24
hours) are obliged to send to WHO the public health rationale and justification within 48 hours of
their implementation. WHO will review the justification and may request countries to reconsider their
measures. WHO is required to share with other States Parties the information about measures and
the justification received.
The Emergency Committee will be reconvened within three months or earlier, at the discretion of the
Director-General.
The Director-General thanked the Committee for its work.

Subscribe to our newsletters

R.A. 42

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

6/6

7/29/202C ase 1:20-cv-04834-~

M31re!W::Ge~

i\t rlma4 s afii-let:le~ i > ~ 0n deaigesl: o ff\4rffiagm1D

#:

405

WHO Director-General's
opening remarks at the media
briefing on COVID-19 - 11
March 2020
11 March 2020

Good afternoon.
In the past two weeks, the number of cases of COVID-19 outside China has increased 13-fold, and
the number of affected countries has tripled.
There are now more than 118,000 cases in 114 countries, and 4,291 people have lost their lives.
Thousands more are fighting for their lives in hospitals.
In the days and weeks ahead, we expect to see the number of cases, the number of deaths, and the
number of affected countries climb even higher.
WHO has been assessing this outbreak around the clock and we are deeply concerned both by the
alarming levels of spread and severity, and by the alarming levels of inaction.
We have therefore made the assessment that COVID-19 can be characterized as a pandemic.
Pandemic is not a word to use lightly or carelessly. It is a word that, if misused, can cause
unreasonable fear, or unjustified acceptance that the fight is over, leading to unnecessary suffering
and death.

R.A. 43

https://www.who. intldg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19---11-march-2020

1/4

7/29/202C ase 1:20-cv-04834-~ M31re!W::Ge~

i\t rlma4s afii-let:le~i>~0n deaig0 ~ off\4rffiagm1D #: 406

Describing the situation as a pandemic does not change WHO's assessment of the threat posed by
this virus. It doesn't change what WHO is doing, and it doesn't change what countries should do.
We have never before seen a pandemic sparked by a coronavirus. This is the first pandemic caused
by a coronavirus.
And we have never before seen a pandemic that can be controlled, at the same time.
WHO has been in full response mode since we were notified of the first cases.
And we have called every day for countries to take urgent and aggressive action.
We have rung the alarm bell loud and clear.

As I said on Monday, just looking at the number of cases and the number of countries affected does
not tell the full story.
Of the 118,000 cases reported globally in 114 countries, more than 90 percent of cases are in just
four countries, and two of those - China and the Republic of Korea - have significantly declining
epidemics.
81 countries have not reported any cases, and 57 countries have reported 10 cases or less.
We cannot say this loudly enough, or clearly enough, or often enough : all countries can still change
the course of this pandemic.
If countries detect, test, treat, isolate, trace, and mobilize their people in the response, those with a
handful of cases can prevent those cases becoming clusters, and those clusters becoming
community transmission.
Even those countries with community transmission or large clusters can turn the tide on this virus.
Several countries have demonstrated that this virus can be suppressed and controlled.
The challenge for many countries who are now dealing with large clusters or community
transmission is not whether they can do the same - it's whether they will.
Some countries are struggling with a lack of capacity.
Some countries are struggling with a lack of resources.

R.A. 44

https://www.who. intldg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19---11-march-2020

2/4

7/29/202C ase 1:20-cv-04834-~

M31re!W::Ge~

i\t rlma4 s afii-let:le~ i > ~ 0n deaigea3 o ff\4rffiagm1D

#:

407

Some countries are struggling with a lack of resolve.
We are grateful for the measures being taken in Iran, Italy and the Republic of Korea to slow the
virus and control their epidemics.
We know that these measures are taking a heavy toll on societies and economies, just as they did in
China.
All countries must strike a fine balance between protecting health, minimizing economic and social
disruption, and respecting human rights.
WHO's mandate is public health. But we're working with many partners across all sectors to mitigate
the social and economic consequences of this pandemic.
This is not just a public health crisis, it is a crisis that will touch every sector - so every sector and
every individual must be involved in the fight.
I have said from the beginning that countries must take a whole-of-government, whole-of-society
approach, built around a comprehensive strategy to prevent infections, save lives and minimize
impact.
Let me summarize it in four key areas.
First, prepare and be ready.
Second, detect, protect and treat.
Third, reduce transmission .
Fourth, innovate and learn.
I remind all countries that we are calling on you to activate and scale up your emergency response
mechanisms;
Communicate with your people about the risks and how they can protect themselves - this is
everybody's business;
Find, isolate, test and treat every case and trace every contact;
Ready your hospitals;
Protect and train your health workers.

R.A. 45

https://www.who. intldg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19---11-march-2020

3/4

7/29/202C ase 1:20-cv-04834-~M31re!W::Ge~ i \ t rlma4 s afii-let:le~i>~

0 n deaig094 o ff\4rffia gm1D

#:

408

And let's all look out for each other, because we need each other.

There's been so much attention on one word.
Let me give you some other words that matter much more, and that are much more actionable.
Prevention.
Preparedness.
Public health.
Political leadership.
And most of all, people.
We're in this together, to do the right things with calm and protect the citizens of the world. It's
doable.
I thank you.

Subscribe to the WHO newsletter~

R.A. 46

https://www.who. intldg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19---11-march-2020

4/4

PROCLAMATIONS

Proclamation on Declaring a National Emergency
Concerning the Novel Coronavirus Disease (COVID19) Outbreak
Issued on: March 13, 2020

* * *
In December 2019, a novel (new) coronavirus known as SARS-CoV-2 ("the virus") was first detected
in Wuhan, Hubei Province, People's Republic of China, causing outbreaks of the coronavirus
disease COVID-19 that has now spread globally. The Secretary of Health and Human Services (HHS)
declared a public health emergency on January 31, 2020, under section 319 of the Public Health
Service Act (42 U.S.C. 247d), in response to COVID-19. I have taken sweeping action to control the
spread of the virus in the United States, including by suspending entry of foreign nationals seeking
entry who had been physically present within the prior 14 days in certain jurisdictions where
COVID-19 outbreaks have occurred, including the People's Republic of China, the Islamic Republic
of Iran, and the Schengen Area of Europe. The Federal Government, along with State and local
governments, has taken preventive and proactive measures to slow the spread of the virus and
treat those affected, including by instituting Federal quarantines for individuals evacuated from
foreign nations, issuing a declaration pursuant to section 319F-3 of the Public Health Service Act
(42 U.S.C. 247d-6d), and releasing policies to accelerate the acquisition of personal protective
equipment and streamline bringing new diagnostic capabilities to laboratories. On March 11, 2020,
the World Health Organization announced that the COVID-19 outbreak can be characterized as a
pandemic, as the rates of infection continue to rise in many locations around the world and across
the United States.

The spread of COVID-19 within our Nation's communities threatens to strain our Nation's healthcare
systems. As of March 12, 2020, 1,645 people from 47 States have been infected with the virus that

R.A. 47

https://www.whitehouse.gov/presidential-actions/proclamation-declaring-national-emergency-concerning-novel-coronavirus-disease-covid-19-outbreak/

1/3

7/29/202€:ase

1 :~Eae~ ~~4e~

ali\lMinal

00@1~

bce~ th~N61.i'II a.&1600/r~

i

isl?cage® 1of1

~lc{j)ljfe

House

causes COVID-19. It is incumbent on hospitals and medical facilities throughout the country to
assess their preparedness posture and be prepared to surge capacity and capability. Additional
measures, however, are needed to successfully contain and combat the virus in the United States.
NOW, THEREFORE, I, DONALD J. TRUMP, President of the United States, by the authority vested in
me by the Constitution and the laws of the United States of America, including sections 201 and 301
of the National Emergencies Act (50 U.S.C. 1601 et seq.) and consistent with section 1135 of the
Social Security Act (SSA), as amended (42 U.S.C. 1320b-5), do hereby find and proclaim that the
COVID-19 outbreak in the United States constitutes a national emergency, beginning March 1, 2020.
Pursuant to this declaration, I direct as follows:
Section 1. EmergencY. AuthoritY., The Secretary of HHS may exercise the authority under section
1135 of the SSA to temporarily waive or modify certain requirements of the Medicare, Medicaid, and
State Children's Health Insurance programs and of the Health Insurance Portability and
Accountability Act Privacy Rule throughout the duration of the public health emergency declared in
response to the COVID-19 outbreak.
Sec. ,2. Certification and Notice. In exercising this authority, the Secretary of HHS shall provide
certification and advance written notice to the Congress as required by section 1135(d) of the SSA
(42 U.S.C. 1320b-5(d)).
Sec. J. General Provisions. (a) Nothing in this proclamation shall be construed to impair or
otherwise affect:

(i) the authority granted by law to an executive department or agency, or the head thereof; or

(ii) the functions of the Director of the Office of Management and Budget relating to budgetary,
administrative, or legislative proposals.

(b) This proclamation shall be implemented consistent with applicable law and subject to the
availability of appropriations.

(c) This proclamation is not intended to, and does not, create any right or benefit, substantive or
procedural, enforceable at law or in equity by any party against the United States, its departments,
agencies, or entities, its officers, employees, or agents, or any other person.

R.A. 48

https://www.whitehouse.gov/presidential-actions/proclamation-declaring-national-emergency-concerning-novel-coronavirus-disease-covid-19-outbreak/

2/3

7/29/202€:ase

1 :~Eae~ ~~4e~

aliUdinal 00@1~bce~

th~N61.i'II a.&1600/r~ isl?cage® 1of1i ~lc{j)ljfe '4t1it1 House

IN WITNESS WHEREOF, I have hereunto set my hand this thirteenth day of March, in the year of our
Lord two thousand twenty, and of the Independence of the United States of America the two
hundred and forty-fourth .
DONALD J. TRUMP

R.A. 49

https://www.whitehouse.gov/presidential-actions/proclamation-declaring-national-emergency-concerning-novel-coronavirus-disease-covid-19-outbreak/

3/3

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 1 of 21 PagelD #: 412

-J

(m!R~\ World Health
...-,,or_-;;

Organization

Transmission of SARS-CoV-2:
implications for infection
prevention precautions
Scientific Brief
This document is an update to the scientific brief published on 29 March 2020 entitled Modes of
transmission of virus causing COVID-19: implications for infection prevention and control (IPC)
precaution recommendations and includes new scientific evidence available on transmission of
SARS-CoV-2, the virus that causes COVID-19.

Overview
This scientific brief provides an overview of the modes of transmission of SARS-CoV-2, what is
known about when infected people transmit the virus, and the implications for infection prevention
and control precautions within and outside health facilities. This scientific brief is not a systematic
review. Rather, it reflects the consolidation of rapid reviews of publications in peer-reviewed journals
and of non-peer-reviewed manuscripts on pre-print servers, undertaken by WHO and partners.
Preprint findings should be interpreted with caution in the absence of peer review. This brief is also
informed by several discussions via teleconferences with the WHO Health Emergencies Programme
ad hoc Experts Advisory Panel for IPC Preparedness, Readiness and Response to COVID-19, the
WHO ad hoc COVID-19 IPC Guidance Development Group (COVID-19 IPC GDG), and by review of
external experts with relevant technical backgrounds.

R.A. 50

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 2 of 21 PagelD #: 413

The overarching aim of the global Strategic Preparedness and Response Plan for COVID-19(1) is to
control COVID-19 by suppressing transmission of the virus and preventing associated illness and
death. Current evidence suggests that SARS-CoV-2, the virus that causes COVID-19, is
predominantly spread from person-to-person. Understanding how, when and in what types of settings
SARS-CoV-2 spreads is critical to develop effective public health and infection prevention and control
measures to break chains of transmission.

Modes of transmission
This section briefly describes possible modes of transmission for SARS-CoV-2, including contact,
droplet, airborne, fomite, fecal-oral, bloodborne, mother-to-child, and animal-to-human transmission.
Infection with SARS-CoV-2 primarily causes respiratory illness ranging from mild disease to severe
disease and death, and some people infected with the virus never develop symptoms.

Contact and droplet transmission
Transmission of SARS-CoV-2 can occur through direct, indirect, or close contact with infected people
through infected secretions such as saliva and respiratory secretions or their respiratory droplets,
which are expelled when an infected person coughs, sneezes, talks or sings.(2-10) Respiratory
droplets are >5-10 µm in diameter whereas droplets -<5 µm in diameter are referred to as droplet
nuclei or aerosols.(11) Respiratory droplet transmission can occur when a person is in close contact
(within 1 metre) with an infected person who has respiratory symptoms (e.g. coughing or sneezing)
or who is talking or singing; in these circumstances, respiratory droplets that include virus can reach
the mouth, nose or eyes of a susceptible person and can result in infection. Indirect contact
transmission involving contact of a susceptible host with a contaminated object or surface (fomite
transmission) may also be possible (see below).

Airborne transmission
Airborne transmission is defined as the spread of an infectious agent caused by the dissemination of
droplet nuclei (aerosols) that remain infectious when suspended in air over long distances and time.
(11) Airborne transmission of SARS-CoV-2 can occur during medical procedures that generate
aerosols (aerosol generating procedures).(12) WHO, together with the scientific community, has
been actively discussing and evaluating whether SARS-CoV-2 may also spread through aerosols in
the absence of aerosol generating procedures, particularly in indoor settings with poor ventilation.

R.A. 51

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 3 of 21 PagelD #: 414

The physics of exhaled air and flow physics have generated hypotheses about possible mechanisms
of SARS-CoV-2 transmission through aerosols.(13-16) These theories suggest that 1) a number of
respiratory droplets generate microscopic aerosols (<5 µm) by evaporating, and 2) normal breathing
and talking results in exhaled aerosols. Thus, a susceptible person could inhale aerosols, and could
become infected if the aerosols contain the virus in sufficient quantity to cause infection within the
recipient. However, the proportion of exhaled droplet nuclei or of respiratory droplets that evaporate
to generate aerosols, and the infectious dose of viable SARS-CoV-2 required to cause infection in
another person are not known, but it has been studied for other respiratory viruses.(17)
One experimental study quantified the amount of droplets of various sizes that remain airborne
during normal speech. However, the authors acknowledge that this relies on the independent action
hypothesis, which has not been validated for humans and SARS-CoV-2.(18) Another recent
experimental model found that healthy individuals can produce aerosols through coughing and
talking (19), and another model suggested high variability between individuals in terms of particle
emission rates during speech, with increased rates correlated with increased amplitude of
vocalization.(20) To date, transmission of SARS-CoV-2 by this type of aerosol route has not been
demonstrated; much more research is needed given the possible implications of such route of
transmission.
Experimental studies have generated aerosols of infectious samples using high-powered jet
nebulizers under controlled laboratory conditions. These studies found SARS-CoV-2 virus RNA in air
samples within aerosols for up to 3 hours in one study (21) and 16 hours in another, which also found
viable replication-competent virus.(22) These findings were from experimentally induced aerosols
that do not reflect normal human cough conditions.
Some studies conducted in health care settings where symptomatic COVID-19 patients were cared
for, but where aerosol generating procedures were not performed, reported the presence of SARSCoV-2 RNA in air samples (23-28), while other similar investigations in both health care and nonhealth care settings found no presence of SARS-CoV-2 RNA; no studies have found viable virus in
air samples.(29-36) Within samples where SARS-CoV-2 RNA was found, the quantity of RNA
detected was in extremely low numbers in large volumes of air and one study that found SARS-CoV2 RNA in air samples reported inability to identify viable virus. (25) The detection of RNA using
reverse transcription polymerase chain reaction (RT-PCR)-based assays is not necessarily indicative
of replication- and infection-competent (viable) virus that could be transmissible and capable of
causing infection.(37)
Recent clinical reports of health workers exposed to COVID-19 index cases, not in the presence of
aerosol-generating procedures, found no nosocomial transmission when contact and droplet
precautions were appropriately used, including the wearing of medical masks as a component of the

R.A. 52

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 4 of 21 PagelD #: 415

personal protective equipment (PPE). (38, 39) These observations suggest that aerosol
transmission did not occur in this context. Further studies are needed to determine whether it is
possible to detect viable SARS-CoV-2 in air samples from settings where no procedures that
generate aerosols are performed and what role aerosols might play in transmission.
Outside of medical facilities, some outbreak reports related to indoor crowded spaces (40) have
suggested the possibility of aerosol transmission, combined with droplet transmission, for example,
during choir practice (7), in restaurants (41) or in fitness classes.(42) In these events, short-range
aerosol transmission, particularly in specific indoor locations, such as crowded and inadequately
ventilated spaces over a prolonged period of time with infected persons cannot be ruled out.
However, the detailed investigations of these clusters suggest that droplet and fomite transmission
could also explain human-to-human transmission within these clusters. Further, the close contact
environments of these clusters may have facilitated transmission from a small number of cases to
many other people (e.g., superspreading event), especially if hand hygiene was not performed and
masks were not used when physical distancing was not maintained.(43)

Fomite transmission
Respiratory secretions or droplets expelled by infected individuals can contaminate surfaces and
objects, creating fomites (contaminated surfaces). Viable SARS-CoV-2 virus and/or RNA detected by
RT-PCR can be found on those surfaces for periods ranging from hours to days, depending on the
ambient environment (including temperature and humidity) and the type of surface, in particular at
high concentration in health care facilities where COVID-19 patients were being treated.(21, 23, 24,
26, 28, 31-33, 36, 44, 45) Therefore, transmission may also occur indirectly through touching
surfaces in the immediate environment or objects contaminated with virus from an infected person
(e.g. stethoscope or thermometer), followed by touching the mouth, nose, or eyes.
Despite consistent evidence as to SARS-CoV-2 contamination of surfaces and the survival of the
virus on certain surfaces, there are no specific reports which have directly demonstrated fomite
transmission. People who come into contact with potentially infectious surfaces often also have close
contact with the infectious person, making the distinction between respiratory droplet and fomite
transmission difficult to discern. However, fomite transmission is considered a likely mode of
transmission for SARS-CoV-2, given consistent findings about environmental contamination in the
vicinity of infected cases and the fact that other coronaviruses and respiratory viruses can transmit
this way.

R.A. 53

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 5 of 21 PagelD #: 416

Other modes of transmission
SARS-CoV-2 RNA has also been detected in other biological samples, including the urine and feces
of some patients.(46-50)One study found viable SARS-CoV-2 in the urine of one patient.(51)Three
studies have cultured SARS-CoV-2 from stool specimens. (48, 52, 53) To date, however, there have
been no published reports of transmission of SARS-CoV-2 through feces or urine.
Some studies have reported detection of SARS-CoV-2 RNA, in either plasma or serum, and the virus
can replicate in blood cells. However, the role of bloodborne transmission remains uncertain; and low
viral titers in plasma and serum suggest that the risk of transmission through this route may be low.
(48, 54) Currently, there is no evidence for intrauterine transmission of SARS-CoV-2 from infected
pregnant women to their fetuses, although data remain limited. WHO has recently published a
scientific brief on breastfeeding and COVID-19.(55) This brief explains that viral RNA fragments have
been found by RT-PCR testing in a few breast milk samples of mothers infected with SARS-CoV-2,
but studies investigating whether the virus could be isolated, have found no viable virus.
Transmission of SARS-CoV-2 from mother to child would necessitate replicative and infectious virus
in breast milk being able to reach target sites in the infant and also to overcome infant defense
systems. WHO recommends that mothers with suspected or confirmed COVID-19 should be
encouraged to initiate or continue to breastfeed.(55)
Evidence to date shows that SARS-CoV-2 is most closely related to known betacoronaviruses in
bats; the role of an intermediate host in facilitating transmission in the earliest known human cases
remains unclear.(56, 57) In addition to investigations on the possible intermediate host(s) of SARSCoV-2, there are also a number of studies underway to better understand susceptibility of SARSCoV-2 in different animal species. Current evidence suggests that humans infected with SARS-CoV-2
can infect other mammals, including dogs(58), cats(59), and farmed mink.(60) However, it remains
unclear if these infected mammals pose a significant risk for transmission to humans.

When do people infected with SARS-CoV-2
infect others?
Knowing when an infected person can spread SARS-CoV-2 is just as important as how the virus
spreads (described above). WHO has recently published a scientific brief outlining what is known
about when a person may be able to spread, based on the severity of their illness.(61)

R.A. 54

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 6 of 21 PagelD #: 417

In brief, evidence suggests that SARS-CoV-2 RNA can be detected in people 1-3 days before their
symptom onset, with the highest viral loads, as measured by RT-PCR, observed around the day of
symptom onset, followed by a gradual decline over time.(47, 62-65) The duration of RT-PCR
positivity generally appears to be 1-2 weeks for asymptomatic persons, and up to 3 weeks or more
for patients with mild to moderate disease.(62, 65-68) In patients with severe COVID-19 disease, it
can be much longer.(47)
Detection of viral RNA does not necessarily mean that a person is infectious and able to transmit the
virus to another person. Studies using viral culture of patient samples to assess the presence of
infectious SARS-CoV-2 are currently limited. (61) Briefly, viable virus has been isolated from an
asymptomatic case,(69) from patients with mild to moderate disease up to 8-9 days after symptom
onset, and for longer from severely ill patients.(61) Full details about the duration of viral shedding
can be found in the WHO guidance document on Criteria for releasing COVID-19 patients from
isolation. (61) Additional studies are needed to determine the duration of viable virus shedding
among infected patients.

SARS-CoV-2 infected persons who have symptoms can infect
others primarily through droplets and close contact
SARS-CoV-2 transmission appears to mainly be spread via droplets and close contact with infected
symptomatic cases. In an analysis of 75,465 COVID-19 cases in China, 78-85% of clusters occurred
within household settings, suggesting that transmission occurs during close and prolonged contact.
(6) A study of the first patients in the Republic of Korea showed that 9 of 13 secondary cases
occurred among household contacts.(70) Outside of the household setting, those who had close
physical contact, shared meals, or were in enclosed spaces for approximately one hour or more with
symptomatic cases, such as in places of worship, gyms, or the workplace, were also at increased risk
of infection.(7, 42, 71, 72) Other reports have supported this with similar findings of secondary
transmission within families in other countries.(73, 74)

SARS-CoV-2 infected persons without symptoms can also
infect others
Early data from China suggested that people without symptoms could infect others.(6) To better
understand the role of transmission from infected people without symptoms, it is important to
distinguish between transmission from people who are infected who never develop symptoms(75)

R.A. 55

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 7 of 21 PagelD #: 418

(asymptomatic transmission) and transmission from people who are infected but have not developed
symptoms yet (pre-symptomatic transmission). This distinction is important when developing public
health strategies to control transmission.
The extent of truly asymptomatic infection in the community remains unknown. The proportion of
people whose infection is asymptomatic likely varies with age due to the increasing prevalence of
underlying conditions in older age groups (and thus increasing risk of developing severe disease with
increasing age), and studies that show that children are less likely to show clinical symptoms
compared to adults.(76) Early studies from the United States (77) and China (78) reported that many
cases were asymptomatic, based on the lack of symptoms at the time of testing; however, 75-100%
of these people later developed symptoms. A recent systematic review estimated that the proportion
of truly asymptomatic cases ranges from 6% to 41%, with a pooled estimate of 16% (12%20%).(79)
However, all studies included in this systematic review have important limitations.(79) For example,
some studies did not clearly describe how they followed up with persons who were asymptomatic at
the time of testing to ascertain if they ever developed symptoms, and others defined asymptomatic
very narrowly as persons who never developed fever or respiratory symptoms, rather than as those
who did not develop any symptoms at all.(76, 80) A recent study from China that clearly and
appropriately defined asymptomatic infections suggests that the proportion of infected people who
never developed symptoms was 23%.(81)
Multiple studies have shown that people infect others before they themselves became ill, (10, 42, 69,
82, 83) which is supported by available viral shedding data (see above). One study of transmission in
Singapore reported that 6.4% of secondary cases resulted from pre-symptomatic transmission.(73)
One modelling study, that inferred the date of transmission based on the estimated serial interval and
incubation period, estimated that up to 44% (25-69%) of transmission may have occurred just before
symptoms appeared.(62) It remains unclear why the magnitude of estimates from modelling studies
differs from available empirical data.
Transmission from infected people without symptoms is difficult to study. However, information can be
gathered from detailed contact tracing efforts, as well as epidemiologic investigations among cases
and contacts. Information from contact tracing efforts reported to WHO by Member States, available
transmission studies and a recent pre-print systematic reviews suggests that individuals without
symptoms are less likely to transmit the virus than those who develop symptoms.(10, 81, 84, 85)
Four individual studies from Brunei, Guangzhou China, Taiwan China and the Republic of Korea
found that between 0% and 2.2% of people with asymptomatic infection infected anyone else,
compared to 0.8%-15.4% of people with symptoms.(10, 72, 86, 87)

R.A. 56

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 8 of 21 PagelD #: 419

Remaining questions related to transmission
Many unanswered questions about transmission of SARS-CoV-2 remain, and research seeking to
answer those questions is ongoing and is encouraged. Current evidence suggests that SARS-CoV-2
is primarily transmitted between people via respiratory droplets and contact routes  although
aerosolization in medical settings where aerosol generating procedures are used is also another
possible mode of transmission - and that transmission of COVID-19 is occurring from people who
are pre-symptomatic or symptomatic to others in close contact (direct physical or face-to-face contact
with a probable or confirmed case within one meter and for prolonged periods of time), when not
wearing appropriate PPE. Transmission can also occur from people who are infected and remain
asymptomatic, but the extent to which this occurs is not fully understood and requires further
research as an urgent priority. The role and extent of airborne transmission outside of health care
facilities, and in particular in close settings with poor ventilation, also requires further study.
As research continues, we expect to gain a better understanding about the relative importance of
different transmission routes, including through droplets, physical contact and fomites; the role of
airborne transmission in the absence of aerosol generating procedures; the dose of virus required for
transmission to occur, the characteristics of people and situations that facilitate superspreading
events such as those observed in various closed settings, the proportion of infected people who
remain asymptomatic throughout the course of their infection; the proportion of truly asymptomatic
persons who transmit the virus to others; the specific factors that drive asymptomatic and presymptomatic transmission; and the proportion of all infections that are transmitted from asymptomatic
and pre-symptomatic individuals.

Implications for preventing transmission
Understanding how, when and in which settings infected people transmit the virus is important for
developing and implementing control measures to break chains of transmission. While there is a
great deal of scientific studies becoming available, all studies that investigate transmission should be
interpreted bearing in mind the context and settings in which they took place, including the infection
prevention interventions in place, the rigor of the methods used in the investigation and the limitations
and biases of the study designs.
It is clear from available evidence and experience, that limiting close contact between infected people
and others is central to breaking chains of transmission of the virus causing COVID-19. The
prevention of transmission is best achieved by identifying suspect cases as quickly as possible,
testing, and isolating infectious cases. (88, 89) In addition, it is critical to identify all close contacts of
infected people (88) so that they can be quarantined (90) to limit onward spread and break chains of

R.A. 57

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 9 of 21 PagelD #: 420

transmission. By quarantining close contacts, potential secondary cases will already be separated
from others before they develop symptoms or they start shedding virus if they are infected, thus
preventing the opportunity for further onward spread. The incubation period of COVID-19, which is
the time between exposure to the virus and symptom onset, is on average 5-6 days, but can be as
long as 14 days. (82, 91) Thus, quarantine should be in place for 14 days from the last exposure to a
confirmed case. If it is not possible for a contact to quarantine in a separate living space, selfquarantine for 14 days at home is required; those in self-quarantine may require support during the
use of physical distancing measures to prevent the spread of the virus.
Given that infected people without symptoms can transmit the virus, it is also prudent to encourage
the use of fabric face masks in public places where there is community transmission[1] and where
other prevention measures, such as physical distancing, are not possible.(12) Fabric masks, if made
and worn properly, can serve as a barrier to droplets expelled from the wearer into the air and
environment.(12) However, masks must be used as part of a comprehensive package of preventive
measures, which includes frequent hand hygiene, physical distancing when possible, respiratory
etiquette, environmental cleaning and disinfection. Recommended precautions also include avoiding
indoor crowded gatherings as much as possible, in particular when physical distancing is not
feasible, and ensuring good environmental ventilation in any closed setting. (92, 93)
Within health care facilities, including long term care facilities, based on the evidence and the advice
by the COVID-19 IPC GDG, WHO continues to recommend droplet and contact precautions when
caring for COVID-19 patients and airborne precautions when and where aerosol generating
procedures are performed. WHO also recommends standard or transmission-based precautions for
other patients using an approach guided by risk assessment.(94) These recommendations are
consistent with other national and international guidelines, including those developed by the
European Society of Intensive Care Medicine and Society of Critical Care Medicine (95) and by the
Infectious Diseases Society of America. (96)
Furthermore, in areas with COVID-19 community transmission, WHO advises that health workers
and caregivers working in clinical areas should continuously wear a medical mask during all routine
activities throughout the entire shift.(12) In settings where aerosol-generating procedures are
performed, they should wear an N95, FFP2 or FFP3 respirator. Other countries and organizations,
including the United States Centers for Diseases Control and Prevention (97) and the European
Centre for Disease Prevention and Control (98) recommend airborne precautions for any situation
involving the care of COVID-19 patients. However, they also consider the use of medical masks as
an acceptable option in case of shortages of respirators.

R.A. 58

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 10 of 21 PagelD #: 421

WHO guidance also emphasizes the importance of administrative and engineering controls in health
care settings, as well as rational and appropriate use of all PPE (99) and training for staff on these
recommendations (IPC for Novel Coronavirus [COVID-19] Course. Geneva; World Health
Organization 2020, available at (https://openwho.org/courses/COVID-19-IPC-EN). WHO has also
provided guidance on safe workplaces. (92)

Key points of the brief
Main findings
 Understanding how, when and in what types of settings SARS-CoV-2 spreads between people is critical
to develop effective public health and infection prevention measures to break chains of transmission.
 Current evidence suggests that transmission of SARS-CoV-2 occurs primarily between people through
direct, indirect, or close contact with infected people through infected secretions such as saliva and
respiratory secretions, or through their respiratory droplets, which are expelled when an infected
person coughs, sneezes, talks or sings.
 Airborne transmission of the virus can occur in health care settings where specific medical procedures,
called aerosol generating procedures, generate very small droplets called aerosols. Some outbreak
reports related to indoor crowded spaces have suggested the possibility of aerosol transmission,
combined with droplet transmission, for example, during choir practice, in restaurants or in fitness
classes.
 Respiratory droplets from infected individuals can also land on objects, creating fomites (contaminated
surfaces). As environmental contamination has been documented by many reports, it is likely that
people can also be infected by touching these surfaces and touching their eyes, nose or mouth before
cleaning their hands.
 Based on what we currently know, transmission of COVID-19 is primarily occurring from people when
they have symptoms, and can also occur just before they develop symptoms, when they are in close
proximity to others for prolonged periods of time. While someone who never develops symptoms can
also pass the virus to others, it is still not clear to what extent this occurs and more research is needed
in this area.
 Urgent high-quality research is needed to elucidate the relative importance of different transmission
routes; the role of airborne transmission in the absence of aerosol generating procedures; the dose of
virus required for transmission to occur; the settings and risk factors for superspreading events; and the
extent of asymptomatic and pre-symptomatic transmission.

How to prevent transmission
The overarching aim of the Strategic Preparedness and Response Plan for COVID-19(1) is to control
COVID-19 by suppressing transmission of the virus and preventing associated illness and death. To
the best of our understanding, the virus is primarily spread through contact and respiratory droplets.
Under some circumstances airborne transmission may occur (such as when aerosol generating

R.A. 59

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 11 of 21 PagelD #: 422

procedures are conducted in health care settings or potentially, in indoor crowded poorly ventilated
settings elsewhere). More studies are urgently needed to investigate such instances and assess
their actual significance for transmission of COVID-19.
To prevent transmission, WHO recommends a comprehensive set of measures including:
 Identify suspect cases as quickly as possible, test, and isolate all cases (infected people) in appropriate
facilities;
 Identify and quarantine all close contacts of infected people and test those who develop symptoms so
that they can be isolated if they are infected and require care;
 Use fabric masks in specific situations, for example, in public places where there is community
transmission and where other prevention measures, such as physical distancing, are not possible;
 Use of contact and droplet precautions by health workers caring for suspected and confirmed COVID19 patients, and use of airborne precautions when aerosol generating procedures are performed;
 Continuous use of a medical mask by health workers and caregivers working in all clinical areas,
during all routine activities throughout the entire shift;
 At all times, practice frequent hand hygiene, physical distancing from others when possible, and
respiratory etiquette; avoid crowded places, close-contact settings and confined and enclosed spaces
with poor ventilation; wear fabric masks when in closed, overcrowded spaces to protect others; and
ensure good environmental ventilation in all closed settings and appropriate environmental cleaning
and disinfection.

WHO carefully monitors the emerging evidence about this critical topic and will update this scientific
brief as more information becomes available.
[1]Defined by WHO as experiencing larger outbreaks of local transmission defined through an
assessment of factors including, but not limited to: large numbers of cases not linkable to
transmission chains; large numbers of cases from sentinel surveillance; and/or multiple unrelated
clusters in several areas of the country/territory/area (https://www.who.int/publications-detail/globalsurveillance-for-covid-19-caused-by-human-infection-with-covid-19-virus-interim-guidance)

References
1. Operational planning guidance to support country preparedness and response. Geneva: World
Health Organization; 2020 (available at https://www.who.int/publications/i/item/draft-operationalplanning-guidance-for-un-country-teams).
2. Liu J, Liao X, Qian S, Yuan J, Wang F, Liu Y, et al. Community Transmission of Severe Acute
Respiratory Syndrome Coronavirus 2, Shenzhen, China, 2020. Emerg Infect Dis. 2020;26:1320-3.

R.A. 60

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 12 of 21 PagelD #: 423

3. Chan JF-W, Yuan S, Kok K-H, To KK-W, Chu H, Yang J, et al. A familial cluster of pneumonia
associated with the 2019 novel coronavirus indicating person-to-person transmission: a study of a
family cluster. Lancet. 2020;395 14-23.
4. Huang C, Wang Y, Li X, Ren L, Zhao J, Hu Y, et al. Clinical features of patients infected with 2019
novel coronavirus in Wuhan, China. Lancet. 2020;395:497-506.
5. Burke RM, Midgley CM, Dratch A, Fenstersheib M, Haupt T, Holshue M, et al. Active Monitoring of
Persons Exposed to Patients with Confirmed COVID-19  United States, JanuaryFebruary 2020.
MMWR Morb Mortal Wkly Rep. 2020;69(:245-6.
6. Report of the WHO-China Joint Mission on Coronavirus Disease 2019 (COVID-19) 16-24 February
2020. Geneva: World Health Organization; 2020 (available at https://www.who.int/docs/defaultsource/coronaviruse/who-china-joint-mission-on-covid-19-final-report.pdf).
7. Hamner L, Dubbel P, Capron I, Ross A, Jordan A, Lee J, et al. High SARS-CoV-2 Attack Rate
Following Exposure at a Choir Practice  Skagit County, Washington, March 2020. MMWR Morb
Mortal Wkly Rep. 2020;69:606-10.
8. Ghinai I, McPherson TD, Hunter JC, Kirking HL, Christiansen D, Joshi K, et al. First known personto-person transmission of severe acute respiratory syndrome coronavirus 2 (SARS-CoV-2) in the
USA. Lancet. 2020;395:1137-44.
9. Pung R, Chiew CJ, Young BE, Chin S, Chen MIC, Clapham HE, et al. Investigation of three
clusters of COVID-19 in Singapore: implications for surveillance and response measures. Lancet.
2020;395:1039-46.
10. Luo L, Liu D, Liao X, Wu X, Jing Q, Zheng J, et al. Modes of contact and risk of transmission in
COVID-19 among close contacts (pre-print). MedRxiv. 2020 doi:10.1101/2020.03.24.20042606.
11. Infection Prevention and Control of Epidemic-and Pandemic-prone Acute Respiratory Infections in
Health Care. Geneva: World Health Organization; 2014 (available at
https://apps.who.int/iris/bitstream/handle/10665/112656/9789241507134_eng.pdf;jsessionid=41AA684F
sequence=1).
12. Advice on the use of masks in the context of COVID-19. Interim guidance. Geneva: World Health
Organization; 2020 (available at https://www.who.int/publications/i/item/advice-on-the-use-of-masksin-the-community-during-home-care-and-in-healthcare-settings-in-the-context-of-the-novelcoronavirus-(2019-ncov)-outbreak).
13. Mittal R, Ni R, Seo J-H. The flow physics of COVID-19. J Fluid Mech. 2020;894.

R.A. 61

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 13 of 21 PagelD #: 424

14. Bourouiba L. Turbulent Gas Clouds and Respiratory Pathogen Emissions: Potential Implications
for Reducing Transmission of COVID-19. JAMA. 2020;323(18):1837-1838..
15. Asadi S, Bouvier N, Wexler AS, Ristenpart WD. The coronavirus pandemic and aerosols: Does
COVID-19 transmit via expiratory particles? Aerosol Sci Technol. 2020;54:635-8.
16. Morawska L, Cao J. Airborne transmission of SARS-CoV-2: The world should face the reality.
Environ Int. 2020;139:105730.
17. Gralton J Tovey TR, McLaws M-L, Rawlinson WD. Respiratory Virus RNA is detectable in
airborne and droplet particles. J Med Virol. 2013;85:2151-9.
18. Stadnytskyi V, Bax CE, Bax A, Anfinrud P. The airborne lifetime of small speech droplets and their
potential importance in SARS-CoV-2 transmission. Proc Ntl Acad Sci. 2020;117:11875-7.
19. Somsen GA, van Rijn C, Kooij S, Bem RA, Bonn D. Small droplet aerosols in poorly ventilated
spaces and SARS-CoV-2 transmission. Lancet Respir Med. 2020:S2213260020302459.
20. Asadi S, Wexler AS, Cappa CD, Barreda S, Bouvier NM, Ristenpart WD. Aerosol emission and
superemission during human speech increase with voice loudness. Sci Rep. 2019;9:2348.
21. Van Doremalen N, Bushmaker T, Morris DH, Holbrook MG, Gamble A, Williamson BN, et al.
Aerosol and surface stability of SARS-CoV-2 as compared with SARS-CoV-1. N Engl J Med.
2020;382:1564-7.
22. Fears AC, Klimstra WB, Duprex P, Weaver SC, Plante JA, Aguilar PV, et al. Persistence of
Severe Acute Respiratory Syndrome Coronavirus 2 in Aerosol Suspensions. Emerg Infect Dis
2020;26(9).
23. Chia PY, for the Singapore Novel Coronavirus Outbreak Research T, Coleman KK, Tan YK, Ong
SWX, Gum M, et al. Detection of air and surface contamination by SARS-CoV-2 in hospital rooms of
infected patients. Nat Comm. 2020;11(1).
24. Guo Z-D, Wang Z-Y, Zhang S-F, Li X, Li L, Li C, et al. Aerosol and Surface Distribution of Severe
Acute Respiratory Syndrome Coronavirus 2 in Hospital Wards, Wuhan, China, 2020. Emerg Infect
Dis. 2020;26(7).
25. Santarpia JL, Rivera DN, Herrera V, Morwitzer MJ, Creager H, Santarpia GW, et al. Transmission
potential of SARS-CoV-2 in viral shedding observed at the University of Nebraska Medical Center
(pre-print). MedRxiv. 2020 doi: 10.1101/2020.03.23.20039446.

R.A. 62

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 14 of 21 PagelD #: 425

26. Zhou J, Otter J, Price JR, Cimpeanu C, Garcia DM, Kinross J, et al. Investigating SARS-CoV-2
surface and air contamination in an acute healthcare setting during the peak of the COVID-19
pandemic in London (pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.24.20110346.
27. Liu Y, Ning Z, Chen Y, Guo M, Liu Y, Gali NK, et al. Aerodynamic analysis of SARS-CoV-2 in two
Wuhan hospitals. Nature. 2020;582:557-60.
28. Ma J, Qi X, Chen H, Li X, Zhan Z, Wang H, et al. Exhaled breath is a significant source of SARSCoV-2 emission (pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.31.20115154.
29. Faridi S, Niazi S, Sadeghi K, Naddafi K, Yavarian J, Shamsipour M, et al. A field indoor air
measurement of SARS-CoV-2 in the patient rooms of the largest hospital in Iran. Sci Total Environ.
2020;725:138401.
30. Cheng VC-C, Wong S-C, Chan VW-M, So SY-C, Chen JH-K, Yip CC-Y, et al. Air and
environmental sampling for SARS-CoV-2 around hospitalized patients with coronavirus disease 2019
(COVID-19). Infect Control Hosp Epidemiol. 2020:1-32.
31. Ong SWX, Tan YK, Chia PY, Lee TH, Ng OT, Wong MSY, et al. Air, Surface Environmental, and
Personal Protective Equipment Contamination by Severe Acute Respiratory Syndrome Coronavirus 2
(SARS-CoV-2) From a Symptomatic Patient. JAMA. 2020 323(16):1610-1612.
32. Taskforce for the COVID-19 Cruise Ship Outbreak, Yamagishi T. Environmental sampling for
severe acute respiratory syndrome coronavirus 2 (SARS-CoV-2) during a coronavirus disease
(COVID-19) outbreak aboard a commercial cruise ship (pre-print). MedRxiv. 2020.
33. Döhla M, Wilbring G, Schulte B, Kümmerer BM, Diegmann C, Sib E, et al. SARS-CoV-2 in
environmental samples of quarantined households (pre-print). MedRxiv. 2020 doi:
10.1101/2020.05.02.20088567.
34. Wu S, Wang Y, Jin X, Tian J, Liu J, Mao Y. Environmental contamination by SARS-CoV-2 in a
designated hospital for coronavirus disease 2019. Am J Infect Control. 2020;S0196-6553(20)302753.
35. Ding Z, Qian H, Xu B, Huang Y, Miao T, Yen H-L, et al. Toilets dominate environmental detection
of SARS-CoV-2 virus in a hospital (pre-print). MedRxiv. 2020 doi: 10.1101/2020.04.03.20052175.
36. Cheng VCC, Wong SC, Chen JHK, Yip CCY, Chuang VWM, Tsang OTY, et al. Escalating
infection control response to the rapidly evolving epidemiology of the coronavirus disease 2019
(COVID-19) due to SARS-CoV-2 in Hong Kong. Infect Control Hosp Epidemiol. 2020;41:493-8.

R.A. 63

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 15 of 21 PagelD #: 426

37. Bullard J, Dust K, Funk D, Strong JE, Alexander D, Garnett L, et al. Predicting infectious SARSCoV-2 from diagnostic samples. Clin Infect Dis. 2020:ciaa638.
38. Durante-Mangoni E, Andini R, Bertolino L, Mele F, Bernardo M, Grimaldi M, et al. Low rate of
severe acute respiratory syndrome coronavirus 2 spread among health-care personnel using
ordinary personal protection equipment in a medium-incidence setting. Clin Microbiol Infect.
2020:S1198743X20302706.
39. Wong SCY, Kwong RTS, Wu TC, Chan JWM, Chu MY, Lee SY, et al. Risk of nosocomial
transmission of coronavirus disease 2019: an experience in a general ward setting in Hong Kong. J
Hosp Infect. 2020;105(2):119-27.
40. Leclerc QJ, Fuller NM, Knight LE, Funk S, Knight GM, Group CC-W. What settings have been
linked to SARS-CoV-2 transmission clusters? Wellcome Open Res. 2020;5(83):83.
41. Lu J, Gu J, Li K, Xu C, Su W, Lai Z, et al. Early Release-COVID-19 Outbreak Associated with Air
Conditioning in Restaurant, Guangzhou, China, 2020. Emerg Infect Dis. 2020;26(7):1628-1631.
42. Jang S, Han SH, Rhee J-Y. Cluster of Coronavirus Disease Associated with Fitness Dance
Classes, South Korea. Emerg Infect Dis. 2020;26(8).
43. Adam D, Wu P, Wong J, Lau E, Tsang T, Cauchemez S, et al. Clustering and superspreading
potential of severe acute respiratory syndrome coronavirus 2 (SARS-CoV-2) infections in Hong Kong
(pre-print). Research Square. 2020. doi: 10.21203/rs.3.rs-29548/v1
44. Matson MJ, Yinda CK, Seifert SN, Bushmaker T, Fischer RJ, van Doremalen N, et al. Effect of
Environmental Conditions on SARS-CoV-2 Stability in Human Nasal Mucus and Sputum. Emerg
Infect Dis. 2020;26(9).
45. Pastorino B, Touret F, Gilles M, de Lamballerie X, Charrel RN. Prolonged Infectivity of SARSCoV-2 in Fomites. Emerg Infect Dis. 2020;26(9).
46. Guan WJ, Ni ZY, Hu Y, Liang WH, Ou CQ, He JX, et al. Clinical Characteristics of Coronavirus
Disease 2019 in China. New Engl J Med. 2020;382:1708-1720.
47. Pan Y, Zhang D, Yang P, Poon LLM, Wang Q. Viral load of SARS-CoV-2 in clinical samples.
Lancet Infect Dis. 2020;20(4):411-2.
48. Wang W, Xu Y, Gao R, Lu R, Han K, Wu G, et al. Detection of SARS-CoV-2 in Different Types of
Clinical Specimens. JAMA. 2020;323(18):1843-1844.
49. Wu Y, Guo C, Tang L, Hong Z, Zhou J, Dong X, et al. Prolonged presence of SARS-CoV-2 viral

R.A. 64

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 16 of 21 PagelD #: 427

RNA in faecal samples. Lancet Gastroenterol Hepatol. 2020;5(5):434-5.
50. Zheng S, Fan J, Yu F, Feng B, Lou B, Zou Q, et al. Viral load dynamics and disease severity in
patients infected with SARS-CoV-2 in Zhejiang province, China, January-March 2020: retrospective
cohort study. BMJ. 2020:m1443.
51. Sun J, Zhu A, Li H, Zheng K, Zhuang Z, Chen Z, et al. Isolation of infectious SARS-CoV-2 from
urine of a COVID-19 patient. Emerg Microbes Infect. 2020;9:991-3.
52. Xiao F, Sun J, Xu Y, Li F, Huang X, Li H, et al. Infectious SARS-CoV-2 in Feces of Patient with
Severe COVID-19. Emerg Infect Dis. 2020;26(8).
53. Zhang Y, Chen C, Zhu S, Shu C, Wang D, Song J, et al. Isolation of 2019-nCoV from a stool
specimen of a laboratory-confirmed case of the coronavirus disease 2019 (COVID-19). China CDC
Weekly. 2020;2:123-4.
54. Chang L, Zhao L, Gong H, Wang L, Wang L. Severe Acute Respiratory Syndrome Coronavirus 2
RNA Detected in Blood Donations. Emerg Infect Dis. 2020;26:1631-3.
55. Breastfeeding and COVID-19. Geneva: World Health Organization; 2020 (avaialble at
https://www.who.int/news-room/commentaries/detail/breastfeeding-and-covid-19).
56. Andersen KG, Rambaut A, Lipkin WI, Holmes EC, Garry RF. The proximal origin of SARS-CoV-2.
Nat Med. 2020;26(4):450-2.
57. Zhou P, Yang X-L, Wang X-G, Hu B, Zhang L, Zhang W, et al. A pneumonia outbreak associated
with a new coronavirus of probable bat origin. Nature. 2020;579(7798):270-3.
58. Sit TH, Brackman CJ, Ip SM, Tam KW, Law PY, To EM, et al. Infection of dogs with SARS-CoV-2.
Nature. 2020:1-6.
59. Newman A. First Reported Cases of SARS-CoV-2 Infection in Companion AnimalsNew York,
MarchApril 2020. MMWR Morbid Mortal Wkly Rep. 2020; 69(23):710713.
60. Oreshkova N, Molenaar R-J, Vreman S, Harders F, Munnink BBO, Honing RWH-v, et al. SARSCoV2 infection in farmed mink, Netherlands, April 2020 (pre-print). BioRxiv. 2020 doi:
10.1101/2020.05.18.101493.
61. Criteria for releasing COVID-19 patients from isolation Geneva: World Health Organization; 2020
(available at https://www.who.int/news-room/commentaries/detail/criteria-for-releasing-covid-19patients-from-isolation )

R.A. 65

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 17 of 21 PagelD #: 428

62. He X, Lau EH, Wu P, Deng X, Wang J, Hao X, et al. Temporal dynamics in viral shedding and
transmissibility of COVID-19. Nat Med. 2020;26(5):672-5.
63. Zou L, Ruan F, Huang M, Liang L, Huang H, Hong Z, et al. SARS-CoV-2 viral load in upper
respiratory specimens of infected patients. New Engl J Med. 2020;382(12):1177-9.
64. To KK-W, Tsang OT-Y, Leung W-S, Tam AR, Wu T-C, Lung DC, et al. Temporal profiles of viral
load in posterior oropharyngeal saliva samples and serum antibody responses during infection by
SARS-CoV-2: an observational cohort study. Lancet Infect Dis. 2020;20(5):P565-74.
65. Wölfel R, Corman VM, Guggemos W, Seilmaier M, Zange S, Müller MA, et al. Virological
assessment of hospitalized patients with COVID-2019. Nature. 2020;581(7809):465-9.
66. Zhou R, Li F, Chen F, Liu H, Zheng J, Lei C, et al. Viral dynamics in asymptomatic patients with
COVID-19. Int J Infect Dis. 2020;96:288-90.
67. Xu K, Chen Y, Yuan J, Yi P, Ding C, Wu W, et al. Factors associated with prolonged viral RNA
shedding in patients with COVID-19. Clin Infect Dis. 2020;ciaa351.
68. Qi L, Yang Y, Jiang D, Tu C, Wan L, Chen X, et al. Factors associated with duration of viral
shedding in adults with COVID-19 outside of Wuhan, China: A retrospective cohort study. Int J Infect
Dis. 2020;10.1016/j.ijid.2020.05.045.
69. Arons MM, Hatfield KM, Reddy SC, Kimball A, James A, Jacobs JR, et al. Presymptomatic SARSCoV-2 Infections and Transmission in a Skilled Nursing Facility. New Engl J Med. 2020;382(22):208190.
70. COVID-19 National Emergency Response Center, Epidemiology and Case Management Team,
Korea Centers for Disease Control and Prevention. Coronavirus Disease-19: Summary of 2,370
Contact Investigations of the First 30 Cases in the Republic of Korea. Osong Public Health Research
Perspectives. 2020;11:81-4.
71. James A, Eagle L, Phillips C, Hedges DS, Bodenhamer C, Brown R, et al. High COVID-19 Attack
Rate Among Attendees at Events at a Church - Arkansas, March 2020. MMWR Morb Mortal Wkly
Rep. 2020;69:632-5.
72. Park SY, Kim Y-M, Yi S, Lee S, Na B-J, Kim CB, et al. Coronavirus Disease Outbreak in Call
Center, South Korea. Emerg Infect Dis. 2020;26(8).
73. Wei WE, Li Z, Chiew CJ, Yong SE, Toh MP, Lee VJ. Presymptomatic Transmission of SARS-CoV2 - Singapore, January 23-March 16, 2020. MMWR Morb Mortal Wkly Rep. 2020;69(14):411-5.

R.A. 66

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 18 of 21 PagelD #: 429

74. Qian G, Yang N, Ma AHY, Wang L, Li G, Chen X, et al. COVID-19 Transmission Within a Family
Cluster by Presymptomatic Carriers in China. Clin Infect Dis. 2020;ciaa316.
75. WHO Coronavirus disease 2019 (COVID-19) Situation Report-73. Geneva: World Health
Organization; 2020 (available at https://apps.who.int/iris/handle/10665/331686).
76. Davies N, Klepac P, Liu Y, Prem K, Jit M, CCMID COVID-19 Working Group, et al. Agedependent effects in the transmission and control of COVID-19 epidemics. Nat Med. 2020;
10.1038/s41591-020-0962-9.
77. Kimball A, Hatfield KM, Arons M, James A, Taylor J, Spicer K, et al. Asymptomatic and
presymptomatic SARS-CoV-2 infections in residents of a long-term care skilled nursing facilityKing
County, Washington, March 2020. MMWR Surveill Summ. 2020;69(13):377.
78. Wang Y, Liu Y, Liu L, Wang X, Luo N, Ling L. Clinical outcome of 55 asymptomatic cases at the
time of hospital admission infected with SARS-Coronavirus-2 in Shenzhen, China. J Infect Dis.
2020;221(11):1770-1774..
79. Byambasuren O, Cardona M, Bell K, Clark J, McLaws M-L, Glasziou P. Estimating the Extent of
True Asymptomatic COVID-19 and Its Potential for Community Transmission: Systematic Review and
Meta-Analysis (pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.10.20097543.
80. Sakurai A, Sasaki T, Kato S, Hayashi M, Tsuzuki S-I, Ishihara T, et al. Natural history of
asymptomatic SARS-CoV-2 infection. N Engl J Med. 2020;10.1056/NEJMc2013020.
81. Wang Y, Tong J, Qin Y, Xie T, Li J, Li J, et al. Characterization of an asymptomatic cohort of
SARS-COV-2 infected individuals outside of Wuhan, China. Clin Infect Dis. 2020;ciaa629.
82. Yu P, Zhu J, Zhang Z, Han Y. A Familial Cluster of Infection Associated With the 2019 Novel
Coronavirus Indicating Possible Person-to-Person Transmission During the Incubation Period. J
Infect Dis. 2020;221(11):1757-61.
83. Tong Z-D, Tang A, Li K-F, Li P, Wang H-L, Yi J-P, et al. Potential Presymptomatic Transmission of
SARS-CoV-2, Zhejiang Province, China, 2020. Emerg Infect Dis. 2020;26(5):1052-4.
84. Koh WC, Naing L, Rosledzana MA, Alikhan MF, Chaw L, Griffith M ea. What do we know about
SARS-CoV-2 transmission? A systematic review and meta-analysis of the secondary attack rate,
serial interval, and asymptomatic infection (pre-print). MedRxiv 2020 doi:
10.1101/2020.05.21.20108746.

R.A. 67

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 19 of 21 PagelD #: 430

85. Heneghan C, E S, Jefferson T. A systematic review of SARS-CoV-2 transmission Oxford, UK: The
Centre for Evidence-Based Medicine; 2020 (available at https://www.cebm.net/study/covid-19-asystematic-review-of-sars-cov-2-transmission/)
86. Cheng H-Y, Jian S-W, Liu D-P, Ng T-C, Huang W-T, Lin H-H, et al. Contact Tracing Assessment of
COVID-19 Transmission Dynamics in Taiwan and Risk at Different Exposure Periods Before and
After Symptom Onset. JAMA Intern Med. 2020;e202020.
87. Chaw L, Koh WC, Jamaludin SA, Naing L, Alikhan MF, Wong J. SARS-CoV-2 transmission in
different settings: Analysis of cases and close contacts from the Tablighi cluster in Brunei Darussalam
(pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.04.20090043.
88. Considerations in the investigation of cases and clusters of COVID-19: interim guidance, 2 April
2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/considerations-in-the-investigation-of-cases-and-clusters-ofcovid-19).
89. Global surveillance for COVID-19 caused by human infection with COVID-19 virus: interim
guidance, 20 March 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/global-surveillance-for-covid-19-caused-by-human-infectionwith-covid-19-virus-interim-guidance).
90. Considerations for quarantine of individuals in the context of containment for coronavirus disease
(COVID-19): interim guidance, 19 March 2020. Geneva: World Health Organization; 2020 (available
at https://www.who.int/publications/i/item/considerations-for-quarantine-of-individuals-in-the-contextof-containment-for-coronavirus-disease-(covid-19)).
91. Lauer SA, Grantz KH, Bi Q, Jones FK, Zheng Q, Meredith HR, et al. The Incubation Period of
Coronavirus Disease 2019 (COVID-19) From Publicly Reported Confirmed Cases: Estimation and
Application. Ann Int Med. 2020;172:577-82.
92. Considerations for public health and social measures in the workplace in the context of COVID19: annex to considerations in adjusting public health and social measures in the context of COVID19, 10 May 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/considerations-for-public-health-and-social-measures-in-theworkplace-in-the-context-of-covid-19).
93. Key planning recommendations for mass gatherings in the context of the current COVID-19
outbreak: interim guidance, 29 May 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/10665-332235 ).

R.A. 68

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 20 of 21 PagelD #: 431

94. Infection prevention and control during health care when COVID-19 is suspected: interim
guidance, 29 June 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/WHO-2019-nCoV-IPC-2020.4).
95. Alhazzani W, Møller MH, Arabi YM, Loeb M, Gong MN, Fan E, et al. Surviving Sepsis Campaign:
Guidelines on the Management of Critically Ill Adults with Coronavirus Disease 2019 (COVID-19). Crit
Care Med. 2020;48(6):e440-e69.
96. Lynch JB, Davitkov P, Anderson DJ, Bhimraj A, Cheng VC-C, Guzman-Cottrill J, et al. Infectious
Diseases Society of America Guidelines on Infection Prevention for Health Care Personnel Caring for
Patients with Suspected or Known COVID-19. J Glob Health Sci. 2020.
97. United States Centers for Disease Control and Prevention. Interim infection prevention and
control recommendations for patients with suspected or confirmed coronavirus disease 2019
(COVID-19) in healthcare settings. Coronavirus Disease 2019 (COVID-19). 2020 (available at
https://www.cdc.gov/coronavirus/2019-ncov/hcp/infection-control-recommendations.html).
98. European Centre for Disease Prevention and Control. Infection prevention and control and
preparedness for COVID-19 in healthcare settings - fourth update. 2020 (available at .
https://www.ecdc.europa.eu/sites/default/files/documents/Infection-prevention-and-control-inhealthcare-settings-COVID-19_4th_update.pdf).
99. Rational use of personal protective equipment for coronavirus disease (COVID-19): interim
guidance, 6 April 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/rational-use-of-personal-protective-equipment-for-coronavirusdisease-(covid-19)-and-considerations-during-severe-shortages).

WHO continues to monitor the situation closely for any changes that may affect this scientific brief.
Should any factors change, WHO will issue a further update. Otherwise, this scientific brief document
will expire 2 years after the date of publication.

Want to read more?
Subscribe to newsletter

R.A. 69

Case 1:20-cv-04834-KAM-RML Document 12-6 Filed 10/09/20 Page 21 of 21 PagelD #: 432

R.A. 70

Case 1:20-cv-04834-KAM-RML D0CllllllfilCla,iGb;ilntel:tilea,Wl!D!il6lilil1c!ilage 1 of 4 PagelD #: 433

7/29/2020

r'~i~..,.,~
Centers for Disease
~/,v~,.A_control and Prevention

Coronavirus Disease 2019 (COVID-19)

iiiHAM

Cleaning and Disinfection for Households
Detailed Disinfection Guidance
Interim Recommendations for U.S. Households with Suspected or Confirmed Coronavirus Disease 2019
(COVID-19)
Updated July 10, 2020

Print

Summary of Recent Changes
Revisions were made on 3/26/2020 to reflect the following:
• Updated links to EPA-registered disinfectant list
• Added guidance for disinfection of electronics
• Updated core disinfection/cleaning guidance

Background
There is much to learn about the novel coronavirus (SARS-CoV-2) that causes coronavirus disease 2019 (COVID-19). Based on
what is currently known about COVID-19, spread from person-to-person of this virus happens most frequently among close
contacts (within about 6 feet). This type of transmission occurs via respiratory droplets. On the other hand, transmission of
novel coronavirus to persons from surfaces contaminated with the virus has not been documented. Recent studies indicate
that people who are infected but do not have symptoms likely also play a role in the spread of COVID-19. Transmission of
coronavirus occurs much more commonly through respiratory droplets than through objects and surfaces, like doorknobs,
countertops, keyboards, toys, etc. Current evidence suggests that SARS-CoV-2 may remain viable for hours to days on
surfaces made from a variety of materials. Cleaning of visibly dirty surfaces followed by disinfection is a best practice measure
for prevention of COVID-19 and other viral respiratory illnesses in households and community settings.
It is unknown how long the air inside a room occupied by someone with confirmed COVID-19 remains potentially infectious.
Facilities will need to consider factors such as the size of the room and the ventilation system design (including flowrate [air
changes per hour] and location of supply and exhaust vents) when deciding how long to close off rooms or areas used by ill
persons before beginning disinfection. Taking measures to improve ventilation in an area or room where someone was ill or
suspected to be ill with COVID-19 will help shorten the time it takes respiratory droplets to be removed from the air.

Purpose
This guidance provides recommendations on the cleaning and disinfection of households where persons under investigation
(PUI) or those with confirmed COVID-19 reside or may be in self- isolation. It is aimed at limiting the survival of the virus in the
environments. These recommendations will be updated if additional information becomes available.
These guidelines are focused on household settings and are meant for the general public.

• Cleaning refers to the removal of germs, dirt, and impurities from surfaces. It does not kill germs, but by removing them,
it lowers their numbers and the risk of spreading infection.

• Disinfecting refers to using chemicals, for example, EPA-registered disinfectants, to kill germs on surfaces. This process
does not necessarily clean dirty surfaces or remove germs, but by killing germs on a surface after cleaning, it can further
lower the risk of spreading infection.

R.A. 71
https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/cleaning-disinfection.html

1/4

7/29/2020

Case 1:20-cv-04834-KAM-RML D0CllllllfilCla,iGb;ilntel:tilea,Wl!D!il6lilil1c!ilage 2 of 4 PagelD #: 434

General recommendations for routine cleaning and
disinfection of households
• Community members can practice routine cleaning of frequently touched surfaces (for example: tables, doorknobs, light
switches, handles, desks, toilets, faucets, sinks, and electronics (see below for special electronics cleaning and
disinfection instructions)) with household cleaners and EPA-registered disinfectants
that are appropriate for the
surface, following label instructions. Labels contain instructions for safe and effective use of the cleaning product
including precautions you should take when applying the product, such as wearing gloves and making sure you have
good ventilation during use of the product.
o For electronics follow the manufacturer's instructions for all cleaning and disinfection products. Consider use of
wipeable covers for electronics. If no manufacturer guidance is available, consider the use of alcohol-based wipes
or spray containing at least 70% alcohol to disinfect touch screens. Dry surfaces thoroughly to avoid pooling of
liquids.

General recommendations for cleaning and disinfection of
households with people isolated in home care (e.g.
suspected/confirmed to have COVID-19)
• Household members should educate themselves about COVID-19 symptoms and preventing the spread of COVID-19 in
homes.

• Clean and disinfect high-touch surfaces daily in household common areas (e.g. tables, hard-backed chairs, doorknobs,
light switches, phones, tablets, touch screens, remote controls, keyboards, handles, desks, toilets, sinks)
o In the bedroom/bathroom dedicated for an ill person : consider reducing cleaning frequency to as-needed (e.g.,
soiled items and surfaces) to avoid unnecessary contact with the ill person.
• As much as possible, an ill person should stay in a specific room and away from other people in their home, following

home care guidance.
• The caregiver can provide personal cleaning supplies for an ill person's room and bathroom, unless the room is occupied
by child or another person for whom such supplies would not be appropriate. These supplies include tissues, paper
towels, cleaners and EPA-registered disinfectants (see examples
).
• If a separate bathroom is not available, the bathroom should be cleaned and disinfected after each use by an ill person.
If this is not possible, the caregiver should wait as long as practical after use by an ill person to clean and disinfect the
high-touch surfaces.
• Household members should follow home care guidance when interacting with persons with suspected/confirmed
COVID-19 and their isolation rooms/bathrooms.

How to clean and disinfect
Hard (Non-porous) Surfaces
• Wear disposable gloves when cleaning and disinfecting surfaces. Gloves should be discarded after each cleaning. If
reusable gloves are used, those gloves should be dedicated for cleaning and disinfection of surfaces for COVID-19 and
should not be used for other purposes. Consult the manufacturer's instructions for cleaning and disinfection products
used. Clean hands immediately after gloves are removed .
• If surfaces are dirty, they should be cleaned using a detergent or soap and water prior to disinfection.
• For disinfection, most common EPA-registered household disinfectants should be effective.
o A list of products that are EPA-approved for use against the virus that causes COVID-19 is available here
. Follow
manufacturer's instructions for all cleaning and disinfection products for (concentration, application method and
contact time, etc.)

Always read and follow the directions on the label to ensure safe and effective use.
• Wear skin protection and consider eye protection for potential splash hazards

R.A. 72

https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/cleaning-disinfection.html

2/4

Case 1:20-cv-04834-KAM-RML D0CllllllfilCla,iGb;ilntel:tilea,Wl!D!il6lilil1c!ilage 3 of 4 PagelD #: 435

7/29/2020

• Ensure adequate ventilation
• Use no more than the amount recommended on the label
• Use water at room temperature for dilution (unless stated otherwise on the label)
• Avoid mixing chemical products
• Label diluted cleaning solutions
• Store and use chemicals out of the reach of children and pets
You should never eat, drink, breathe or inject these products into your body or apply directly to your skin as they can
cause serious harm. Do not wipe or bathe pets with these products or any other products that are not approved for
animal use.
See EPA's 6 steps for Safe and Effective Disinfectant Use~
Special considerations should be made for people with asthma and they should not be present when cleaning and
disinfecting is happening as this can trigger asthma exacerbations. To learn more about reducing asthma triggers:
https://www.cdc.gov/asthma/reduce_triggers.html
o

Additionally, diluted household bleach solutions (at least 1000ppm sodium hypochlorite, or concentration of 5%6%) can be used if appropriate for the surface. Follow manufacturer's instructions for application, ensuring a
contact time of at least 1 minute, and allowing proper ventilation during and after application. Check to ensure the
product is not past its expiration date. Never mix household bleach with ammonia or any other cleanser. Unexpired
household bleach will be effective against coronaviruses when properly diluted.

• Prepare a bleach solution by mixing:
o 5 tablespoons (113 rd cup) bleach per gallon of room temperature water or
o

4 teaspoons bleach per quart of room temperature water

• Bleach solutions will be effective for disinfection up to 24 hours.

Soft (Porous) Surfaces
• For soft (porous) surfaces such as carpeted floor, rugs, and drapes, remove visible contamination if present and clean
with appropriate cleaners indicated for use on these surfaces. After cleaning:
o Launder items as appropriate in accordance with the manufacturer's instructions. If possible, launder items using
the warmest appropriate water setting for the items and dry items completely.
• Otherwise, use products that are EPA-approved for use against the virus that causes COVID-19
and that
are suitable for porous surfaces.

Electronics
• For electronics such as cell phones, tablets, touch screens, remote controls, and keyboards, remove visible
contamination if present.
o Follow the manufacturer's instructions for all cleaning and disinfection products.
o

Consider use ofwipeable covers for electronics.

o

If no manufacturer guidance is available, consider the use of alcohol-based wipes or sprays containing at least 70%
alcohol to disinfect touch screens. Dry surfaces thoroughly to avoid pooling of liquids.

Linens, clothing, and other items that go in the laundry
• Wear disposable gloves when handling dirty laundry from an ill person and then discard after each use. If using reusable
gloves, those gloves should be dedicated for cleaning and disinfection of surfaces for COVID-19 and should not be used
for other household purposes. Clean hands immediately after gloves are removed .
o If no gloves are used when handling dirty laundry, be sure to wash hands afterwards.
o

If possible, do not shake dirty laundry. This will minimize the possibility of dispersing virus through the air.

o

Launder items as appropriate in accordance with the manufacturer's instructions. If possible, launder items using
the warmest appropriate water setting for the items and dry items completely. Dirty laundry from an ill person can
......... ... ..................... . .. : ....... ................................... 1.... , .... : ............ ....

https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/cleaning-disinfection.html

R.A. 73

3/4

Case 1:20-cv-04834-KAM-RML D0CllllllfilCla,iGb;ilntel:tilea,Wl!D!il6lilil1c!ilage 4 of 4 PagelD #: 436

7/29/2020

u~ Wd::,1,~u WILi i Ull l~I fJ~UfJI~::, IL~( I 1::, ,

o

Clean and disinfect clothes hampers according to guidance above for surfaces. If possible, consider placing a bag
liner that is either disposable {can be thrown away) or can be laundered.

Hand hygiene and other preventive measures
• Household members should clean hands often, including immediately after removing gloves and after contact with an ill
person, by washing hands with soap and water for 20 seconds. If soap and water are not available and hands are not
visibly dirty, an alcohol-based hand sanitizer that contains at least 60% alcohol may be used. However, if hands are
visibly dirty, always wash hands with soap and water.

Always read and follow the directions on the label to ensure safe and effective use.
• Keep hand sanitizers away from fire or flame
• For children under six years of age, hand sanitizer should be used with adult supervision
• Always store hand sanitizer out of reach of children and pets
See FDA's Tips for Safe Sanitizer Use ['.'.i and CDC's Hand Sanitizer Use Considerations
• Household members should follow normal preventive actions while at work and home including recommended hand
hygiene and avoiding touching eyes, nose, or mouth with unwashed hands.
o Additional key times to clean hands include:
• After blowing one's nose, coughing, or sneezing
• After using the restroom
•

Before eating or preparing food

• After contact with animals or pets
•

Before and after providing routine care for another person who needs assistance {e.g. a child)

Other considerations
• The ill person should eat/be fed in their room if possible. Non-disposable food service items used should be handled
with gloves and washed with hot water or in a dishwasher. Clean hands after handling used food service items.
• If possible, dedicate a lined trash can for the ill person . Use gloves when removing garbage bags, handling, and disposing
of trash . Wash hands after handling or disposing of trash.
• Consider consulting with your local health department about trash disposal guidance if available.

More Information
OSHA COVI D-19 Website ['.'.i

CDC Home Care Guidance for People with Pets

CDC Home Care Guidance

Last Updated July 10, 2020

R.A. 74
https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/cleaning-disinfection.html

4/4

Case 1:20-cv-04834-KAM-RML DocUffiliNlltJ;itaMi,g, ailooitai'l/O9/i!OtioPage 1 of 2 PagelD #: 437

7/30/2020

r'~i~..,,~
Centers for Disease
~/,v~,.A_control and Prevention

Coronavirus Disease 2019 (COVID-19)

iiiHAM

Social Distancing
Social Distancing
Keep a Safe Distance to Slow the Spread.
Updated July 15, 2020

Print

Limiting close face-to-face contact with others is the best way to reduce the spread of coronavirus disease 2019 (COVID-19).

What is social distancing?
Social distancing, also called "physical distancing," means keeping a safe space between yourself and other people who are
not from your household.
To practice social or physical distancing, stay at least 6 feet (about 2 arms' length) from other people who are not from your
household in both indoor and outdoor spaces.
Social distancing should be practiced in combination with other everyday preventive actions to reduce the spread of COVID19, including wearing cloth face coverings, avoiding touching your face with unwashed hands, and frequently washing your
hands with soap and water for at least 20 seconds.

Why practice social distancing?
COVID-19 spreads mainly among people who are in close contact (within about 6 feet) for a prolonged period. Spread
happens when an infected person coughs, sneezes, or talks, and droplets from their mouth or nose are launched into the air
and land in the mouths or noses of people nearby. The droplets can also be inhaled into the lungs. Recent studies indicate
that people who are infected but do not have symptoms likely also play a role in the spread of COVID-19. Since people can
spread the virus before they know they are sick, it is important to stay at least 6 feet away from others when possible, even if
you-or they-do not have any symptoms. Social distancing is especially important for people who are at higher risk for
severe illness from COVID-19.
If you are sick with COVID-19, have symptoms consistent with COVID-19, or have been in close contact with someone who has
COVID-19, it is important to stay home and away from other people until it is safe to be around others.
COVID-19 can live for hours or days on a surface, depending on factors such as sunlight, humidity, and the type of surface. It
may be possible that a person can get COVID-19 by touching a surface or object that has the virus on it and then touching
their own mouth, nose, or eyes. However, this is not thought to be the main way the virus spreads. Social distancing helps
limit opportunities to come in contact with contaminated surfaces and infected people outside the home.
Although the risk of severe illness may be different for everyone, anyone can get and spread COVID-19. Everyone has a role to
play in slowing the spread and protecting themselves, their family, and their community. In addition to practicing everyday
steps to prevent COVID-19, keeping space between you and others is one of the best tools we have to avoid being exposed to
this virus and slowing its spread in communities.

Tips for Social Distancing
When going out in public, it is important to stay at least 6 feet away from other people and wear a cloth face covering to slow
the spread of COVID-19. Consider the following tips for practicing social distancing when you decide to go out.

• Know Before You Go: Before going out, know and follow the guidance from local public health authorities where you live.

R.A. 75

https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/sociat-.distancing.html

1/2

7/30/2020

Case 1:20-cv-04834-KAM-RML DocUffiliNlltJ;itaMi,g, ailooitai'l/O9/i!OtioP age 2 of 2 PagelD #: 438

• Prepare for Transportation: Consider social distancing options to travel safely when running errands or commuting to
and from work, whether walking, bicycling, wheelchair rolling, or using public transit, rideshares, or taxis. When using
public transit, try to keep at least 6 feet from other passengers or transit operators - for example, when you are waiting
at a bus station or selecting seats on a bus or train. When using rideshares or taxis, avoid pooled rides where multiple
passengers are picked up, and sit in the back seat in larger vehicles so you can remain at least 6 feet away from the
driver. Follow these additional tips to protect yourself while using transportation.
• Limit Contact When Running Errands: Only visit stores selling household essentials in person when you absolutely need
to, and stay at least 6 feet away from others who are not from your household while shopping and in lines. If possible,
use drive-thru, curbside pick-up, or delivery services to limit face-to-face contact with others. Maintain physical distance
between yourself and delivery service providers during exchanges and wear a cloth face covering.
• Choose Safe Social Activities:lt is possible to stay socially connected with friends and family who don't live in your home
by calling, using video chat, or staying connected through social media. If meeting others in person (e.g., at small outdoor
gatherings, yard or driveway gathering with a small group of friends or family members), stay at least 6 feet from others
who are not from your household. Follow these steps to stay safe if you will be participating in personal and social
activities outside of your home.
• Keep Distance at Events and Gatherings: It is safest to avoid crowded places and gatherings where it may be difficult to
stay at least 6 feet away from others who are not from your household. If you are in a crowded space, try to keep 6 feet
of space between yourself and others at all times, and wear a cloth face covering. Cloth face coverings are especially
important in times when physical distancing is difficult. Pay attention to any physical guides, such as tape markings on
floors or signs on walls, directing attendees to remain at least 6 feet apart from each other in lines or at other times.
Allow other people 6 feet of space when you pass by them in both indoor and outdoor settings.
• Stay Distanced While Being Active: Consider going for a walk, bike ride, or wheelchair roll in your neighborhood or in
another safe location where you can maintain at least 6 feet of distance between yourself and other pedestrians and
cyclists. If you decide to visit a nearby park, trail, or recreational facility, first check for closures or restrictions. If open,
consider how many other people might be there and choose a location where it will be possible to keep at least 6 feet of
space between yourself and other people who are not from your household.
Many people have personal circumstances or situations that present challenges with practicing social distancing to prevent
the spread of COVID-19. Please see the following guidance for additional recommendations and considerations:
• Households Living in Close Quarters: How to Protect Those Who Are Most Vulnerable
• Living in Shared Housing
• People with Disabilities
• People Experiencing Homelessness

More Information
How to Protect Yourself
Cleaning and Disinfecting Your Home
Gatherings and Community Events

Last Updated July 15, 2020

R.A. 76
https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/sociat-.distancing.html

2/2

- - - - - - - - -----------~-·--~~---·=-=~-- - - ~ ~ ~ - - - - - - -Case 1:20-cv-04834-KAM-RML Document 12-9 Filed 10/09/20 Page 1 of 3 PagelD # : 439

No. 202
EXECUTIVE ORDER
Declaring a Disaster Emergency in the State ofNew York

WHEREAS, on January 30, 2020, the World Health Organization designated the novel
coronavirus, COVID-19, outbreak as a Public Health Emergency of International Concern;
WHEREAS, on January 31, 2020, United States Health and Human Services Secretary Alex M.
Azar II declared a public health emergency for the entire United States to aid the nation' s healthcare
community in responding to COVID-19;
WHEREAS, both travel-related cases and community contact transmission of COVID-19 have
been documented in New York State and more are expected to continue; and
WHEREAS, New York State is addressing the threat that COVID-19 poses to the health and
welfare of its residents and visitors.
NOW, THEREFORE, I, AndrewM. Cuomo, Governor of the State of New York, by virtue of the
authority vested in me by the Constitution and the Laws of the State ofNew York, hereby find, pursuant to
Section 28 of Article 2-B of the Executive Law, that a disaster is impending in New York State, for which
the affected local governments are unable to respond adequately, and I do hereby declare a State disaster
emergency for the entire State of New York. This Executive Order shall be in effect until September 7,
2020;and
IN ADDITION, this declaration satisfies the requirements of 49 C.F.R. 390.23(a)(l)(A), which
provides relief from Parts 390 through 399 of the Federal Motor Carrier Safety Regulations (FMCSR).
Such relief from the FMCSR is necessary to ensure that crews are available as needed.

FURTHER, pursuant to Section 29 of Article 2-B of the Executive Law, I direct the
implementation of the State Comprehensive Emergency Management Plan and authorize all necessary State
agencies to take appropriate action to assist local governments and individuals in containing, preparing for,
responding to and recovering from this state disaster emergency, to protect state and local property, and to
provide such other assistance as is necessary to protect public health, welfare, and safety.
IN ADDITION, by virtue of the authority vested in me by Section 29-a of Article 2-B of the
Executive Law to temporarily suspend or modify any statute, local law, ordinance, order, rule, or
regulation, or parts thereof, of any agency during a State disaster emergency, if compliance with such
statute, local law, ordinance, order, rule, or regulation would prevent, hinder, or delay action necessary to
cope with the. disaster emergency or if necessary to assist or aid in coping with such disaster, I hereby
temporarily suspend or modify, for the period from the date of this Executive Order through April 6, 2020
the following:

R.A. 77

Case 1:20-cv-04834-KAM-RML Document 12-9 Filed 10/09/20 Page 2 of 3 PagelD # : 440

Section 112 of the State Finance Law, to the extent consistent with Article V, Section 1 of the State
Constitution, and to the extent necessary to add additional work, sites, and time to State contracts or to
award emergency contracts, including but not limited to emergency contracts or leases for relocation and
support of State operations under Section 3 of the Public Buildings Law; or emergency contracts under
Section 9 of the Public Buildings Law; or emergency contracts for professional services under Section 136a of the State Finance Law; or emergency contracts for commodities, services, and technology under
Section 163 of the State Finance Law; or design-build or best value contracts under and Part F of Chapter
60 of the Laws of2015 and Part RRR of Chapter 59 of the Laws of2017; or emergency contracts for
purchases of commodities, services, and technology through any federal GSA schedules, federal 1122
programs, or other state, regional, local, multi-jurisdictional, or cooperative contract vehicles;
Section 163 of the State Finance Law and Article 4-C of the Economic Development Law, to the
extent necessary to allow the purchase of necessary commodities, services, technology, and materials
without following the standard notice .and procurement processes;
Section 97-G of the State Finance Law, to the extent necessary to purchase food, supplies, services,
and equipment or furnish or provide various centralized services, including but not limited to, building
design and construction services to assist affected local governments, individuals, and other non-State
entities in responding to and recovering from the disaster emergency;
Section 359-a, Section 2879, and 2879-a of the Public Authorities Law to the extent necessary to
purchase necessary goods and services without following the standard procurement processes;
Sections 375,385 and 401 of the Vehicle and Traffic Law to the extent that exemption for vehicles
validly registered in other jurisdictions from vehicle registration, equipment and dimension requirements is
necessary to assist in preparedness and response to the COVID-19 outbreak;
Sections 6521 and 6902 of the Education Law, to the extent necessary to permit unlicensed
individuals, upon completion of training deemed adequate by the Commissioner of Health. to collect throat
or nasopharyngeal swab specimens from individuals suspected of being infected by COVID-19, for
purposes of testing; and to the extent necessary to permit non-nursing staff, upon completion of training
deemed adequate by the Commissioner of Health, to perform tasks, under the supervision of a nurse,
otherwise limited to the scope of practice of a Hcensed or registered nurse;
Subdivision 6 of section 2510 and section 2511 of the Public Health Law, to the extent necessary to
waive or revise eligibility criteria, documentation requirements, or premium contributions; modify covered
health care services or the scope and level of such services set forth in contracts; increase subsidy payments
to approved organizations, including the maximum dollar amount set forth in contracts; or provide
extensions for required reports due by approved organizations in accordance with contracts;
Section 224-b and subdivision 4 of section 225 of the Public Health Law, to the extent necessary to
permit the Commissioner of Health to promulgate emergency regulations and to amend the State Sanitary
Code;
Subdivision 2 of section 2803 of the Public Health Law, to the extent necessary to permit the
Commissioner to promulgate emergency regulations concerning the facilities licensed pursuant to Article
28 of the Public Health Law, including but not limited to the operation of general hospitals;
Subdivision 3 of section 273 of the Public Health Law and subdivisions 25 and 25-a of section 364-j
of the Social Services Law, to the extent necessary to allow patients to receive prescribed drugs without
delay;
Section 400.9 and paragraph 7 of subdivision f of section 405.9 ofTitle 10 of the NYCRR, to the
extent necessary to permit general hospitals and nursing homes licensed pursuant to Article 28 of the Public
Health Law ("Article 28 facilities") that are treating patients during the disaster emergency to rapidly
discharge, transfer, or receive such patients, as authorized by the Commissioner of Health, provided such
facilities take all reasonable measures to protect the health and safety of such patients and residents,
including safe transfer and discharge practices, and to comply with the Emergency Medical Treatment and
Active Labor Act (42 U.S .C. section 1395dd) and any associated regulations;
Section 400.11 of Title 10 of the NYCRR., to the extent necessary to permit Article 28 facilities
receiving patients as a result of the disaster emergency to complete patient review instruments as soon as
practicable;
Section 405 of Title 10 of the NYCRR., to the extent necessary to maintain the public health with
respect to treatment or containment of individuals with or suspected to have COVID-19;

R.A. 78

case 1:20-cv-04834-KAM-RML Document 12-9 Filed 10/09/2
0 Page 3 of 3 PagelD #: 441

Subdivision d and u of section 800.3 of Title 10 of the NYCRR, to the
extent necessary to permit
emergency medical service personnel to provide community paramed
icine, transportation to destinations
other than hospitals or health care facilities, telemedicine to facilitate
treatment of patients in place, and
such other services as may be approved by the Commissioner of Health;
Paragraph 3 of subdivision f of section 505.14 of Title 18 of the NYCRR
, to the extent necessary to
permit nursing supervision visits for personal care services provided
to individuals affected by the disaster
emergency be made as soon as practicable;
Sections 8602 and 8603 of the Education Law, and section 58-1.5 of
Title 10 of the NYCRR, to the
extent necessary to permit individuals who meet the federal requirem
ents for high complexity testing to
perform testing for the detection of SARS-CoV-2 ·in specimens collected
from individuals suspected of
suffering from a COVID-1-9 infection;
Subdivision 4 of section 6909 of the Public Health Law, subdivision
6 of section 6527 of the
Education Law, and section 64.7 of Title 8 of the NYCRR, to the extent
necessary to permit physicians and
certified nurse practitioners to issue a non-patient specific regimen to
nurses or any such other persons
authorized by law or by this executive order to collect throat or nasopha
ryngeal swab specimens from
individuals suspected of suffering from a COVID-19 infection, for purposes
of testing, or to perform such
other tasks as may be necessary to provide care for individuals diagnose
d or suspected of suffering from a
COVID-19 infection ;
Section 596 of Title 14 of the NYCRR to the extent necessary to allow
for rapid approval of the use
of the telemental health services, including the requirements for in-perso
n initial assessment prior to the
delivery ofteleme ntal health services, limitations on who can deliver
telemental health services,
requirements for who must be present while telemental health services
are delivered, and a recipient's right
to refuse telemental health services;
Section 409-i of the Education Law, section 163-b of the State Finance
Law with associated OGS
guidance , and Executive Order No. 2 are suspended to the extent necessar
y to allow elementary and
secondary schools to procure and use cleaning and maintenance products
in schools; and sections 103 and
104-b of the General Municipal Law are suspended to the extent necessar
y to allow schools to do so
without the usual advertising for bids and offers and compliance with
existing procurement policies and
procedures;
Article 7 of the Public Officers Law, section 41 of the General Construc
tion Law, and section 3002
of the Public Health Law, to the extent necessary to permit the Public
Health and Health Planning Council
and the State Emergency Medical Services Council to meet and take
such actions as authorized by law, as
may be necessary to respond to the COVID-19 outbreak, without meeting
quorum requirements or
permitting the public in-person access to meetings, provided that any
such meetings must be webcast and
means for effective public comment mustbe made available; and
FURTHER, I hereby temporarily modify, for the period from the date
of this Executive Order
through April 6, 2020, the following laws:
Section 24 of the Executive Law; Sections 104 and 346 of the Highway
Law; Sections 1602, 1630,
1640, 1650, and 1660 of the Vehicle and Traffic Law; Section 14(16)
of the Transportation Law; Sections
6-602 and 17-1706 of the Village Law; Section 20(32) of the General
City Law; Section 91 of Second
Class Cities Law; Section 19-107(ii) of the New York City Administrative
Code;·and Section 107.1 of Title
21 of the New York Codes, Rules and Regulations, to the extent necessar
y to provide the Governor with
the authority to regulate traffic and the movement of vehicles on roads,
highways, and streets.
G I VEN under my hand and the Privy Seal of the
State in the City of Albany this
seventh day of March in the year two
thousand twenty.

BY THE GOVERNOR

/}G, ,
Secretary to the Governor

R.A. 79

Case 1:20-cv-04834-KAM-RML Document 12-10 Filed 10/09/20 Page 1 of 2 PagelD #: 442

No. 202.3
EXECUTIVE ORDER
CONTINUING TEMPORARY SUSPENSION AND MODIFICATION OF LAWS RELATING TO
THE DISASTER EMERGENCY

WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York;
WHEREAS, both travel-related cases and community contact transmission ofCOVID-19 have
been documented in New York State and are expected to be continue;
WHEREAS, one state acting alone.cannot control the continued spread of this disease and it
requires coordination and cooperation amongst the states; and
NOW, THEREFORE, I, Governor Andrew M. Cuomo, by virtue of the authority vested in me by
Section 29-a of Article 2-B of the Executive Law to temporarily suspend or modify any statute, local law,
ordinance, order, rule, or regulation, or parts thereof, of any agency during a State disaster emergency, if
compliance with such statute, local law, ordinance, order, rule, or regulation would prevent, hinder, or
delay action necessary to cope with the disaster emergency or if necessary ta assist or aid in coping with
such disaster, or to issue any directive during a disaster emergency necessary to cope with the disaster, I
hereby issue the following directives and suspensions and modifications for the period from the date of this
Executive Order 202.3 through April 15, 2020:

•

The directive requiring large gatherings and events to be cancelled or postponed if they
had anticipated attendance in excess of 500 people by virtue of Executive Order 202.1
dated March 12, 2020, is hereby amended and modified to require that any large
gathering or event (concert, conference, worship service, performance before a large
audience, etc.) shall be cancelled or postponed if more than fifty persons are expected in
attendance, at any location in New York State until further notice.

•

Any restaurant or bar in the state of New York shall cease serving patrons food or
beverage on-premises effective at 8 pm on March 16, 2020, and until further notice shall
only serve food or beverage for off-premises consumption. Notwithstanding any
provision of the alcohol and beverage control law, a retail on-premises licensee shall be
authorized for the duration of this Executive Order to sell alcohol for off-premises
. consumption, which shall include either take-out or delivery, subject to reasonable
limitations set by the State Liquor Authority.

•

Any facility authorized to conduct video lottery gaming, or casino gaming shall cease
operation effective at 8 pm on March 16, 2020, and until further notice. For a Class III

R.A. 80

Case 1:20-cv-04834-KAM-RML Document 12-10 Filed 10/09/20 Page 2 of 2 PagelD #: 443

Tribal Gaming enterprise or Class II Tribal Gaming enterprise, any facility should also
close to the public until further notice.
•

Any gym, fitness centers or classes, and movie theaters shall also cease operation
effective at 8 pm on March 16, 2020 until further notice.

•

No local government or political subdivision shall issue any local emergency order or
declaration of emergency or disaster inconsistent with, conflicting with or superseding
the foregoing directives, or any other executive order issued under Section 24 of the
Executive Law and any local emergency order or any local administrative codes,
charters, laws, rules or regulations, are hereby suspended with respect to any such order
issued under such authority different or in conflict with Executive directives.

GIV E N under my hand and the Privy Seal of the
State in the City of Albany this
sixteenth day of March in the year
two thousand twenty.

BY THE GOVERNOR

/}Lt,.

Secretary to the Governor

R.A. 81

case 1:20-cv-04834-KAMcRML Document 12-11 Filed 10/09/20 Page
1 of 2 PagelD #: 444

No. 202.4
EXECU TIVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring
a State disaster
emergency for the entire State ofNew York;
WHEREAS, both travel-related cases and community contact transmission of
COVID-19 have
been documented in New York State and are expected to be continue; and

NOW, THEREFORE, by virtue of the authority vested in me by Section 29-a of Article
2-B of the
Executive Law to issue any directive during a disaster emergency necessary to
cope with the disaster, I
hereby issue the following directives for the period from the date of Executive
Order through April 15,
2020:
• Any local governm ent or political subdivisi on shall, effective March 17,
2020, allow nonessential personne l as determin ed by the local government, to be able to work
from home or
take leave without charging accruals, except for those personne l essential to
the locality's
response to the COVID- 19 emergenc y. Such non-essential personne l shall
total no less than
fifty-perc ent (50%) of the total number of employee s across the entire workforc
e of such local
governm ent or political subdivision.
•

Restrictio ns on reporting to work for any state worker whose service is non-essen
tial, or not
required to support the COVID- 19 response , are expanded to all counties in
the State ofNew
York.

•

Notwithstanding any prior directives, every school in the state of New York is
hereby directed to
close no later than Wednesday, March 18, 2020, for aperiod of two weeks, ending
April 1, 2020.
The state shall reassess at that time whether to extend such closure beyond this
date and may
continue to suspend the 180 day instructional requirement. The 180 day suspensio
n will be adjusted
to the state's allowed closure directive. Schools that exceed the period will not
be exempted from
the 180-day rule. School districts shall develop a plan for alternative instructio
nal options,
distribution and availability of meals, and child care, with an emphasis on serving
children of
parents in the health care profession or first responders who are critical to the response
effort. Such
plans shall be submitted to the State Education Department and may be amended
or modified by the
State Education Department, in consultation with the Department of Health and
Office of Children
and Family Services at any time. School districts in Nassau County, Suffolk County
and
Westchester County and the City of New York must submit such plans for approval
no later than
midnight, March 17, 2020 to the State.

R.A. 82

Case 1:20-cv-04834-KAM-RML Document 12-11 Filed 10/09/20 Page 2 of 2 PagelD #: 445

•

Any village election to be held March 17, 2020 shall be postponed and any eiected official
holding such position shall remain in office until such time as a new election is held.
GIVEN under my hand and the Privy Seal of the
State in the City of Albany the
sixteenth day of March in the year
two thousand twenty.

BY THE GOVERNOR

Secretary to the Governor

R.A. 83

Case 1:20-cv-04834-.KAM-RML Document 12-12 Filed 10/09/20 Page 1 of 3 PageID # : 446

No. 202.5
EXECUTIVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREA~, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster emergency
for the entire State of New York;
WHEREAS, both travel-related cases and community contact transmission of COVID-19 have beeri
documented in New York State and are expected to be continue;
WHEREAS, in order to facilitate the most timely and effective response to the COVID 19 emergency disaster,
it is critical for New York State to be able to act quickly to gather, coordinate, and deploy goods, services, professionals,
and volunteers of all kinds; and
NOW, THEREFORE, I, Andrew M. Cuomo, Governor of the State ofNew York, by virtue of the authority
vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or modify any statute, local
law, ordinance, order, rule, or·regulation, or parts thereof, of any agency during a State disaster emergency, if
compliance with such statute, local law, ordinance, order, rule, or regulation would prevent, hinder, or delay action
necessary to cope with the disaster emergency or if necessary to assist or aid in coping with such disaster, I hereby
temporarily suspend or modify, for the period from the date of this Executive Order through April. 17, 2020 the
following:

•

Sections 6512 through 65 16, and 6524 of the Education Law and Part 60 of Title 8 of.the NYCRR, to the
extent necessary to allow physicians licensed and in current good standing in any state in the United States to
practice medicine in New York State without civil or criminal penalty related to lack of licensure;

•

Section 6502 of the Education Law and Part 59 .8 of Title 8 of the NYCRR, to the extent necessary to allow
physicians licensed and in current good standing in New York State but not registered in New York State to
practice in New York State without civil or criminal penalty related to lack of registration;

•

Sections 6512 through 6516, and 6905, 6906 and 6910 of the Education Law and Part 64 of Title 8 of the
NYCRR, to the extent necessary to allow registered nurses, licensed practical nurses, and nurse practitioners
licensed and in current good standing in any state in the United States to practi.ce in New York State without
civil or criminal penalty related to lack oflicensure;

•

Sections6512 through 6516, and 654 1 of the Education Law and Part 60.8 ofTitle 8 oftheNYCRR 8NYCRR,
to the extent necessary to allow physician assistants licensed and in current good standing in any state in the
United States to practice in New York State witho.ut civil or criminal penalty related to lack of licensure;

•

Section 400.12 of Title 10 of the NYCRR, to the extent necessary to allow patients affected by the disaster
emergency to be transferred to receiving Article 28 facilities as authorized by the Commissioner of Health;

•

Section 415.11 of Title 10 of the NYCRR, to the extent necessary to permit nursing homes receiving
individuals affected by the disaster emergency to perform comprehensive assessments of those residents
temporarily evacuated to such nursing homes as soon as practicable following admission or to forego such
assessments for individuals returned to facilities from which they were evacuated;

•

Subdivision b of section 415.15 of Title 10 of the NYCRR, to the extent necessary to permit nursing homes
receiving individuals affected by the disaster emergency to obtain physician approvals for admission as soon
as practicable following admission or to forego such approval for individuals returned to facilities from which
they were evacuated;

R.A. 84

Case 1:20-cv-04834-KAM-RML Document 12-12 Filed 10/09/20 Page 2 of 3 PageID #: 447

•

Subdiv ision i of section 4 15 .26 of Title IO of the NYCRR, to the extent necessary to permit nursing homes
receiving individuals affected by the disaster emergency to comply with admission procedures as soon as
practicable following admission or to forego such procedures for individuals returned to facilities from which
they were evacuated;

•

Paragraph 2 of subdivision g of section 763.4; paragraphs 7 and 8 of subdivision h of section 763.4; paragraph
2 of subdivision a of section 766.5; and_paragraph 1 of subdivision d of section 766.5 ofTitle JO of the NYCRR,
to the extent necessary to permit certified home health agencies, long term home health care programs, AIDS
home care programs, and licensed home care services agencies serving individuals affected by the disaster
emergency to conduct in-home supervision of home health aides and personal care aides as soon as practicable
after the initial service visit, or to permit in-person and in-home supervision to be conducted through.indirect
means, including by telephone or video communication;

•

Subdivision a of section 7 63 .5 of Title 10 of the NYCRR, to the extent necessary to permit initial patient visits
for certified home health agencies, long term home health care programs and AIDS home care programs
serving individuals affected by the disaster emergency to be made within 48 hours ofreceipt and acceptance
of a community referral or return home from institutional placement;

•

Sections 403.3 and 403.5 if Title 10 of the NYCRR, to extend the time in which home care services entities
must submit information to the Home Care Worker Registry;

•

Sections 358-4.3, 358-5.12 and 358-5.13 of Title 18 of the NYCRR, to the extent necessary to allow or require
appearance by any pruties to a fair hearing by written, telephonic, video or other electronic means;

•

Sections 2999-h and 2999-j of the Public Health Law, to the extent necessary to provide reimbursement to
Medical Indemnity Fund enrollees, in primary residences where a resident has had COVID-19 or was exposed
to COVID-19, for costs related to cleaning and disinfection of such primary residences, at the discretion of the
Commissioner of Health;

•

Section 2805-k of the Public Health Law and sections 405.4, 405 .5, 405.9, 405.14, 405.19, and 405.22 ofTitle
10 of the NYCRR, to the extent necessary to allow staff with the necessary professional competency and who
are privileged and credentialed to work in a facility in compliance with such section of the Public Health Law
and such sections of the NYCRR, or who are privileged and credentialed to work in a facility in another state
in compliance with the applicable laws and regulations of that other state, to practice in a facility in New York
State;

•

Prut 405 of Title l O of the NYCRR, to the extent necessary to adopt existing policies and procedures in a
general hospital at a new, temporary facility created for the purpose of treating patients during the COVID-19
outbreak;

•

Any code related to construction, energy conservation, or other building code, and all state and local laws,
ordinances, and regulations relating to administration and enforcement of the foregoing, to the extent necessary
to allow, upon approval by the Commissioner of Health or the Commissioner of OPWDD, as applicable, the
temporary changes to physical plant, bed capacities, and services provided; the construction of temporary
hospital locations and extensions; the increase in and/or exceeding of certified capacity limits; and the
establishment of temporary hospital locations and extensions;

•

Prut 425 of Title 10 of the NYCRR and section 461-k of the Social Services Law, to the extent necessary to
prevent transportation to and attendance at adult day care programs, until authorized by the Commissioner of
Health;

•

Section 16.17 of the Mental Hygiene Law to the extent necessary to permit the Office of People with
Developmental Disabilities to take emergency action to suspend or limit a provider's operating certificate;

•

Sections 633.12 and 636-1 ofTitJe ·14 of the NYCRR, to the extent necessary to temporarily deviate from an
individual' s service plan, which would otherwise outline pruticipation in day programming and other
community based served, and to the extent necessary to temporarily relocate individuals, in order to maintain
the health and safety of that individual during this emergency period and to the extent necessary;

•

Sections 33.02 and 33 .05 of the Mental Hygiene law and sections 633.4, 636-1.4 and 63 3.16 of Title 14 of the
NYCRR, to the extent necessary to restrict visitors to facilities certified pursuant Article 16 of the Mental
Hygiene law and to permit restrictions on community outings for residents of such facilities to reduce the
spread ofCOVID-19;

•

Sections 633 .8 and 633.14 of Title 14 of the NYCRR to the extent necessary to permit abbreviated training of
direct support professionals employed in programs and facilities certified pursuant to Article 16 of the Mental
Hygiene Law that are experiencing staff shortages;

•

Section 633.1 7 of Title 14 of the NYCRR, to the extent necessary to pennit abbreviated medication
administration training of direct support professionals employed in programs or facilities certified pursuant to
Article 16 of the Mental Hygiene Law;

•

Section 390-b of the Social Services Law and regulations at sections 413.4 and 415.15 of Title 18 of the
NYCRR insofar as that statute and those regulations establish background check requirements for child day
care;

R.A. 85

Case 1:20-cv-04834-KAM-RML Document 12-12 Filed 10/09/20 Page 3 of 3 PageID #: 448

•

Section 390 of the Social Services Law insofar as 1hat section oflaw exempts school age child care programs
operated by a school or entity with experience providing child care and located in a school providing
elementary or secondary education from having to comply wi1h 1he regulations of 1he office of children and
family services;

•

Subdivision 7 of section 590 and subdivision 2 of section 607 of the Labor Law, so far as they relate to waiting
periods for unemployment insurance claimants whose claims for unemployment insurance arise due to closure
of an employer for a reason related to COVID-19 or due to a mandatory order of a government entity duly
authorized to issue such order to close such employer, as of March 12, 2020;

•

Subdivision b of section 708 of 1he Business Corporation Law to 1he extent necessary to permit business
corporations to take any action o1herwise permitted under that section with the electronic consent of 1he
members of the board or committee, when such consent is submitted via electronic mail along with infonnation
from which it can reasonably be determined 1hat 1he transmission was authorized by such member;

•

Sections 65{13)(b) and 66(12)(±) of the Public Service Law to the extent of having in-person public hearings,
provided that such hearings are held by conference call or similar electronic means, which are recorded and
later transcribed;

•

Section 165(1) of the Public Service Law ("PSL") to the extent of holding public statement hearings, provided
1hat the public may file written comments in any case subject to PSL Article 10 until issuance of a final order;
and

•

Section 123(1) of1he Public Service Law ("PSL"-) to 1he extent of holding a public hearing, provided 1hat the
public may file written comments in any case subject to PSL Article VIl until issuance of a final order.

IN ADDITION, by virtue of the authority -vested in me by Section 29-a of Article 2-B of1he Executive Law to
issue any directive during a disaster emergency necessary to cope wi1h the disaster, I hereby issue the following
directives for 1he period from 1he date of Executive Order through April 17, 2020:
•

Any village election set to be held March 18, 2020 shall be postponed and any elected official holding
such position shall remain in office until such time as a new election is held.

•

Effective at 8 p.m. March 19, 2020, all indoor common po1tions of retail shopping malls with in excess of
100,000 square feet of retail space available for lease shall close and cease access to 1he public. A.,y stores
located within shopping malls, which have their own external entrances open to the public, separate from the
general mall entrance, may remain open, subject to the requirements of Executive Order 202.3 that any
restaurant shall limit itself to take out or delivery food services, and that any interior entrances to common
areas of the mall remain closed and locted.

•

Additionally, all places of public amusement, whe1her indoors or outdoors, including but not limited to,
locations with amusement rides, camivals, amusement parks, water parks, aquariums, zoos, arcades, fairs,
children's play centers, funplexes , 1heme parks, bowling alleys, family and children' s attractions shall likewise
be closed to the public at 8 p.m. on March 19. This directive shall not apply to public parks and cipen recreation
areas.

•

Notwithstanding section 24 of 1he Executive Law, no locality or political subdivision shall issue any local
emergency order or executive order with respect to response of COVID-19 without the approval of the State
Deparbnent ofHeal1h.

GIVE N under my hand and 1he Privy Seal of the State
in the City of Albany the eighteenth day of
March in the year two thousand twenty.

BY THE GOVERNOR

Secretary to the Governor

R.A. 86

case 1:20-cv-04834-KAM-RML Document 12-13 Filed 10/09/20 Page 1 of 4 PagelD #: 449

No. 202.10
EXECUT IVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency

WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York;
WHEREAS, both travel-related cases and community contact transmission ofCOVID-19 have been
documented in New York State and are expected to be continue;
. WHEREAS, ensuring the State of New York has adequate bed capacity, supplies, and providers to treat
patients affected with COVlD-19, as well as patients afflicted with other maladies, is of critical importance;
and
WHEREAS , eliminating any obstacle to the provision of supplies and medical treatment is necessary to
ensure the New York healthcare system has adequate capacity.to provide care to all who need it;
NOW, THEREFOR E, I, Andrew M. Cuomo, Governor of the State of New York, by virtue of
the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or modify
any
statute, local law, ordinance, order, rule, or regulation, or parts thereof, of any agency during a State
disaster
emergency, if compliance with such statute, local law, ordinance, order, rule, or regulation would prevent,
hinder,
or delay action necessary to cope with the disaster emergency or if necessary to assist or aid in coping with
such
disaster, I hereby temporarily suspend or modify, for the period from the date of this Executive Order
through
April 22, 2020 the following:

•

Section 2803 of the Public Health Law, and Parts 400, 401, 405, 409,710, 711 and 712 of Title 10 of
the NYCRR, to the extent necessary to permit and require general hospitals to take all measures
necessary to increase the number of beds available to patients, in accordance with the directives set forth
in this Executive Order;

•

Section 3001, 3005-a, 3008, and 3010 of the Public Health Law to the extent necessary to modify the
definition of"emergenc y medical services" to include emergency, non-emergency and low acuity
medical assistance; to eliminate any restrictions on an approved ambulance services or providers
operating outside of the primary territory listed on such ambulance service's operating certificate with
prior approval by the Department of Health; to permit the Commissioner of Health to issue provisional
emergency medical services provider certifications to qualified individuals with modified certification
periods as approved; and to allow emergency medical services to transport patients to locations other
than healthcare facilities with prior approval by Department of Health;

•

Section 3002, 3002-a, 3003, and 3004-a of Public Health Law to the extent necessary to allow any
emergency medical treatment protocol development or modification to occur solely with the approval of
the Commissioner of Health;
·

•

Sections 405.13 and 755.4 of Title 10 of the NYCRR to the extent necessary to permit an advanced
practice registered nurse with a doctorate or master's degree specializing in the administration of
anesthesia administering anesthesia in a general hospital or free-standing ambulatory surgery center
without the supervision of a qualified physician in these health care settings;

R.A. 87

Case 1:20-cv-04834-KAM-RML Document 12-13 Filed 10/09/20 Page 2 of 4 PagelD #: 450

•

Paragraph 1 of Section 6542 of the Education Law and Subdivisions (a) and (b) of Section 94.2 of Title
10 of the NYCRR to the extent necessary to permit a physician assistant to provide medical services
appropriate to their education, training and experience without oversight from supervising physician
without civil or criminal penalty related to a lack of oversight by a supervising physician;

a

•

Paragraph 1 of Section 6549 of the Education Law and Subdivisions (a) and (b) of Section 94.2 of Title
10 of the NYCRR to the extent necessary to permit a specialist assistant to provide medical services
appropriate to their education, training and experience without oversight from a supervising physician
without civil or criminal penalty related to a lack of oversight by a supervising physician;

•

Subdivision (3) of Section 6902 of Education Law, and any associated regulations, including, but not
limited to, Section 64.5 of Title 10 of the NYCRR, to the extent necessary to permit a nurse practitioner
to.provide medical services ·appropriate to their educ;i.tion, training and experience, without a written
practice agreement, or collaborative relationship with a physician, without civil or criminal penalty
related to a lack of written practice agreement, or collaborative relationship, with a physician;

•

Subdivision (15) of section 3001, and Sections 800.3, 800.15 and 800.16 of Title 10 of the NYCRR with
approval of the department, to the extent necessary to define "medical control" to include emergency
and non-emergency. direction to all emergency medical services personnel by a regional or state medical
control center and to permit emergency medical services personnel to operate under the advice and
direction of a nurse practitioner, physician assistant, or paramedic, provided that such medical
professional is providing care under the supervision of a physician and pursuant to a plan approved by
the Department of Health;
-

•

Subdivision (2) of section 6527, Section 6545, and Subdivision (1) of Section 6909 of the Education
Law, to the extent necessary to provide that all physicians, physician assistants, specialist assistants,
nurse practitioners, licensed registered professional nurses and licensed practical nurses shall be immune
from civil liability for any injury or death alleged to have been sustained directly as a result of an act or
omission by such medical professional in the course of providing medical services in support of the
State's response to the COVID-19 outbreak, unless it is established that such injury or death was caused
by the gross negligence of such medical professional;

•

Any healthcare facility is authorized to allow students, in programs to become licensed in New York ·
State to practice as a healthcare professional, to volunteer at the healthcare facility for educational credit
as if the student had secured a placement under a clinical affiliation agreement, without entering into
any such clinical affiliation agreement;

•

Notwithstanding any law or regulatim'i to the contrary, health care providers are relieved of
recordkeeping requirements to the extent necessary for health care providers to perform tasks as may be
necessary to respond to the COVID-19 outbreak, including, but not limited to, requirements to maintain
medical records that accurately reflect the evaluation and treatment of patients, or requirements to assign
diagnostic codes or to create or maintain other records for billing purposes. Any person acting
reasonably and in good faith under this provision shall be afforded absolute immunity from liability for
any failure to comply with any recordkeeping requirement. In order to protect from liability any person
acting reasonably and in good faith under this provision, requirements to maintain medical records
under Subdivision 32 of Section 6530 of the Education Law, Paragraph (3) of Subdivision (a) of Section
29.2 of Title 8 of the NYCRR, and Sections 58-1.1 I, 405.10, and 415 .22 of Title 10 of the NYCRR, or
any other such laws or regulations are suspended or modified to the extent necessary for health care
providers to perform tasks as may be necessary to respond to the COVID-19 outbreak;

•

Section 405 .45 of Title 10 of the NYCRR to the extent necessary to permit the Commissioner of Health
to designate a health care facility as a trauma center, or extend or modify the period for which a health
care facility may be designated as a trauma center, or modify the review team for assessment of trauma
center;

•

Sections 800.3, 800.8, 800.9, 800.10, 800.12, 800.17; 800.18, 800.23, 800.24, and 800.26 of Title 10 of
the NYCRR to the extent necessary to extend all existing emergency medical services provider
certifications for one year; to permit the Commissioner of Health to modify the examination or
recertification requirements for emergency medical services provider certifications; to suspend or
modify, at the discretion of the Commissioner of Health, any requirements for the recertification of
previously certified emergency medical services providers; and, at the discretion of the Commissioner
of Health, develop a process determined by the Department of Health, to permit any emergency medical
services provider certified or licensed by another State to provide emergency medical services within
New York state; at the discretion of the Commissioner of Health, to suspend or modify equipment or
vehicle requirements in order to ensure sustainability of EMS operations;

•

Paragraph (6) of subdivision (b) of part 405 .4 of Title 10 of the NYCRR to the extent necessary to
remove limits on working hours for physicians and postgraduate trainees;

R.A. 88

Case 1:20-cv-04834-KAM-RML Document 12-13 Filed 10/09/20 Page 3 of 4 PagelD #: 451

•

Subparagraph (ii) of paragraph (2) of subdivision (g) of 10 N.Y.C.R.R. section 405.4, to the extent
necessary to allow graduates of foreign medical schools having at least one year of graduate medical
education to provide patient care in hospitals, is modified so as to allow such graduates without licenses
to provide patient care in hospitals if they have completed at least one year of graduate medical
education;

•

Subdivision (e) of section 405.2 of Title 10 of the NYCRR, to the extent necessary to permit general
hospitals affected by the disaster emergency to maintain adequate staffing;

•

Subdivision (b) of section 405.3 of Title 10 of the NYCRR, to the extent necessary to allow general
hospitals to use qualified volunteers or personnel affiliated with different general hospitals, subject to
the terms and conditions established by the Commissioner of Health;

•

Section 3507 of the Public Health Law and Part 89 of Title 10 of the NYCRR to the extent necessary to
permit radiologic technologists licensed and in current good standing in New York State but not
registered in New York State to practice in New York State without civil or criminal penalty related to
lack ofregistration;

•

Sections 3502 and 3505 of the Public Health Law and Part 89 of Title 10 of the NYCRR to the extent
necessary to permit radiologio technologists licensed and in current good standing in any state in the
United State to practice in New York State without civil or criminal penalty related to lack of licensure;

•

Sections 8502, 8504, 8504-a, 8505, and 8507 of the Education Law and Subpart 79-4 of Title 8 of the
NYCRR, to the extent necessary to allow respiratory therapists licensed and in current good standing in
any state in the United States to practice in New York State without civil or criminal penalty related to
lack of licensure;

•

Section 6502 of the Education Law and 8 NYCRR 59.8, to the extent necessary to allow physician's
assistants licensed and in current good standing in New York State but not registered in New York State
to practice in New York State without civil or criminal penalty related to lack of registration;

•

Section 6502 of the Education Law and 8 NYCRR 59.8, to the extent necessary to allow registered
professional nurses, licensed practical nurses and nurse practitioners licensed and in current good
standing in New York State but not registered in New York State to practice in New York State without
civil or criminal penalty related to lack of registration;

•

Subdivision (2-b) of Section 4002 of the Public Health Law to the extent necessary to allow a hospice
residence to designate any number ofbeds within such facility as dually certified inpatient beds;

•

Title V of Article 5 of the Public Health Law and subparts 19 and 58 of Title 10 of the NYCRR, to the
extent necessary to allow laboratories holding a Clinical Laboratory Improvement Acts (CLIA)
certificate and meeting the CLIA quality standards described in 42 CFR Subparts H, J, Kand M, to
perform testing for the detection of SARS-CoV-2 in specimens collected from individuals suspected of ·
suffering from a COVID-19 infection;

•

Article 139 of the Education Law, Section 576-b of the Public Health Law and Section 58-1.7 of Title
10 of the NYCRR, to the extent necessary to permit registered nurses to order the collection of throat or
nasopharyngeal swab specimens from individuals suspected of being infected by COVID-19, for
purposes of testing; and
·

• - Subdivision (1) of Section 6801 of the Education Law, Section 6832 of the Education Law and Section
29.7(a)(21)(ii)(b)(4) of Title 8 of the NYCRR, to the extent necessary to permit a certified or registered
pharmacy technician, under the direct personal supervision of a licensed pharmacist, to assist such
licensed phannacist, as directed, in compounding, preparing, labeling, or dispensing of drugs used to fill
valid prescriptions or medication orders for a home infusion provider licensed as a pharmacy in New
York, compliant with the United States Pharmacopeia General Chapter 797 standards for
Pharmaceutical Compounding - sterile preparations, and providing home infusion services through a
home care agency licensed under Article 36 of the Public Health Law.

IN ADDITION, by virtue of the authority vested in me by Section 29-a of Article 2-B of the Executive
Law to issue any directive during a disaster emergency necessary to cope with the disaster, I hereby issue
the following directives for the period from the date of this Executive Order through April 22, 2020:
•

Any healthcare facility is authorized to allow students, in programs to become licensed in New York
State to practice a healthcare professional, to volunteer at the healthcare facility for educational credit as
if the student had secured a placement under a clinical affiliation agreement, without entering into any
such clinical affiliation agreement;

R.A. 89

Case 1:20-cv-04834-KAM-RML Document 12-13 Filed 10/09/20 Page 4 of 4 PagelD #: 452

•

The Commissioner of Health is authorized to direct, and shall so direct, all general hospitals, ambulatory
surgery centers, office-based surgery practices and diagnostic and treatment centers to increase the
number of beds available to patients, including by canceling all elective surgeries and procedures, as the
Commissioner of Health shall define. General hospitals shall comply with such order by submitting
COVID-19 Plans to the New York State Department of Health (NYSDOH), on a schedule to be
determined by NYSDOH, to accomplish this purpose;

•

The Commissioner of Health is authorized to suspend or revoke the operating certificate of any general
hospital should they be unable to meet the requirements of the necessary capacity directives; and
notwithstanding any law to the contrary the Commissioner may appoint a receiver to continue the
operations on 24 hours' notice to the current operator, in order to preserve the life, health and safety of
the people of the State ofN ew York.

•

No pharmacist shali' dispense hydroxychloroquine or chloroquine except when written as prescribed for
an FDA-approved indication; or as part of a state approved clinical trial related to COVID-19 for a
patient who has tested positive for COVID-19, with such test result documented as part of the
prescription. No other experimental or prophylactic use shall be permitted, and any permitted
prescription is limited to one fourteen day prescription with no refills.

•

Any licensed health insurance company shall deliver to the Superintendent, no later than March 24,
2020 a list of all persons who have a professional licensure or degree, whether physician' s assistant,
medical doctor, licensed registered nurse, licensed nurse practitioner or licensed practical nurse, and
whether or not the person has a currently valid, or recently (within past five years) expired license in the
state of New York. The Department of Financial Services shall poll such individuals to determine
whether or not such professionals would serve in the COVID-19 response effort.

•

Non-essential gatherings of individuals of any size for any reason (e.g. parties, celebrations or other
social events) are canceled or postponed at this time.
GIVEN under my hand and the Privy Seal of the
State in the City of Albany this twentythird day of March in the year two
thousand twenty.

BY THE GOVERNOR

Secretary to the Governor

R.A. 90

Case 1:20-cv-04834-KAM-RML Document 12-14 Filed 10/09/20 Page 1 of 3 PageID #: 453

No. 202.32
EXECUTIVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency

J
WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York; and
WHEREAS, both travel-related cases and community contact transmission ofCOVID-19 have
been documented in New York State and are expected to continue;
NOW, THEREFORE, I, AndrewM. Cuomo, Governor of the State ofNew York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law, do hereby continue the
suspensions and modifications of law, and = Y directives, not superseded by a subsequent directive, made
by Executive Order 202.23 and each successor Executive Order up to and including Executive Order
202.27, for thirty days until June 20, 2020.
IN ADDITION, I hereby temporarily suspend or modify the following for the period from the date
of this Executive Order through June 20, 2020, the following:
•

Subdivision (1) of section 576-b of the Public Health Law and section 58-1.7 and 58-1.8 of Title 10
of the NYCRR, to the extent necessary to, in furtherance of Executive Order 202.30 and any
extensions thereof, allow clinical laboratories to accept and examine specimens for COVID-19
testing, from personnel of nursing homes and adult care facilities, as such personnel are defined in
Executive Order 202.30, without a prescription or order from an authorized ordering source, and to
report the results of such tests to the appropriate operators and administrators of the nursing home
or adult care facility for which the person for whom the test was performed provides services;
provided that, to ensure appropriate follow-up with patients who test positive for COVID-19, the
facility administrator shall contact the local health department to ensure all facWty personnel who
test positive are provided appropriate clinical guidance as well as appropriate isolation orders; and

•

Section 6530 of the Education Law, to the extent necessary to allow physicians to order COVID-19
tests, authorized by the U.S. Food and Drug Administration (FDA) for self-collection, without
otherwise having an initial physician-patient relationship with the patient.

IN ADDITION, by virtue of the authority vested in me by Section 925-a ofthe Real Property Tax
Law to extend during a State disaster emergency the period for paying property taxes without interest or
penalties upon request of the chief executive officer of an affected county, city, town, village or school
district, I do hereby extend by twenty-one days the period for paying, without interest or penalty, property
taxes that are due in the following localities that have requested such an extension: Village of Antwerp,
Jefferson County; Village of Asharoken, Suffolk County; Village of Bainbridge, Chenango County; Village
of Bayville, N assau County; Village of Bronxville, Westchester County; Village of Canastota, Madison
County; Village of Cedarhurst, Nassau County; Village of Chester, Orange County; Village of Chittenango,
Madison County; City of Coming, Steuben County; Village of Coxsackie, Greene County; Village of
Croton-on-Hudson, Westchester County; Village of Delhi, Delaware County; Village of Deposit, BroomDelaware County; Village of Dexter, Jefferson County; Village of Dryden, Tompkins County;
Town/Village of East Rochester, Monroe County; Village of East Rockaway, Nassau County; Village of
Flower Hill, Nassau County; Grand-View-on-Hudson,
R.A. 91Rockland County; Village of Granville, Washington

case 1:20-cv-04834-KAM-RML Document 12-14 Filed 10/09/2
0 Page 2 of 3 PagelD #: 454

County; Village of Great Neck, Nassau County; Village of Great Neck
Estates, Nassau County; Village of
Haverstraw, Rockland County; Village of Herkimer, Herkimer County;
Village of Holland Patent, Oneida
County; Village ofHolle y, Orleans County; Village of Huntington Bay,
Suffolk County; Village of Kings
Point, Nassau County; Village of Irvington, Westchester County; Village
of Lynbrook, Nassau County;
Village of Massapequa Park, Nassau County; Village of Massena, St.
Lawrence County; Village of
Menands, Albany County; Village of Mexico, Oswego County; Village
of Mill Neck, Nassau County;
Village of Millport, Chemung County; Village of Naples, Ontario County;
Village ofNassa u, Rensselaer
County; Village of New Hartford, Oneida County; Village of New York
Mills, Oneida County; Village of
Old Westbury, Nassau County; Village of Orchard Park, Erie County;
Village of Oyster Bay Cove, Nassau
County; Village of Pawling, Dutchess County; Village of Poland, Herkime
r County; Village of Pulaski,
Oswego County; Village of Quogue, Suffolk County; Village of Roslyn,
Nassau County; Village of Roslyn
Harbor, Nassau County; Village of Saranac Lake, Franklin-Essex Counties
; Village of Saugerties, Ulster
County; Village of Scottsville, Monroe County; Village of Sea Cliff,
Nassau County; Village of Sidney,
Delaware County; Village of Spencerport, Monroe County; Village of
Sodus, Wayne County; Village of
South Glens Falls, Saratoga County; Village of Trumansburg, Tompkin
s County; Village of Tuckahoe,
Westchester County; Village of Upper Nyack, Rockland County; Village
of Warwick, Orange County;
Village of Wesley Hills, Rockland County; Village of West Haverstr
aw, Rockland County; Village of
Westbury, Nassau County; Village of Whitehall, Washington County;
Village of Whitesboro, Oneida
County; Village of Williston Park, Nassau County; Village of Valley
Stream, Nassau County; Village of
Floral Park, Nassau County; Village of Schoharie, Schoharie County;
and the County of Suffolk..
IN ADDITION, by virtue of the authority vested in me by Section 925-a
of the Real Property Tax
Law, I do hereby retroactively extend by twenty-one days the period
for paying without interest or penalty
the property taxes that were due by April 1, 2020, in the Village of Head
of the Harbor, Suffolk County,
and the Village of Russell Gardens, Nassau County.
IN ADDITION, by virtue of the authority vested in me by Section 29-a
of Article 2-B of the
Executive Law to issue any directive during a disaster emergency necessar
y to cope with the disaster, I do
hereby issue the following directives for the period from the date of this
Executive Order through June 20,
2020:
•

Any licensee or franchisee· of a racetrac k in the State is hereby permitte
d to operate such
racetrac k as of June 1, 2020, provide d such racetrac k does not permit
any visitor or fan into the
facility, and allows on site only essentia l personn el; and provide d
further that such licensee or
franchis ee of a racetrac k, and all essentia l personn el adhere to any
directive or guidanc e issued
by the Departm ent of Health and/~ by the Gaming Commis sion.

•

Executive Order 202. l O (as later extended by Executive Order 202.18
and Executive Order 202.29)
which prohibited all non-essential gatherings of any size for any reason,
is hereby modified to
permit a gathering often or fewer individuals for any religious service
or ceremony, or for the
purposes of any Memorial Day service or commemoration, provided
that social distancing protocols
and cleaning and disinfection protocols required by the Department of
Health are adhered to, and
provided further, that any drive-in or remote religious service may continue
in excess of the ten
person limit so long as there is no in-person contact between participa
nts. Vehicle caravans are
permitted.

•

The authority of the Commissioner of Taxation and Finance to abate
late filing and payment
penalties pursuant to section 1145 of the Tax Law is hereby expanded
to authorize.abatement of
interest and penalties for a period of up to 100 days for taxpayers who
were required to file returns
and remit sales and use taxes by March 20, 2020, for the sales tax quarterly
period that ended
February 29, 2020.

IN ADDITION, by virtue of the authority vested in me by Section 29-a
of Article 2-B of the
Executive Law, I hereby suspend or modify the following provisions
included in Executive Order 202.22,
for the period·from the date of this Executive Order through June 20,
2020, unless an earlier date is
specified below:
•

Article 5 of the Real Property Tax Law, and analogous provisions of
any other general or special
laws that require a tentative assessment roll to be filed on or before June
1, 2020, to allow the
tentative and final assessment rolls to be filed, at local option, up to 30
days later than otherwise
allowable, to allow an assessing unit to set a date for hearing assessme
nt complaints that is at least
21 days after the filing of the tentative roll, to allow notice of the filing
of the te~tative roll to be
published solely online so long as the date for hearing complaints is promine
ntly displayed, to
suspend in-person inspection of the tentative roll, and to allow local Boards
of Assessment Review
to hear complaints remotely by conference call or similar service, provided
that complainants can
present their complaints through such service and the public has the ability
to view or listen to such
proceeding;

R.A. 92

case 1:20-cv-04834-KAM-RML Document 12-14 Filed 10/09/20 Page 3 of 3 PagelD
#: 455

•

Section 1212 of the Real Property Tax Law, to the extent necessary to allow the co=ission
er of
taxation and finance to certify final state equalization rate, class ratios, and class equalizatio
n rates,
if required, no later than ten days prior to the last date set by law for levy of taxes of any
municipal
corporation to which such equalization rate, class ratios, and class equalization rates are applicable;

•

Section 1512(1) of the Real Property Tax Law and Sections 283.291 and 283.221 of the Laws
of
· Westchester County, are suspended to allow the County Executive to negotiate with any
town
supervisor or mayor of any city, to accept a lesser percentage of taxes, special ad valorem
levies or
special assessments which are otherwise due on May 25, provided that in no event shall any
town or
city be required to pay more than sixty percent. The County Executive is empowered to determine
whether or not penalties for late payment or interest are able to be waived dependent on whether
or
not such town or city applies the County Executive' s criteria for determining hardship due
to
COVID-19;
.

•

Section 283.221 of the Laws of Westchester County is further suspended to the extent necessary
to
require the supervisor of a town, to waive payment of penalties for late payment of county
and
county district taxes under section 283.221 up to July 15, 2020, and waive payment of penalties
for
late payment of town and town district taxes and assessments in the same manner, provided
such
town applies the County Executive's criteria for the determination of hardship due to COVID-19
;

•

Section 1512(1) of the Real Property Tax Law and any penalty provision of the tax code
of a city1
within Westchester County is further suspended to the extent necessary to allow the mayor
of that
City. to waive the payment of penalties for late payment of county and county district taxes
and to
further waive payment of penalties for late payment of city and city district taxes and assessment
s in
the same manner, provided such city applies the County Executive's criteria for the determinat
ion
of hardship due to COVID-19;

•

Section 5-18.0(2) of the Nassau County Administrative Code, to the extent necessary to allow
the
Nassau County Executive to extend until June 1, 2020, the deadline to pay without interest
or
penalty the final one-half of school taxes upon real estate in such county.

GIVEN under my hand and the Privy Seal of the
State in the City of Albany this
twenty-first day of May in the year
two thousand twenty.

BY THE GOVERNOR

Secretary to the Governor

R.A. 93

Case 1:20-cv-04834-KAM-RML Document 12-15 Filed 10/09/20 Page 1 of 1 PageID #: 456

No. 202.33
EXECUTIVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency

WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York; and
WHEREAS, both travel-related cases and community contact transmission of COVID-19 have
been .documented in New York State and are expected to continue;
NOW, THEREFORE, I, Andrew M. Cuomo, Governor of the State of New York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to issue any directive during a
disaster emergency necessary to cope with the disaster, I do hereby issue the following directives for the
period from the date of this Executive Order through June 21, 2020:
•

Executive Order 202.10, as later extended by Executive Order 202.18, Executive Order 202.29 and
as extended and amended by Executive Order 202.32, which prohibited all non-essential gatherings
of any size for any reason, except for any religious service or ceremony, or for the purposes of any
Memorial Day service or commemoration, which allowed ten or fewer individuals to gather,
provided that social distancing protocols and cleaning and disinfection protocols required by the
Department of Health are adhered to is hereby modified to permit any non-essential gathering often
or fewer individuals, for any lawful purpose or reason, provided that social distancing protocols and
cleaning and disinfection protocols required by the Department of Health are adhered to.

G I V E N under my hand and the Privy Seal of the
State in the City of Albany this
twenty-second day of May in the year
two thousand twenty.

BY THE GOVERNOR

/}L,.

Secretary to the Governor

R.A. 94

--- ----- ------ ----·- ------ ------ -~--- ~·-------·

Case 1:20-cv-04834-KAM-RML Document 12-16 Filed 10/09/20 Page 1 of 1 PagelD #: 457

No. 202.42
EXECUTI VE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York; and
WHEREAS, both travel-related cases and conmnmity contact transmission ofCOVID-19 have
been documented in New York State and are expected to continue;
NOW, THEREFORE , I, Andrew M. Cuomo, Governor of the State ofNew York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to issue any directive during a
disaster emergency necessary to cope withc:fue disaster, I hereby issue the following directives for the
pe1iod from the date of this Executive Order through July 15, 2020:

•

The directive contained in Executive Order 202.35, as extended and as amended by Executive Order
202.38, which amended the directive in Executive Order 202.10 that limited all non-essential
gatherings to ten or fewer individuals, is hereby further modified to allow twenty-five (25) or fewer
individuals, for any lawful purpose or reason, provided that the location of the gathering is in a
region that has reached Phase 3 of the State' s reopening, and social distancing protocols and
cleaning and disinfection protocols required by the Department of Health are adhered to.

GIVEN under my hand and the Privy Seal of the
State in the City of Albany this
fifteenth day of June in the year two
thousand twenty.

BY THE GOVERNOR

/1,0,.
Secretary to the Governor

R.A. 95

Case 1:20-cv-04834-KAM-RML Document 12-17 Filed 10/09/20 Page 1 of 2 PagelD #: 458

No.202.45
EXECUTIVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State ofNew York; and
WHEREAS, both travel-related cases and community contact transmission of CO VID-19 have been
documented in New York State and are expected to continue;
NOW, THEREFORE, I, Andrew M. Cuomo, Governor of the State of New York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or modify
any statute, local law, ordinance, order, rule, or regulation, or parts thereof, of any agency during a State disaster
emergency, if compliance with such statute, local law, ordinance, order, rule, or regulation would prevent,
hinder, or delay action necessary to cope with the disaster emergency or if necessary to assist or aid in coping
with such disaster, I hereby extend any directive contained in Executive Order 202.34 and 202.35, provided
such directive has not been superseded by a subsequent directive, and further, I hereby temporarily suspend or
modify, for the period from the date of this Executive Order through July 26, 2020 the following:
•

Paragraph (e) of subdivision 1 of Section 581 of the Labor Law, to the extent necessary to authorize the
Commissioner of Labor to issue a finding rela:ted to experience rating charges as permitted by the
Families First Coronavirus Response Act and incurred beginning with the benefit week starting March
9,2020;

•

Subdivision 4 of section 1 of chapter 25 of the laws of2020 is modified to the extent necessary to
provide that in addition to any travel to a country for which the Centers for Disease Control and
Prevention has a level two or three travel health notice, an employee shall not be eligible for paid sick
leave benefits or any other paid benefits pursuant to this chapter if such employee voluntarily travels
which commences after June 25, 2020 to a state with a positive test rate higher than 10 per 100,000
residents, or higher than a 10% test positivity rate, over a seven day rolling average, and which the
commissioner of the department of health has designated as meeting these conditions as outlined in the
advisory issued pursuant to Executive Order 205, and the travel was not taken as part of the employee's
employment or at the direction of the employee's employer;

•

Section 28-66 of the Charter of the City of Buffalo, to the extent necessary to allow the Mayor to waive
the additions prescribed therein on unpaid 2019-2020 city taxes for the months of April, May and June
of 2020, and to require payments of2019-2020 city taxes that are made after June 30, 2020 to be made
without additions for the months of April, May and June of2020;

IN ADDITION, by virtue of the authority vested in me by Section 925-a of the Real Property Tax Law
to extend during a State disaster emergency the period for paying property taxes without interest or penalties .
upon request of the chief executive officer of an affected county, city, town, village or school district, I do
hereby extend by twenty-one days the period for paying, without interest or penalty, property taxes that are due
in the following localities that have requested such an extension: Village of Ossining, Westchester County;
Village of Pomona, Rockland County;
IN ADDIT_JON, by virtue of the authority vested in me by Section 29-a of Article 2-B of the Executive
Law to issue any directive during a disaster emergency necessary to cope with the disaster, I hereby issue the
Executive Order through July 26, 2020:
of this96
R.A.
following directives for the period from the date

case 1:20-cv-04834-KAM-RML Document 12-17 Filed 10/09/20 Page 2 of 2 PagelD
#: 459

•

The directive contained in Executive Order 202.35, as extended and as amended by Executive
Order
202.38 and Executive Order 202.42, which amended the directive in Executive Order 202.10
that
limited all non-essential gatherings, is hereby further modified to allow gatherings of fifty
(50) or fewer
individuals for any lawful purpose or reason, so long as any such gatherings occurring indoors
do not
exceed 50% of the maximum occupancy for a particular indoor area, and provided that the
location of
the gathering is in a region that has reached Phase 4 of the State's reopening, and provided
further that
social distancing, face covering, and cleaning and disinfection protocols required by the
Department of
Health are adhered to.

•

Executive Order 202.41, which extended the provisions of Executive Orders 202.3, 202.4,
202.5, 202.6,
202.7, 202.8, 202.10, 202.11, 202.13, 202.14, 202.28, 202.31, 202.34, and 202.35 which
each closed or
otherwise restricted public or private businesses or places of public accommodation, is hereby
continued
until and unless later amended or extended by a future Executive Order, provided, however:
o

That effective on June 26, 2020, the reductions and restrictions on the in-person workforce
at
non-essential businesses or other entities shall no longer apply to Phase Four industries,
as
determined by the Department of Health, in eligible regions, including:
• Higher Education;
• · Film and Music Production;
• Low-risk indoor arts and entertainment;
• Low-risk outdoor arts and entertainment; and
• Professional Sports without fans.
o Businesses or entities in industries open in Phase Four must be operated in compliance
with the
guidance promulgated by the Department of Health.
o As of June 26, 2020 the regions meeting the prescribed public health and safety metrics
required
for Phase Four reopening are: Finger Lakes, Central New York, Mohawk Valley, Southern
Tier,
and the North Country. Any additional regions which meet the criteria after such date will
be
deemed to be incorporated into this Executive Order without further revision and will be
permitted to re-open Phase Four industries, subject to the same terms and conditions.
o Any previous directive that restricted operation of any industry, business, or facility
that is
permitted to open in Phase One, Phase Two, Phase Three, or Phase Four is hereby superseded
,
only insofar as it is inconsistent with any Executive Order allowing businesses, industries,
and
facilities to reopen.
•

The directive contained in Executive Order 202.44 regarding elective surgeries is hereby
amended to
provide that the directive contained in Executive Order 202.10 authorizing the Commissio
ner of Health
to direct all general hospitals, ambulatory surgery centers, office-based surgery practices
and diagnostic
and treatment centers to increase the number of beds available to patients, including by canceling
all
elective surgeries and procedures, is hereby modified to authorize general hospitals to perform
elective
surgeries and procedures so long as the established criteria are met currently, whether or
not such
criteria were met on the dates set forth in such directive, and as modified by the June 14th
Department of
Health guidance.

•

Executive Order 202.34, which extended the directive contained in Executive Orders 202.28,
202.18,
202.14 and 202.4 as amended by Executive Order 202.11 related to the closure of schools
statewide, is
hereby continued to provide that all schools shall remain closed to in-person instruction
except for the
purpose of provision of special education services. School districts must ensure the availability
of meals,
and child care, with an emphasis on serving children of essential workers. Meals may be
provided by an
alternative entity, provided that the school district shall be responsible for ensuring that all
children have
access to free meals. Should the students not have access through an alternative entity, the
school
district must provide the meals.

GIVEN under my hand and the Privy Seal of the
State in the City of Albany this twentysixth day of June in the year two
thousand twenty.

BY THE GOVERNO R

IJA>·

Secretary to the Governor

R.A. 97

Case 1:20-cv-04834~KAM-RML Document 12-18 Filed 10/09/20 Page 1 of2 Pa_
geID # : 460

No. 205

EXECUTIVE ORDER
QUARANTINE RESTRICTIONS ON TRAVELERS ARRIVING IN NEW YORK
WHEREAS, the State of New York has successfully slowed the transmission of COVID-19;
WHEREAS, the State of New York has gone from having the highest infection rate to one of the
lowest in the country and is one of only a few states reported to be on track to contain COVID-19;
WHEREAS, the Governor has undertaken a cautious, incremental and evidence-based approach to
reopening the State of New York;
WHEREAS, other states that may have taken a less cautious approach are experiencing an
increased prevalence of COVID-19;
WHEREAS, New York must work in conjunction with its neighboring states of New Jersey and
Connecticut, in light of the significant risk posed to the health and welfare of all residents by the further
spread of COVID-19 to the tristate area, to protect the progress made;
·
NOW, THEREFORE, I, Andrew M. Cuomo, Governor of the State of New York, by virtue of the
authority vested in me by the Constitution and the Laws of the State ofNew York, in particular Article IV,
section one, I do hereby order and direct as follows:
The commissioner of the Department of Health to issue a travel advisory to be communicated
widely at all major points of entry into New York, including on highway message boards and in all New
York airports, that:
All travelers en,tering New York from a state with a positive test rate higher than 10 per 100,000
residents, or higher than a 10% test positivity rate, over a seven day rolling average, will be required to
quarantine for a period of 14 days consistent with Department of Health regulations for quarantine.
The Commissioner may issue additional protocols for essential workers, or for other extraordinary
circumstances, when a quarantine is not possible, provided such measures continue to safeguard the public
health.
The criteria and the protocols will be coorclinated with New Jersey and Connecticut Commissioners
of Health, in order to ensure that the tristate area is protected from community transmission of COVID-19,
while permitting free travel between and among the states.
The Commissioner of Health in New York shall make public the impacted jurisdictions on its
website and such travel advisory will be effective at 12:01 am. on June 25, 2020, until rescinded by the
Commissioner.

to

Any violation of a quarantine or isolation order issued to an individual pursuant the
Commissioner of the Department of Health's travel
R.A.advisory
98 by a local department of health or state

Case 1:20-cv-04834-KAM-RML Document 12-18 Filed 10/09/20 Page 2 of 2 PagelD # : 461

depar1ment of health may be enforced pursuant to article 21 of the public health law, and non-compliance
may additionally be deemed a violation pursuant to secw.on 12 of the public health law subject to a civil
penalty ofup to $10,000.
GIVEN under my hand and the Privy Seal of the
State in the City of Albany this
twenty-fourth day of June in the year
two thousand twenty.

BY THE GOVERNOR

Secretary to the Governor

R.A. 99

Case 1:20-cv-04834-KAM-RML Document 12-19 Filed 10/09/20 Page 1 of 2 PagelD #: 462

No. 202.61
EXECUTIVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State ofN ew York; and
WHEREAS, both travel-related cases and community contact transmission of COVID-19 have been
documented in New York State and are expected to continue;
NOW, THEREFORE, I, Andrew M. Cuomo, Governor of the State of New York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or modify any
statute, local law, ordinance, order, rule, or regulation, or parts thereof, of any agency during a State disaster
emergency, if compliance with such statute, local law, ordinance, order, rule, or regulation would prevent, hinder,
or delay action necessary to cope with the disaster emergency or if necessary to assist or aid in coping with such
disaster, I hereby temporarily suspend or modify, for the period from the date of this Executive Order through
October 9, 2020 the following:
•

Subdivision 1 of section 579 of the Public Health Law is modified to the extent necessary to require
immediate reporting (not more than 3 hours) ofresults ofCOVID-19 and influenza testing by additional
clinical laboratories, including those operated by a licensed physician, osteopath, dentist, midwife, nurse
practitioner or optometrist who is authorized by the Food and Drug Administration (FDA) or
Department of Health to administer a point of care COVID-19 test and registered with the Department
of Health as a physician office laboratory, in accordance with section 576-c of the Public Health Law
and Section 58-1.14 of Title 10 of the NYCRR; provided further as it relates to COVID-19 testing,
containing information pertaining to attendance and employment in school as required by the below
directives.

IN ADDITION, by virtue of the authority vested in me by Section 29-a of Article 2-B of the Executive
Law to issue any directive during a disa,sJer emergency necessary to cope with the disaster, I do hereby issue the
following directives through October 9, 2020:
•

Every licensed professional authorized by the Department of Health Physician Office Laboratory
Evaluation Program to administer a test for COVID-19 or influenza, whether alone or in conjunction
with any other test, shall report such results immediately (not more than 3 hours) to the Department of
Health through the Electronic Clinical Laboratory Reporting System (ECLRS) when a result is received.
o Provided further that every professional authorized to administer a test for COVID-19 shall not
take such sample or administer such test without inquiring, if such individual attends school, and
if so, as to where such individual attends school and to report such data to ECLRS; and as to
place of employment, and whether the individual works or volunteers in an elementary,
secondary school, or post-secondary school, and if so, to report such data to ECLRS.
o Additionally, every professional authorized to administer a test for COVID-19 shall not take
such sample or administer such test without inquiring as to the individual's.local address, if such
address differs from the individual's permanent address, and such local address must be reported
toECLRS.

•

Every licensed laboratory in the state of New York shall require that, prior to processing any specimen
for a COVID-19 test, alone or in conjunction with a test for any other communicable disease,
information related to school of attendance,
or place of employment or volunteer work for any adult, be
R.A. 100
transmitted to such laboratory along with such sample. Such information must be reported to the State
Deoartment of Health via ECLRS .

Case 1:20-cv-04834-KAM-RML Document 12-19 Filed 10/09/20 Page 2 of 2 PagelD # : 463

•

Every local health department in the state of New York shall report to the Department of Health, on a
daily basis, in a form and manner to be determined by the Department, all COVID-19 testing and
diagnoses for any individual who is a student, teacher, and any other individual who is a school
employee or volunteer, for both higher and lower education institutions and districts. Such daily report
shall include any other data elements as the Commissioner of Health determines to be appropriate to
track outbreaks of COVID-19 within higher and lower e·ducation institutions, schools and school
districts.

•

Every school and school district shall report to the Department of Health, on a daily basis, in a form and
manner to be determined by the Department, all COVID-19 testing and diagnoses among students,
teaching staff, and any other employees or volunteers. Such daily report shall include any other data
elements as the Commissioner ofHealth determines to be appropriate to track outbreaks ofCOVID-19
within such schools and school districts.

•

Every higher education institution, including but not limited to community and junior colleges,
universities, graduate and professional schools, medical schools, and technical schools, shall report to
the Department of Health, on a daily basis, in a form and manner to be determined by the Department,
all COVID-19 testing and diagnoses among any on-campus students, teaching staff, and any other
employees or volunteers: Such daily report shall include any other data elements as the Commissioner of
Health determines to be appropriate to track outbreaks of COVID-19 within such higher education
institutions, and provided further, that additional notification to the Department of Health is required
once an institution reaches 100 positive cases.

•

Ariy directive, modification or suspension heretofore issued to authorize individuals to administer or
process any COVID-19 test shall apply to any FDA approved method to test for COVID-19 in
conjunction with any other communicable disease.

•

All boards of elections shall develop a plan to allow a registered voter to drop off a completed absentee
ballot at a board of election, early voting location, or election day voting location, without requiring they
wait in line with in-person voters, to help minimize delays during in-person voting and promote
contactless voting. Plans must be submitted to the State Board of Elections by September 21, 2020, and
made publicly available in the county board of elections office and on their website when submitted.

•

For any absentee ballot issued pursuant to Chapter 91 and Chapter 138 of the Laws of2020 and/or the
provisions of Executive Order 202.5 8 for which a paper application need not be returned by the voter
because the voter applied for an absentee ballot by letter, email, facsimile, phone, internet or
electronically, the board of elections shall not send such voter a paper absentee ballot application with
their ballot, and such voter shall not.be required to complete a paper application either prior to or
simultaneously to receiving the ballot.

•

The directive in Executive Order 202.48, which modified the directive contained in Executive Order
202.41, that prohibited indoor food services and dining as part of Phase Three in New York City, is
hereby modified to allow indoor food services and dining in New York City beginning September 30,
2020, so long as Department of Health and any other applicable State-issued guidance is strictly adhered
to.

£-j
i f:.<..~

.

.:~·~:7

"- ~~"'_.:,-

,:;..,..:.;

.it :,••:'._, ;:-:,;: :..,\/\,~
- ""

.q;

~.

-"".,..

.,,~

-~ -~~)".,,,._ -

GIVEN under my hand and the Privy Seal of the

::

State in the City of Albany this ninth

\;i;~~i

day of September in the year two
thousand twenty.

BY THE GOVERNOR

/}le,.
Secretary to the Governor

R.A. 101

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04834-KAM-RML Document 12-20 Filed 10/09/20 Page 1 of 6 PagelD #: 464
PUBLIC HEALTH

How ‘Superspreading’ Events Drive Most COVID-19 Spread
As few as 10 percent of infected people may drive a whopping 80 percent of cases in specific types of situations

By Christie Aschwanden on June 23, 2020

Credit: Getty Images

In late February about 175 executives from around the world came to the biotechnology company
Biogen’s leadership conference in Boston. Over two days, attendees shook hands, talked among
themselves and shared meals. Also in attendance: the new coronavirus. Several people at the
event were unknowingly infected with the microbe that causes COVID-19, and it quickly spread
among others there, who then brought it home. At least 99 people ended up sick in Massachusetts
alone.

R.A. 102
https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04834-KAM-RML Document 12-20 Filed 10/09/20 Page 2 of 6 PagelD #: 465

Around the same time, the coronavirus was spreading among more than 100 people who went to
a funeral in Albany, Ga. sparking an outbreak that soon led to the surrounding rural county
posting one of the nation’s highest cumulative incidences of COVID-19. The next month a single
individual with the disease infected 52 people during a two-and-a-half-hour choir practice in
Washington State. Two people died. In Arkansas, an infected pastor and his wife passed the virus
on to more than 30 attendees at church events over the course of a few days, leading to at least
three deaths. And these new cases spread to 26 more people, at least one of whom died.

As scientists have learned more about COVID-19, it has become clear that so-called
superspreader incidents—in which one person infects a disproportionate number of other
individuals—have played an oversized role in the transmission of the virus that causes the
disease. The Boston conference and the funeral in Georgia were among several superspreader
events that played “a notable role in the early U.S. spread of COVID-19 ,” according to a report by
Anne Schuchat, principal deputy director of the Centers for Disease Control and Prevention. In
fact, research on actual cases, as well as models of the pandemic, indicate that between 10 and 20
percent of infected people are responsible for 80 percent of the coronavirus’s spread.

ADVERTISEMENT

These numbers mean that preventing superspreader events could go a long way toward stopping
COVID-19, says Samuel Scarpino, a network scientist who studies infectious disease at

Northeastern University. Scientists have identified factors that catalyze such events, including
large crowd sizes, close contact between people and confined spaces with poor ventilation.
Current evidence suggests that it is mostly circumstances such as these, rather than the biology of

specific individuals, that sets the stage for extreme spreading of the novel coronavirus.
When describing how the SARS-CoV-2 virus spreads, epidemiologists not only use the average
number of other people that one individual infects but also employ another key value called the

R.A. 103
https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04834-KAM-RML Document 12-20 Filed 10/09/20 Page 3 of 6 PagelD #: 466
dispersion factor, or “k.” This number describes how much a disease clusters. A small k generally

means that a relatively small number of cases are responsible for transmissions, while a larger k
indicates that transmissions are more evenly spread. In Hong Kong, researchers calculated that in
more than 1,000 COVID-19 cases they examined, the value for k was 0.45. That value was higher
than that of SARS or MERS—two previous viral outbreaks that featured superspreading—but

much lower than that of the 1918 flu pandemic. In other words, SARS-CoV-2's transmission is not
as reliant on superspreading as SARS and MERS were but is far more dependent on it than

influenza, Scarpino says.
The novel coronavirus seems to primarily spread via respiratory droplets produced by an infected
individual during coughing, sneezing, talking or breathing. The next person becomes infected by
inhaling these droplets into his or her lungs or by getting them in the nose or mouth. If people got
sick right away after they were infected, they might stay at home in bed, giving them few
opportunities to transmit the virus. Instead individuals with COVID-19 are contagious before they
have symptoms, says Lauren Ancel Meyers, executive director of the University of Texas at Austin
COVID-19 Modeling Consortium. The CDC estimates that about 40 percent of transmissions
occur before the infected person has any symptoms and that symptoms take an average of six
days to begin. That time gives an infected individual a long window to come into contact with
other people—and to perhaps get into a situation ripe for superspreading.

Researchers have identified several factors that make it easier for superspreading to happen.
Some of them are environmental. For instance, poorly ventilated indoor areas seem especially
conducive to the virus’s spread. A preliminary analysis of 110 COVID-19 cases in Japan found that
the odds of transmitting the pathogen in a closed environment was more than 18 times greater
than in an open-air space · And the authors concluded that confined spaces could promote
············································superspreader events. (The study has not yet been peer-reviewed.) Another preliminary preprint
study, by researchers in London, examined clusters of COVID-19 cases and found that nearly all
of them were indoor or indoor-outdoor settings. The largest clusters were found in indoor spaces
such as nursing homes, churches, food-processing plants, schools, shopping areas, worker
dormitories, prisons and ships.

Unsurprisingly, another thing these superspreader venues have in common is that they are places

R.A. 104
https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04834-KAM-RML Document 12-20 Filed 10/09/20 Page 4 of 6 PagelD #: 467
where large numbers of people congregate. The more individuals you pile into one place, the

greater the opportunity for the coronavirus to infect many people at once, Meyers says. “If you

max out at five people, it will be very hard to have a superspreading event," she adds. But as a
group’s size increases, so does the risk of transmitting the virus to a wider cluster. A large group
size also increases the chance that someone present will be infectious.

ADVERTISEMENT

Time matters too. The longer a group stays in contact, the greater the likelihood that the virus will
spread among them. Exactly how much time someone needs to pick it up remains an unanswered
question, says Syra Madad, a special pathogens expert at NYC Health + Hospitals. She adds that
the benchmark used for risk assessment in her contact-tracing work is 10 minutes of contact with
an infectious person, though the CDC uses 15 minutes as a guideline. Essential workers such as
grocery store checkers and nursing home employees interact with large groups by necessity and
work in situations primed for superpreading. Meyers says that if we want to contain COVID-19,

we will have to find ways to protect them and make their workplaces less favorable to such events.
What people are doing matters, too, because some activities seem to make it easier to spread

respiratory gunk. We have all seen droplets go flying when someone coughs or sneezes. But even
when you talk, you emit a “tremendous amount” of particles, says University of California, Davis,
chemical engineer William Ristenpart. “Nobody thinks about them, but they’re there,” he says.
Ristenpart’s team has found that speech emits more particles than normal breathing. And
emissions also increase as people speak louder. Singing emits even more particles, which may
partially explain the superspreader event at the Washington State choir practice. Breathing hard
during exercise might also help the spread of COVID-19. Fitness dance classes held in small
rooms with up to 22 students at a time were linked to 65 cases of the disease in South Korea. But
yoga classes at one of the same facilities were not linked to any clusters. A study of COVID-19
clusters in Japan found cases connected to exercising in gyms, karaoke parties, cheering at clubs
and holding conversations in bars, providing further evidence that these activities may aid

R.A. 105
https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04834-KAM-RML Document 12-20 Filed 10/09/20 Page 5 of 6 PagelD #: 468
transmission.

Ristenpart and his colleagues have not yet confirmed that the particle-emission changes they saw
affect transmission of the novel coronavirus. Their study did not measure SARS-CoV-2 itself. But
the airborne particles are presumably important carriers of viral particles. The scientists also have
found intriguing evidence that a small subset of people may behave as “speech superemitters”—
individuals who consistently broadcast an order of magnitude more respiratory particles than

their peers. "It is very difficult to identify who is going to be a superemitter ahead of time," he
says. “One of the superemitters was a very petite young woman. And I was a bigger, bulkier guy
and was not a superemitter.”

Sign up for Scientific American's free newsletters.

The evidence about superspreading activities has led researchers to believe they are responsible
for much of the new coronavirus’s transmission. “All of the data I’m seeing so far suggest that if
you tamp down the superspreader events, the growth rate of the infections stops very, very
quickly,” Scarpino says. “We saw in Seattle that there were at least a couple of introductions that
did not lead to new cases”—implying that the virus can fade out if it is denied circumstances for
spreading.

But in the U.S.—where there have been nearly 2.16 million cases and more than 117,000 deaths—
those situations may be on the rise. States are reopening businesses and activities, which means
more people are coming in contact with one another in larger groups. So minimizing conditions
that allow superspreading events to happen will be crucial for keeping COVID-19 in check. In
advised people to avoid situations with the three C’s.: closed spaces
Japan, health officials have ...........................................................................................
with poor ventilation, crowded spaces and close-contact settings. A virus’s ability to infect is not
entirely a property of that pathogen, says Cristopher Moore, a computer scientist at the Santa Fe
Institute who models virus-spreading events. “It’s a property of how the virus and human society

R.A. 106
https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04834-KAM-RML Document 12-20 Filed 10/09/20 Page 6 of 6 PagelD #: 469

interact,” he notes, and that’s something we have the power to change.

ADVERTISEMENT

Read more about the coronavirus outbreak from Scientific American here. And read coverage
from our international network of magazines here .

ADVERTISEMENT

ABOUT THE AUTHOR(S)

Christie Aschwanden

Scientific American is part of Springer Nature, which owns or has commercial relations with thousands of scientific publications (many of them can be found
at www.springernature.com/us). Scientific American maintains a strict policy of editorial independence in reporting developments in science to our readers.

© 2020 SCIENTIFIC AMERICAN, A DIVISION OF SPRINGER NATURE AMERICA, INC.

ALL RIGHTS RESERVED.

R.A. 107
https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 1 of 7
Case 1:20-cv-04834-KAM-RML Document 12-21 Filed 10/09/20 Page 1 of 7 PagelD #: 470

You'd make a terrible
trader.
NewSdentist
SUBSCRIBE AND SAVE 69%

Finding coronavirus superspreaders may be key to halting a second
wave
HEALTH 30 July 2020
By Clare Wilson

Indoor bars are thought to be a particular risk for superspreading events
ViewApart/Getty Images

R.A. 108
https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 2 of 7
Case 1:20-cv-04834-KAM-RML Document 12-21 Filed 10/09/20 Page 2 of 7 PagelD #: 471
A skiing trip, a wedding, a choir practice: what these events have in common is that they were all occasions of coronavirus
superspreading. This is when someone passes the virus on to an especially high number of people.
While there is no universally agreed definition of a superspreading event, it is sometimes taken to be an incident in which
someone passes on the virus to six or more other people. Getting to the bottom of why these puzzling clusters occur could be
key to gaining control of the covid-19 pandemic and stopping a second wave of cases.
For months, we have been hearing that the R number, or reproduction number, is what is needed to gauge the spread of
covid-19. This is the average number of people that each infected person passes the virus on to. Before lockdown in the UK,
the R number for coronavirus was estimated at somewhere between 2 and 3.
Advertisement

It is now more appreciated that there is great variability in the number of new cases that each infected person generates. This
can be described by the epidemics K number  the dispersion parameter  with a lower value of K signifying more
variability. You need to know both R and K for a good picture of how the virus is spreading through a community.
According to an analysis of how covid-19 had spread to other countries from China by the end of February, the K number was
0.1, an extremely low value. The researchers estimated that 80 per cent of cases were caused by about 10 per cent of infected
people. Those 10 per cent could trigger a cluster of infections, while most other people would pass on coronavirus to no one
else and a few would give it to just one other person.
In other words, superspreading is integral to the pandemic, says Quentin Leclerc at the London School of Hygiene and
Tropical Medicine.
Read more: Coronavirus: Second wave hits Asia as global cases continue to soar

In one well-studied example, at a choir practice with 61 attendees that took place one evening in March, in Skagit County,
Washington State, one person infected an estimated 52 others. Doctors followed up with the close contacts of every
secondary case, about three or four each, and could find only 10 further infections, says Lea Hamner, a public health official
in Skagit County. It is as if something qualitatively different were going on that night.
What might that be? Transmission clusters have been seen with other diseases, including HIV, TB and typhoid, with a famous
superspreader being a New York cook in the early 20th century who came to be known as Typhoid Mary. In these cases, it
seemed there was something biological that made the person more likely to pass on their germs, probably a heavy microbe
burden.
With coronavirus, virus burden may well play a role, but this hasnt been investigated and we have no easy way to start doing
so, says Benjamin Cowling at the University of Hong Kong in China. If we measure viral load in saliva, thats not the same as
how much virus theyre breathing out. You would have to do some kind of air sampling.
But as well as biology, the circumstances of the spreading event also seems to be important, and some common themes have
emerged. Cowlings group carried out contact tracing of the first 1037 coronavirus cases in Hong Kong. They found a
somewhat larger K value than the previous estimate, of 0.45, but that still means just 20 per cent of infected individuals
caused 80 per cent of locally acquired cases.
The team found that superspreading events tended to happen in indoor spaces, with people in close proximity. Social
occasions led to more clusters than exposure in the workplace or home  mass transmissions occurred at weddings, temples,
bars and karaoke parties, for instance. The risk seems to be higher if people are raising their voices in some way, such as
singing or shouting. Its the volume of air that comes out of your lungs, says Cowling.
Read more: Coronavirus vaccine hope rises after a flurry of positive results

Understanding superspreading is becoming even more important now that coronavirus cases are declining in many countries,
says Adam Kleczkowski at the University of Strathclyde in the UK. When case numbers are rising exponentially,
superspreading events are arguably less important, he says, as there are many clusters that spread and merge.

R.A. 109
https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 3 of 7
Case 1:20-cv-04834-KAM-RML Document 12-21 Filed 10/09/20 Page 3 of 7 PagelD #: 472
But avoiding these transmission clusters is key early in an epidemic before case numbers have risen sharply, or later on, when
cases are falling and a second wave must be avoided. When you have very few cases, its these [superspreading] events you
need to watch out for, says Leclerc.
How can we reduce the chances of further superspreading events? Our guiding principles right now are outdoors is safer
than inside, fewer people are safer than more people, says Hamner. She sees indoor bars as a particular risk. A drunk
person is well known for talking louder and louder the drunker they get.
These arent new ideas  but making people aware of how important superspreading is could reinforce the need to avoid or at
least mitigate these types of risky situations. It could also help inform how countries ease lockdown restrictions, says Leclerc,
whose team has created a database of superspreading events around the world. For instance, only eight of the 201 clusters
they identified took place within schools, which at the start of the pandemic were seen as a potential hotbed of infections.
Identifying clusters in real time is also key for contact-tracing work, says Leclerc. If you manage to detect [superspreading
events] and find the people infected, you can stop the spread before it goes on.
Reference: Research Square, DOI: 10.21203/rs.3.rs-29548/v1
Sign up to our free Health Check newsletter for a monthly round-up of all the health and fitness news you need to know
More on these topics:

coronavirus

covid-19

R.A. 110
https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 4 of 7
Case 1:20-cv-04834-KAM-RML Document 12-21 Filed 10/09/20 Page 4 of 7 PagelD #: 473
[l>X

TRENDING

LATEST

VIDEO

FREE

Coronavirus: US has no cohesive plan to tackle massive second wave

1

Covid-19 news: World faces catastrophe from school closures, says UN

2

Lyme disease vaccine found to be safe and effective in clinical trial

3

A radical new theory rewrites the story of how life on Earth began

4

Opening schools in UK without more testing risks covid-19 second wave

5

Magazine issue 3294 , published 5 August 2020

SUBSCRIBE
VIEW IN THE APP
BUY IN PRINT

Previous article

Next article

Coronavirus: US has no cohesive plan to tackle massive second
wave

How to hug people in a coronavirus-stricken world

R.A. 111
https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 5 of 7
Case 1:20-cv-04834-KAM-RML Document 12-21 Filed 10/09/20 Page 5 of 7 PagelD #: 474

[l>X

Murphy Bed Clearance Sale
Here are popular searches for
people shopping for murphy beds

MORE FROM NEW SCIENTIST
HEALTH

R.A. 112
https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 6 of 7
Case 1:20-cv-04834-KAM-RML Document 12-21 Filed 10/09/20 Page 6 of 7 PagelD #: 475
PROMOTED STORIES

20 Movies So Disturbing People
Walked Out Of The Theater
Post Fun

Scalp Psoriasis: Easier To Treat
[Photos] Have Any of These 41
Than Ever. Search for How To Treat Items? You Could Be Rich
Scalp Psoriasis
History Chronicle
Yahoo! Search

These 1918 Photos Could Have
Been Taken Today
CBS News

Recommended by

R.A. 113
https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 7 of 7
Case 1:20-cv-04834-KAM-RML Document 12-21 Filed 10/09/20 Page 7 of 7 PagelD #: 476

Sign up to our newsletters
Enter your email address to get started
Your email
SIGN UP
Contact us

Coronavirus: customer update
Advertise
Gift subscriptions

Help

I Write for us

About us
Events

Privacy & cookies

I Science jobs

Syndication

I Student subscriptions I Educational subscriptions
GET THE APP

tWtl

Cookie preferences

Terms & conditions

RSS feeds

Corporate subscriptions

FOLLOW US
G t it

© Copyright New Scientist Ltd.

Back to top

©

R.A. 114
https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ilfvefitile{ii ll.lilfQ!Mi.lQ)c~ age 1 of 8 PagelD # : 477

8/5/2020

r'~i~..,.,~
Centers for Disease
~/,v~,.A_control and Prevention
Coronavirus Disease 2019 (COVID-19)

Considerations for Events and Gatherings
Considerations for Events & Gatherings
Updated July 7, 2020

As some communities in the United States begin to plan and hold events and gatherings, the CDC offers the following
considerations for enhancing protection of individuals and communities and preventing spread of coronavirus disease 2019
(COVID-19). Event planners and officials can determine, in collaboration with state and local health officials, whether and how
to implement these considerations, making adjustments to meet the unique needs and circumstances of the local
community. Because COVID-19 virus circulation varies in communities, these considerations are meant to supplement-not
replace-any state, local, territorial, or tribal health and safety laws, rules, and regulations with which gatherings must
comply. Organizers should continue to assess, based on current conditions, whether to postpone, cancel, or significantly
reduce the number of attendees for gatherings.

After reviewing the considerations listed on this page, event planners and administrators can use CDC's Events and
Gatherings Readiness and Planning Tool
[9 pages] to protect staff, volunteers, and attendees.

•

Guiding Principles
• A gathering refers to a planned or spontaneous event, indoors or outdoors, with a small number of people participating
or a large number of people in attendance such as a community event or gathering, concert, festival, conference, parade,
wedding, or sporting event.
• The more people an individual interacts with at a gathering and the longer that interaction lasts, the higher the potential
risk of becoming infected with COVID-19 and COVID-19 spreading.
• The higher the level of community transmission in the area that the gathering is being held, the higher the risk of COVID19 spreading during a gathering.
• The size of an event or gathering should be determined based on state, local, territorial or tribal safety laws and
regulations.
The risk of COVID-19 spreading at events and gatherings increases as follows:

Lowest risk: Virtual-only activities, events, and gatherings.
More risk: Smaller outdoor and in-person gatherings in which individuals from different households remain spaced at
least 6 feet apart, wear cloth face coverings, do not share objects, and come from the same local area (e.g., community,
town, city, or county).
Higher risk: Medium-sized in-person gatherings that are adapted to allow individuals to remain spaced at least 6 feet
apart and with attendees coming from outside the localR.A.
area. 115
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

1/8

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ i l fvefitile{ii ll.lilfQ!Mi.lQ)c~ age 2 of 8 PagelD # : 478

8/5/2020

Highest risk: Large in-person gatherings where it is difficult for individuals to remain spaced at least 6 feet apart and
attendees travel from outside the local area.

Targeting COVID-19 1s spread
SARS-CoV-2, the virus that causes COVID-19, is thought to be mostly spread by respiratory droplets released when people
talk, cough, or sneeze. It is thought that the virus may also spread to hands from a contaminated surface and then to the
nose, mouth or eyes, causing infection. Therefore, personal prevention practices (such as handwashing, staying home when
sick, maintaining 6 feet of distance, and wearing a cloth face covering) and environmental prevention practices (such as
cleaning and disinfection) are important ways to prevent the virus's spread.
These prevention principles are covered in this document. They provide event planners and individuals with actions to help
lower the risk of COVID-19 exposure and spread during gatherings and events.

Promoting Healthy Behaviors that Reduce Spread
Event planners should consider implementing strategies to encourage behaviors that reduce the spread of COVID-19 among
staff and attendees.

• Staying Home when Appropriate
o Educate staff and attendees about when they should stay home.
• Advise employees and attendees to stay home if they have tested positive for COVID-19 or are showing COVID19 symptoms.
• Advise employees and attendees to stay home and monitor their health if they have had a close contact with a

person who has symptoms of COVID-19 within the past 14 days.
•

Develop policies that encourage sick employees to stay at home without fear of reprisal, and ensure
employees are aware of these policies.

•

CDC's criteria can help inform when employees should return to work:
• If they have been sick with COVID-19

•

•

If they tested positive for COVI D-19 but had no symptoms

•

If they have recently had a close contact with a person with COVID-19

Consider developing flexible refund policies for attendees for events that involve a participation fee.

• Hand Hygiene and Respiratory Etiquette
o Require frequent employee handwashing (e.g., before, during, and after taking tickets; after touching garbage) with
soap and water for at least 20 seconds and increase monitoring to ensure adherence.
o

If soap and water are not readily available, employees can use hand sanitizer that contains at least 60% alcohol and
rub their hands until dry.

o

Encourage staff to cover the mouth and nose with a tissue when coughing and sneezing. Used tissues should be
thrown in the trash and hands washed immediately with soap and water for at least 20 seconds.

o

Encourage attendees to wash hands often and cover coughs and sneezes.

o

Attendees often exchange handshakes, fist bumps, and high-fives at meetings and sporting events. Display signs
(physical and/or electronic) that discourage these actions during the event.

• Cloth Face Coverings
o Require the use of cloth face coverings among staff. Cloth face coverings are most essential in times when physical
distancing is difficult (e.g., when moving within a crowd or audience).
o

Provide all staff with information on proper use, removal, and washing of cloth face coverings.

o

Advise staff that cloth face coverings should not be placed on :
• Babies or children younger than 2 years old
• Anyone who has trouble breathing
• Anyone who is unconscious, incapacitated, or otherwise unable to remove the cloth face covering without

assistance

R.A. 116

https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

2/8

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ilfvefitile{ii ll.lilfQ!Mi.lQ)c~ age 3 of 8 PagelD # : 479

8/5/2020

o

Encourage attendees ahead of the event to bring and use cloth face coverings at the event.

o

Cloth face coverings are meant to protect other people in case the wearer is unknowingly infected but does not
have symptoms. Cloth face coverings are not surgical masks or respirators. They are not personal protective
equipment.

o

Cloth face coverings are strongly encouraged in settings where individuals might raise their voice (e.g., shouting,
chanting, singing).

• Adequate Supplies
o Ensure adequate supplies to support healthy hygiene
behaviors. Supplies include soap, water, hand sanitizer
containing at least 60 percent alcohol, paper towels, tissues, disinfectant wipes, cloth face coverings (as feasible),
and no-touch trash cans.

•

• Signs and Messages
o Post signs in highly visible locations (e.g., at entrances, in restrooms) that promote everyday protective measures
and describe how to stop the spread
of germs by properly washing handsand properly wearing a cloth face
covering I! .

•

o

Broadcast regular announcements on reducing the spread of COVID-19 on public address systems.

o Include messages (for example, videos) about behaviors that prevent spread of COVID-19 when communicating

with staff, vendors, and attendees (such as on the event website and through event social media accountst
o

Consider developing signs and messages in alternative formats (e.g., large print, braille, American Sign Language)
for people who have limited vision or are blind or people who are deaf or hard of hearing.

o

Find freely available CDC print and digital resources about COVID-19 on CDC's communications
resources main page.

Maintaining Healthy Environments
Event planners should consider implementing several strategies to maintain healthy environments.
• Cleaning and Disinfection
o Clean and disinfect frequently touched surfaces within the venue at least daily or between uses as much as possible
-for example, door handles, sink handles, drinking fountains, grab bars, hand railings, and cash registers.
o

Clean and disinfect shared objects between uses-for example, payment terminals, tables, countertops, bars, and
condiment holders.

o

Consider closing areas such as drinking fountains that cannot be adequately cleaned and disinfected during an
event.

o

Develop a schedule for increased, routine cleaning and disinfection.

o

Plan for and enact these cleaning routines when renting event space and ensure that other groups who may use
your facilities follow these routines.

o

If transport vehicles like buses are used by the event staff, drivers should practice all safety actions and protocols as
indicated for other staff-for example, washing hands often and wearing cloth face coverings and maintaining
social distance of bus riders. To clean and disinfect event buses, vans, or other vehicles see guidance for bus transit
operators and drivers for hire, and adapt as needed.

o

Ensure safe and correct use and storage of cleaners and disinfectants
to avoid harm to employees and other
individuals. Always read and follow label instructions for each product, and store products securely away from
children.

o

Use EPA-approved disinfectants against COVID-19

o

Cleaning products should not be used near children . Staff should ensure that there is adequate ventilation when
using these products to prevent attendees or themselves from inhaling toxic vapors.

o

Use disposable gloves when removing garbage bags or handling and disposing of trash .
• After using disposable gloves, throw them out in a lined trash can .
•

.

Do not disinfect or reuse the gloves.

• Wash hands after removing gloves.

• Restrooms

R.A. 117

https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

3/8

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ilfvefitile{ii ll.lilfQ!Mi.lQ)c~ age 4 of 8 PagelD # : 480

8/5/2020

o

Consider limiting the number of people who occupy the restroom at one time to allow for social distancing.

o

Do not allow lines or crowds to form near the restroom without maintaining a distance of at least 6 feet from other
people. It may be helpful to post signs or markers to help attendees maintain the appropriate social distance of at
least 6 feet.

o

Ensure that open restrooms are:
• Operational with functional toilets.
•

Cleaned and disinfected regularly, particularly high-touch surfaces such as faucets, toilets, stall doors,
doorknobs, countertops, diaper changing tables, and light switches.
• Clean and disinfect restrooms daily or more often, if possible, with EPA-approved disinfectants against
COVID-19.
•

•

Ensure safe and correct application of disinfectants and keep products away from children.

Adequately stocked with supplies for handwashing, including soap and water or hand sanitizer with at least
60% alcohol (for staff and older children who can safely use hand sanitizer), paper towels, tissues, and notouch trash cans.
• If you are providing portable toilets, also provide portable handwashing stations and ensure that they
remain stocked throughout the duration of the event. If possible, provide hand sanitizer stations that are
touch-free.

• Ventilation
o Ensure ventilation systems operate properly and increase circulation of outdoor air as much as possible, for
example, by opening windows and doors. Do not open windows and doors if doing so poses a safety or health risk
to staff or attendees (e.g., risk of falling or triggering asthma symptoms).
o

If portable ventilation equipment like fans are used, take steps to minimize air from them blowing from one person
directly at another person to reduce the potential spread of any airborne or aerosolized viruses.

• Water Systems
o

To minimize the risk of Legionnaires' disease and other diseases associated with water, take steps to ensure that all
water systems and features (e.g., sink faucets, drinking fountains, decorative fountains) are safe to use after a
prolonged facility shutdown. Drinking fountains should be cleaned and sanitized, but encourage staff
and attendees to bring their own water, as feasible, to minimize touching and use of water fountains.

• Modified Layouts
o Limit attendance or seating capacity to allow for social distancing, or host smaller events in larger rooms.
o

Use multiple entrances and exits and discourage crowded waiting areas.

o

Block off rows or sections of seating in order to space people at least 6 feet apart.

o

Eliminate lines or queues if possible or encourage people to stay at least 6 feet apart by providing signs or other
visual cues such as tape or chalk marks.

o

Prioritize outdoor activities where social distancing can be maintained as much as possible.

o

Offer online attendance options in addition to in-person attendance to help reduce the number of attendees.

• Physical Barriers and Guides
o Provide physical guides, such as tape on floors or sidewalks and signs on walls, to ensure that individuals remain at
least 6 feet apart in lines and at other times (e.g., guides for creating one-way routes).
o

Install physical barriers, such as sneeze guards and partitions, in areas where it is difficult for individuals to remain
at least 6 feet apart. Barriers can be useful at cash registers and other areas where maintaining physical distance of
6 feet is difficult.

o

Change seating layout or availability of seating so that people can remain least 6 feet apart.

• Communal Spaces
o Stagger use of shared indoor spaces such as dining halls, game rooms, and lounges as much as possible and clean
and disinfect them between uses.
o

Add physical barriers, such as plastic flexible screens, between bathroom sinks and beds, especially when they
cannot be at least 6 feet apart.

R.A. 118

https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

4/8

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ilfvefitile{ii ll.lilfQ!Mi.lQ)c~ age 5 of 8 PagelD # : 481

8/5/2020

o

Clean and disinfect bathrooms regularly (e.g., in the morning and evening or after times of heavy use) using EPAregistered disinfectants
.

o

For more information on communal spaces in event housing (e.g., laundry rooms, shared bathrooms, and
recreation areas) follow CDC's guidance for Shared or Congregate Housing.

• Food Service
o There is no evidence that COVID-19 is spread by food. However, people sharing utensils and congregating around
food service areas can pose a risk.
o

If the event includes food service, refer to CDC's COVID-19 considerations for restaurants and bars.

o

Use touchless payment options as much as possible, if available.

o

Ask customers and employees to exchange cash or card payments by placing them on a receipt tray or on the
counter rather than by hand to avoid direct hand-to-hand contact.

o

Clean and disinfect frequently touched surfaces such as pens, counters, or hard surfaces between use and
encourage patrons to use their own pens.

o

Provide physical guides, such as tape on floors or sidewalks and signs on walls, to ensure that individuals remain at
least 6 feet apart when waiting in line to order or pick up.

o

If a cafeteria or group dining room is used, serve individually plated meals or grab-and-go options, and hold
activities in separate areas.

o

Use disposable food service items including utensils and dishes. If disposable items are not feasible or desirable,
ensure that all non-disposable food service items are handled with gloves and washed with dish soap and hot water
or in a dishwasher.

o

Individuals should wash their hands after removing their gloves or after directly handling used food service items.

o

Avoid offering any self-serve food or drink options, such as buffets, salad bars, and drink stations. Consider having
pre-packaged boxes or bags for each attendee.

• Shared Objects
o Discourage people from sharing items that are difficult to clean, sanitize, or disinfect.
o

Limit any sharing of food, tools, equipment, or supplies by staff members.

o

Ensure adequate supplies to minimize sharing of high-touch materials to the extent possible; otherwise, limit use of
supplies and equipment to one group of staff members or attendees at a time, and clean and disinfect them
between use.

Maintaining Healthy Operations
Event organizers and staff may consider implementing several strategies to maintain healthy operations.

• Regulatory Awareness
o Be aware of local or state regulatory agency policies related to group gatherings to determine if events can be held.
• Protections for Staff and Attendees who are at Higher Risk of Severe Illness from COVID-19
o Offer options for staff at higher risk for severe illness (including older adults and people of any age with underlying
medical conditions) that limit their exposure risk. For example:
• Offer telework and modified job responsibilities for staff, such as setting up for the event rather than working
at the registration desk.
•

Replace in-person meetings with video- or tele-conference calls whenever possible.

o

As feasible, offer options for attendees at higher risk for severe illness that limit their exposure risk (e.g., virtual
attendance).

o

Consider limiting event attendance to staff and guests who live in the local area (e.g., community, city, town, or
county) to reduce risk of spreading the virus from areas with higher levels of COVID-19. If attendance is open to
staff and guests from other communities, cities, town or counties, provide information to attendees so they can
make an informed decision about participation.

o

Put policies in place to protect the privacy of people at higher risk for severe illness regarding their underlying
medical conditions.

R.A. 119

https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

5/8

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ i l fvefitile{ii ll.lilfQ!Mi.lQ)c~ age 6 of 8 PagelD # : 482

8/5/2020

• Limited, Staggered, or Rotated Shifts and Attendance Times
o

Consider ways to significantly reduce the number of attendees.

o

Use flexible worksites (e.g., telework) and flexible work hours (e.g., staggered shifts) to help establish policies and
practices for social distancing of 6 feet between employees, volunteers, and others.

o

Rotate or stagger shifts and arrival times to limit the number of employees in a venue at the same time.

o

Stagger and limit attendance times to minimize the number of guests at the venue.

• Travel & Transit
o Encourage employees to use transportation options that minimize close contact with others (e.g., walking or biking,
driving or riding by car - alone or with household members only). Consider offering the following support:
• Ask employees to follow the CDC guidance on how to Protect Yourself When Using Transportation, including
public transit.
• Allow employees to shift their hours so they can commute during less busy times.
• Ask employees to wash their hands as soon as possible after their trip.
o

Reconfigure parking lots to limit congregation points and ensure proper separation of employees (e.g., closing
every other parking space).

o

Encourage rideshare drivers to clean and disinfect frequently touched surfaces in the vehicle and avoid providing
pooled rides or picking up multiple passengers who would not otherwise be riding together on the same route.

• Designated COVID-19 Point of Contact
o Designate an administrator or office to be responsible for responding to COVID-19 concerns. All staff and attendees
should know who this person or office is and how to contact them.
• Communication Systems
o Put systems in place to:
• Encourage staff and attendees to self-report to event officials or a COVID-19 point of contact if they have
symptoms of COVID-19, a positive test for COVID-19, or were exposed to someone with COVID-19 within the
last 14 days, in accordance with health information sharing regulations for COVID-19 (e.g., see "Notify Health
Officials and Close Contacts" in the Preparing for When Someone Gets Sick section below), and other
applicable privacy and confidentiality laws and regulations.
• Advise attendees prior to the event or gathering that they should not attend if they have symptoms of, a

positive test for, or were recently exposed (within 14 days) to COVID-19.
•

Notify staff, attendees, and the public of cancellations and restrictions in place to limit people's exposure to
COVID-19 (e.g., limited hours of operation).

•

Identify and address potential language, cultural, and disability barriers associated with communicating
COVID-19 information to event staff and participants. Tailor information so that it is easily understood by
various audiences and is available in alternative formats and languages.

•

Learn more about reaching people of diverse languages and cultures by visiting: Know Your Audience. You
also can learn more about communicating to staff in a crisis at Crisis Communications Plan.

• Leave (Time Off) Policies
o Implement flexible sick leave policies and practices that are not punitive and enable employees to stay home when
they are sick, have been exposed, are caring for someone who is sick, or who must stay home with children if
schools or child care centers are closed .
o

Examine and revise policies for leave, telework, and employee compensation as needed.

o

Ensure that any relevant policies are communicated to staff.

• Back-Up Staffing Plan
o Monitor absenteeism of employees, cross-train staff, and create a roster of trained back-up staff.
o

Develop policies for return-to-work and event facilities after an employee has COVID-19. CDC's criteria to
discontinue home isolation and quarantine can inform these policies.

• Staff Training

R.A. 120

https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

6/8

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ilfvefitile{ii ll.lilfQ!Mi.lQ)c~ age 7 of 8 PagelD # : 483

8/5/2020

o

Train staff on all safety protocols. Consider using CDC's Interim Guidance for Businesses and Employers as a guide.

o

Conduct training virtually to ensure that social distancing is maintained during training.

o

If training needs to be done in person, maintain social distancing. Virtual training is clearly better for infection
control when feasible.

• Recognize Signs and Symptoms
o

If feasible, conduct daily health checks (e.g., temperature screening and/or symptom checking) of staff and
attendees safely and respectfully, and in accordance with any applicable privacy laws and regulations.

o

Event administrators may consider using examples of screening methods in CDC's General Business FAQs as a
guide.

• Sharing Facilities
o

Encourage any organizations that share or use the same venue to also follow these considerations and limit shared
use, if possible.

• Support Coping and Resilience
o

Promote employees' ability to eat healthy foods, exercise, get enough sleep, and find time to unwind.

o

Encourage employees to talk with people they trust about their concerns and how they are feeling.

o

Consider posting signs for the national distress hotline: 1-800-985-5990, or text TalkWithUsto 66746; The National
Domestic Violence Hotline: 1-800-799-7233 and TTY 1-800-787-3224; and The National Suicide Prevention Lifeline:
1-800-273-TALK (8255).

• Lessons Learned After the Event
o

Meet with the emergency operations coordinator or planning team for your venue to discuss and note lessons
learned.

o

Determine ways to improve planning and implementation processes if the event will happen again.

o

Update your plans regularly according to the state and local situation and orders.

Preparing for When Someone Gets Sick
Event planners should consider several strategies to implement when someone gets sick.

• Advise Sick Individuals of Home Isolation Criteria
o

Communicate to sick staff members that they should not return to work until they have met CDC's criteria to
discontinue home isolation.

• Isolate and Transport Those Who are Sick
o

Make sure that staff and attendees know that they should not come to the event and that they should notify event
planners (e.g., the designated COVID-19 point of contact) if they become sick with COVID-19 symptoms, test positive
for COVID-19, or have been exposed to someone with symptoms or a suspected or confirmed case.

o

Immediately separate staff and attendees with COVID-19 symptoms (e.g., fever, cough, shortness of breath) at the
event. Individuals who are sick should go home or to a healthcare facility, depending on how severe their
symptoms are, and follow CDC guidance for caring for themselves.

o

Individuals who have had close contact with a person who has symptoms should be separated, sent home, and
advised to follow CDC guidance for community-related exposure (see "Notify Health Officials and Close Contacts"
below). If symptoms develop, individuals should follow CDC guidance for caring for themselves.

o

Planners may follow CDC's Guidance for Shared or Congregate Housing for any staff who live in event housing.

o

Work with venue administrators, local officials, and healthcare providers to identify an isolation area to separate
anyone who has COVID-like symptoms or who has tested positive but does not have symptoms. Event healthcare
providers should use Standard and Transmission-Based Precautions when caring for sick people. See: What
Healthcare Personnel Should Know About Caring for Patients with Confirmed or Possible COVID-19 Infection.

o

Establish procedures for safely transporting anyone sick to their home or to a healthcare facility. If you are calling
an ambulance or bringing someone to the hospital, call first to alert them that the person may have COVID-19.

• Clean and Disinfect

R.A. 121

https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

7/8

Case 1:20-cv-04834-KAM-RML DOCll.lffllilffl~ilfvefitile{ii ll.lilfQ!Mi.lQ)c~ age 8 of 8 PagelD # : 484

8/5/2020

o

Close off areas used by a sick person and do not use these areas until after cleaning and disinfecting them (for
outdoor areas, this includes surfaces or shared objects in the area, if applicable).

o

Wait at least 24 hours before cleaning and disinfecting. If 24 hours is not feasible, wait as long as possible. Ensure
safe and correct use and storage of cleaning
and disinfection products, including storing them securely away
from children.

• Notify Health Officials and Close Contacts
o

In accordance with state and local laws and regulations, event planners should notify local health officials, staff, and
attendees of any case of COVID-19 while maintaining confidentiality in accordance with the Americans with
Disabilities Act (ADA)
and other applicable laws and regulations.

o

Advise those who have had close contact with a person diagnosed with COVID-19 to stay home, self-monitor for
symptoms, and follow CDC guidance if symptoms develop.

After reviewing the considerations listed on this page, event planners and administrators can use CDC's Events and
Gatherings Readiness and Planning Tool
[9 pages] to protect staff, volunteers, and attendees.

•

Other Resources
Latest COVID-19 Information

Persons at Higher Risk

Cleaning and Disinfection

Managing Stress and Coping

Guidance for Businesses and Employers

HIPAA and COVID-19

Guidance for Schools and Childcare Centers

CDC communication resources

Guidance for Park Administrators

Community Mitigation

Shared and Congregate Housing

Transportation

COVID-19 Prevention

Interim Guidance for Communities of Faith

Handwashing Information

Crisis Communications Plan.

Face Coverings

Restaurants and bars

Social Distancing

Americans with Disabilities Act (ADA) and other applicable
laws and regulations

COVID-19 Frequently Asked Questions:

Last Updated July 7, 2020

R.A. 122
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations.for-events.gatherings.html

8/8

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 1 of 8 PagelD #: 485

Asian Bioethics Review
https://doi.org/10.1007/541649 020 00118 2
PERSPECTIVE

COVID-19 Super-spreaders: Definitional

Quandaries and Implications

Check for
updates

Emma Cave 1
Received : 17 April 2020 / Revised: 4 M'i1( 2020 /Accepted: 5 May 2020

Published onl inc: 16
The Author(s) 2020

8)

2020

Abstract

Uncertainty around the role super-spreaders' play in the transmission and escalation of
infectious disea is compounded by its broad and vague definition. It is a term that bas
been much used in relation to COVID-19 particularly in social media. On its widest
definition, it refers to a propensity to infect a larger than averag number of people. Given
the biological, behavioural and environmen1al variables relevant to infectivity, this might be
pertinent to almost any infected individual who is not physically isolated from others. or
i the an confined to individuals with a propensity to spread infectious disease: it can
potentially be used to d cribe events, policies or settings. This article explores the use of
the tean and considers ci.n::umst.ances in which the wide definition can be problematic. One
problem is that it can lead to und rved apportionment of moral blame to alleged uperspreaders. Another is that it can detract from scientific investigation of the heterogeneity of
COVID-19 transmission. Th author calls for a clearer epidemiological definition.
Keywords

preading

onfidentiality • Corona virus • OV ID-19 • Privacy • Super-spreader• Super-

Introduction: COVID-19 Super-spreaders

At the time of writing, exit trategi from COVID-19 lockdown are unclear but deescalation of physical distancing measures i likely to be gradual. One aspect of
hielding the vulnerable i to identify tho eat risk of developing serious and potentially
life-threatening symptoms and distance them from our-ces of infection. More work is
needed to identify ucb groups, which include people over the agi of65 and those with
underlying health conditions. Another is to identify and isolate the infected. This is
complicated by uncertainty a to whether efforts to produce a vaccine will ucceed and
181 Emma Cave
Emmacave durhnm.ac.uk
1

Durham Law

School Durham University, Durham, UK
Springer

R.A. 123

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 2 of 8 PagelD #: 486

Asian Bioethics Review

how long it will take. It is possible that post-infection immunity may be short-lived
(European Centre for Disease Prevention and Control (ECDC) 2020, 9), and even if
infection confers immunity, the ECDC estimates that 67% of the population would
need to have had the virus in order to prevent ongoing transmission and that 'Some
form of physical distancing interventions will therefore need to be in place for at least
several months from now' (2020, 18). A second wave (and potentially further waves)
of COVID-19 is possible (Xu and Li 2020).
The ECDC (2020, 7) estimates that the reproductive number (RO) of COVID-19 in
EU/EEA countries is 3 28. That is, a person contracting the novel virus will pass it on to
an average of around 3 people. The RO is a measure of potential transmissibility that is
difficult to establish, particularly if the accuracy of the data is questionable as where, for
example, there is under- or mis-reporting. Underlying the RO is a considerable variation
which, early in the outbreak, Mackenzie (2020) postulated may be down to the role of
super-spreaders: around 10% of cases could be responsible for up to 80% of transmission. If so, she argued, control of super-spreading would be essential in tackling the
outbreak.
The situation is complicated by the fact that so-called super-spreaders ofCOVID-19
cannot always self-identify and take steps to mitigate the risk to others. The virus has
been detected 1- 3 days before onset of symptoms, and the ECDC sees this as a
potential major source of transmission. Some individuals are asymptomatic throughout,
though the risk of transmission is probably somewhat lower in such cases. There have
also been reports of COVID-19 positive tests during convalescence, following a
negative test (Chen et al. 2020). COVID-19 may itselfhave super-spreading tendencies
flowing from the occurrence of atypical symptoms (Wang et al. 2020), which may have
led to a failure to identify many mild case a phenomenon that has been exacerbated
by limited and variable availability of testing, tracing and screening.
In light of the importance of identifying and controlling infection, this article begins
by considering the definition of 'super-spreader' and argues that the term is vague and
unhelpful. It goes on to demonstrate ways in which it has been applied to impute moral
condemnation on individuals accused of spreading COVID-19 and calls for the
development of a clearer and widely held scientific definition of super-spread that
accommodates the relevance of individual factors in disease transmission without
attributing moral blame.
A Term of Art
The term 'super-spreader' has recently entered our consciousness, alongside words such as

'comorbidity', 'furlough' and 'lockdown'. A super-spreader, usually identified in retrospect,
has a greater than average propensity to infe.ct a larger number of people. Super-spreading is
not a new phenomenon: symptomless 'Typhoid Mary' was exiled for 26 years for apparently infecting many others in the 1800s (Marineli et al. 2013), and super-spreading was
thought to be a driver ofMERS, SARS (2002- 2003) and, to a lesser extent, Ebola (Wong
et al. 2015). Stein (2011 ) observes that observational and modelling studies support a 2Q/80
rule whereby 20% of individuals are likely to contribute around 80% of the transmission
potential in a given infe.ctious disease. Many variables make up this tendency, and this has
potential to limit the meaningfulness of the teim.
Springer

R.A. 124

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 3 of 8 PagelD #: 487

Asian Bioethics Review

The label 'super-spreader' is a term of art that has been utilised to describe settings,
events and individuals. Super-spreading settings include cruise ships and aeroplanes as
well as hospitals, care homes and potentially schools, particularly where they utilise
ventilation systems. As for events, any large gathering or movement of groups or
individuals can constitute super-spreading. So too can policy decisions or indeed any
occurrence which in hindsight exacerbated infection rates, such as the lack of control
measures when SARS first emerged and single cases were treated as atypical pneumonia and transmitted to others (WHO 2003 ). As highlighted above, COVID-19 itself has
super-spreading tendencies given its potential for atypical symptoms and presymptomatic and asymptomatic transmission.
The term is particularly problematic when applied to individual 'super-spreaders', as
it can mean different things to different groups. Media interest in super-spreaders
focuses on the early stages of the epidemic when efforts are being made to contain,
trace and delay. Used in this way, a 'super-spreader' will generally have interacted with
a larger than average number of people, making tracing difficult or impossible. At the
other end of the spectrum, scientific interest can focus on the heterogeneity of populations in the transmission of infectious disease. Used in this sense, 'super-spreading' is
connected to the scientific nature of the vims and the way it manifests in some humans.
There is speculation that some people with COVID-19 are especially infectious
(Boseley and Belam 2020).
Super-spreading is therefore a product of biological, behavioural and environmental
factors. It can be used to describe decisions, policies, events, settings and individualsin fact, anything that contributes to increased rates of infection can be seen (by some
groups) as super-spreading. The wide and varied use of the term 'super-spreader' is
problematic for two reasons considered in subsequent sections: it can lead to apportionment of moral blame to alleged super-spreaders and it could detract from scientific
investigation into heterogeneity ofCOVID-19 if misunderstanding leads to diminished
public support and trust.

Blaming Super-spreaders
Alleged super-spreaders of COVID-19 have attracted considerable media interest.
Patient 31, a member of the Shincheonji church, was thought to have turned the tide
in South Korea (Kasulis 2020). As the number of deaths increased, anger was directed
at the church, and the founder's apology was broadcast around the world. In India, the
state of Punjab quarantined 40,000 people following around 30 deaths linked to a 70year-old preacher who died of the disease (BBC News 2020). In the UK, a Brighton
businessperson was labelled a 'culprit' early in the course of COVID-19 (see Ball 2020
for criticism). Each was labelled by parts of the media a 'super-spreader' whether or not
the host was aware of the risks they posed to others or the repercussions their infection
could have. These factors were not always reflected in media reports.
There is a public interest in the location and number of cases, and in the early days of
the crisis, when cases were few, this may have enabled some to piece together the
identity of infected individuals. The Brighton case in England resulted in 'superspreader' headline claims from newspapers including the Daily Mail, Guardian, Sun
and Telegraph. The individual came forward to reveal the steps he had taken on
Springer

R.A. 125

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 4 of 8 PagelD #: 488

Asian Bioethics Rev iew

learning that he had come into contact with a COVID-19-positive person, allegedly due
to fears of scapegoating (Duggan et al. 2020). Tum to Twitter and #superspreaders has
been employed as a teIIll to signal moral blame, aimed at individuals and groups
including political leaders, nmners, cyclists and the police.
Opprobrium may rightly follow if a symptomatic individual knowingly puts others
at risk in avoidable circumstances, such as the reported cases of people deliberately
coughing in the faces of others. However, to attach moral blame to those labelled after
the event as super-spreaders is highly problematic, most obviously because carriers of
COVID-19 can be asymptomatic, but also because the label can be stigmatising and
potentially deter the symptomatic from coming forward if they have recently been in
contact with large or vulnerable numbers. Spreading can be exaceibated by poor
hygiene or certain social practices such as hand shaking, but infection of others is not
evidence alone that guidelines on behaviour have been ignored. Sadly, as the pandemic
and resulting fear have escalated, so have examples of the public viewing anyone
'other' as a potential super-spreader (Coates 2020).
Delivering Ethical Research on Heterogeneity of COVID-19
Transmission

Another problem with the teIIll 'super-spreader' is that its wide use has potential to
detract from its importance in research on heterogeneity of transmission ofCOVID-19.
If 'super-spreader' is understood in lay terms to attract vruying degrees of moral blame,
then epidemiological investigation of its incidence may be less likely to gain public
support and understanding.
There is a paucity of scientific evidence of the role or even the existence of especially
infectious people with COVID-19. On a narrow scientific definition, a super-spreader would
have particular biological characteristics that would increase the tendency to infect others.
For example, a mouse model study by Gopinath et al. (2014) demonstrated the superspreading tendencies of a minority of mice infected with Salmonella. If any potential
biological super-spreading tendencies of COVID-19 were better understood, then it could
aid management and control through, for example, isolation or targeted vaccination if and
when it becomes available. Research might usefully focus on the tendency of some
individuals to shed high levels of the pathogen, including investigation of co-moibidity,
genetics, viral load and infectivity at different stages of presentation. ln COVID-19, the
relationship between viral load, severity and infectivity is complex and poorly understood.
Increased viral load does not necessarily result in more severe symptoms (Geddes 2020),
and infection dose is currently uncertain Clearly, the propensity for biological factors to lead
to infection of others is highly dependent on behavioural and environmental factors.
Thus, a broader definition of s1q,er-spreading might encompass research on biological
and external fuctors, combining focus on the virus, the host and the environment PreCOVID-19, Lloyd-Smith et al. (2005) argued that control measures for infectious disease
that focus on individual-specific measures can outpetform population-based measures. They
proposed a rigorous protocol for defining super-spreading events that would supplement the
RO with information about factors such as distribution and range. Research bringing greater
clarity as to the factors that drive variations in infectivity would contribute to targeted control
policies that could reduce reliance on widespread lockdown.
Springer

R.A. 126

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 5 of 8 PagelD #: 489

Asian Bioethics Review

However, such research is likely to be reliant upon the public giving up their
confidential data or at least cooperating if such data are mandated. Technology
offers a potential to track, predict, trace contacts and respond in a more precise
manner. There are, for example, several apps in development/use. Some allow
users to report symptoms so that more can be learned about how the virus
behaves, some give people advice on the basis of reported symptoms and some
operate in conjunction with testing to alert individuals with whom an infected
person has come into contact, to isolate. These apps offer potential to learn
more about heterogeneity and also ,to implement more targeted control measures
in response. In many countries, efficacy will be reliant on the willingness of
individuals to sign up to the apps. Those individuals will need assurance that
their privacy will be respected and that negative implications will not flow from
their identification as a perceived 'super-spreader'.
Some governments are making more extensive use of confidential information that does not rely on patient consent. In the UK, National Health Service
(NHS) England and Improvement and NHSX (the unit driving digital transformation of care) have announced the development of a digital platform that will
bring together health data , Al and cloud computing (Gould et al. 2020). They
are investing in the help of private companies such as Microsoft, Google and
Amazon Web services to bring this about. They have provided assurances that
the data 'will remain under NHS England and NHS Improvement's control' and
that the data will be destroyed or returned when the emergency is over (Gould
et al. 2020). The dashboard will give metrics about occupancy levels in
hospitals and capacity and will enable decision-makers to 'Understand how
the virus is spreading at a local level and identify risks to particularly vulnerable populations'.
On 20 March 2020, the Department of Health and Social Care (DHSC), on behalf
of the Secretary of State for Health and Social Care, issued a notice under Regulation 3(4) of the Health Service (Control of Patient Information) Regulations 2002
(COPI). Regulation 3(4) allows the Secretary of State, having had independent
advice from the Confidentiality Advisory Group, to give notice to health organisations, general practices and local authorities that confidential information will be
required (DHSC 2020) for a certain purpose. The purpose in this case is COVID-19
and includes understanding risks and trends including (amongst other things):
locating, contacting, screening, flagging and monitoring such patients and
collecting information about and providing services in relation to testing, diagnosis, self-isolation, fitness to work, treatment, medical and social interventions
and recovery from Covid-19. (DHSC 2020, 2)
This widely framed notice mandates the processing and sharing of confidential
information, in circumstances where patients have not given informed consent
Together with the proposals to share information with private companies for the
production of the Dashboard, it is a high-risk strategy that will have profound
implications if public trust is undermined. Whilst efforts will be made to
protect the identity of the patients, anonymity is not a binary concept and, as
argued above in relation to the Brighton case, media interest in 'superSpringer

R.A. 127

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 6 of 8 PagelD #: 490

Asian Bioethics Rev iew

spreaders' could lead to 'jigsaw identifiability' and to moral blame, which in
turn could impact on trust.
A Change in Termin ology?

The term 'super-spreader' makes an exciting headline, but its employment in
social media sometimes lacks a scientific basis. Rather it often points to
unintended action or is suggestive of negligent actions of an individual and
apportions moral blame. And yet, it is essential that we promote a culture of
ethical research on the biological, behavioural and environmental influences on
transmission.
The argument set out in this article is that the definition is too broad to be
helpful and that its (mis)use in some social media has resulted in negative
connotations. Consideration of the tendencies of individuals to exacerbate
infection rates is a worthy focus of research. As more targeted public health
responses are developed to replace widespread physical distancing policies, it is
increasingly important that heterogeneity of COVID-19 transmission is explored
and factored into responses. To the extent that super-spreading is an aspect of
research on heterogeneity, there is a risk that the negative connotations the term
has attracted will result in public reticence to give up the private information
upon which that research might depend. Greater accuracy of definition would
help ensure that debate around the term is not at cross-purposes, help reduce or
prevent moral blame of those who unwittingly infect others and could enhance
public trust around the use of confidential data.
The aim of this article has been to draw attention to problems in the use of
the term 'super-spreader'. Turning briefly to potential solutions, one option
would be to avoid use of the term altogether, but it is well accepted in the
scientific literature (see for example Lloyd-Smith 2005 , Stein 2011 , Gopinath
2014), and its abandonment could dismpt important linkage between current
and previous research. Another option would be to encourage the use of the
terms 'super-spreading' and 'super-spreading events' in epidemiology, in place
of 'super-spreader'. This might reduce stigma, but it is unlikely to limit more
general (mis)application of the term. Another option would be to encourage the
development of a clearer taxonomy of super-spreading so as to take scientific
ownership of the term and discourage inappropriate lay adoption, potentially
through a classification of behavioural, environmental and biological superspreading.
Acknowledgemeuts

Thanks to the anonymous reviewer for very helpful comments.

Compliance with Ethica l Standards
ConJlict of Interest

The author declares that she has no conflict of interest

Open Access This article is licensed under a Creative Commons Attnbutioo 4.0 International License, which
permits use, sharing, adapllltion, distnbution and reproduction in any medium or format, as long as you give
Springer

R.A. 128

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 7 of 8 PagelD #: 491

Asian Bioethics Review

appropriate credit to the original author(s) and the source, provide a link to the Creative Ccmmons licenre, and
indicate if changes were made. The images or other third party materia l in this article are included in the
article's Creative Commons licenre, unless indicated otherwise in a credit line to the material. If materia l is not
included in the article's Creative Commons licence and your intended use is not pennitted by statutory
regulation or exceeds the permitted use, you will need to obtain permission directly from the copyright holder.
To view a copy of this licence, visit http:/!creativecommons.orgllicenseslby/4.0/.

References
Ball, Philip. 2020. Stigmatising 'super spreaders' won't help the fight a!?Pmst coronavirus. The G11ardian, 12
February 2020. httpsJ /www.theguardian.com/commentisfree/2020/feb/12/super spreaders coronavirus.
Accessed 16 April 2020.
BBC News. 2020. Coronavirus: India 'super spreader' quarantines 40,000 people. BBC News, 27 March 2020.
httpsJ/www.bbc.co.uk/news/world asia india 52061915. Accessed 16 April 2020
Boseley, SU'lan and Martin Belam. 2020. Super spreaders: what are they and how are trey transmitting
coronavirus? The Guardian, 3 March 2020. httpsJ/www.theguardian.com/world/2020/feb/27/what are
super spreaders and how are they lraosmitting coconavirus. Accessed 16 April 2020.
Chen, Dabiao, Wenxiong Xu, Ziying Lei, Zhanlian Huang, Jing Liu, Zhiliang Gao, and Liang Peng. 2020.
Recurrence of positive SARS CoV 2 RNA in COVID 19: a case report. fnterna1ional Journal of
Infectio1Lf Diseaies 93: 297 299. https:/!doi.org/10.10 16/j.ijid.2020.03.003.
Coates, Melanie. 2020. Covid 19 and the rise of racism. BMJ369: m 1384. https:/!doi.org/10.113 61bmj.ml384.
Department ofHealth and Social Care. 2020. Covid-19 Notice under Regulation 3(4) of the Heahh Service
Control of Patient Information Regi,lations 2002. 20 March 2020. https: //assets.publishiog.service.gov.
uk/government/uploads/system/uploads/attachment_data/file/8 74509/Coronavirus_ COVID l 9__
notice_under_regu lation_3 _ 4_of_ the_Health_ Service_ Control_ of_Pat ient_ In formation_
Regulations_2002.pdf. Accessed 16 April 2020.
Duggan, Joe, Chris Pollard, Patrick Gysin, and Stephen Moyes. 2020. British coronavirus 'super spreader' is
'terrified of being made national scapegoat' amid fears he's infected dozen s. The S!ln, 12 February 2020.
https://www.thesun.eo.uk/news/10937268/coronavirus uk brit superspreader/. Accessed 16 April 2020.
European Centre for Disease Prevention and Control 2020. Coronavirns disease 2019 (COVID-19) in the EU/
EFA and the UK eighth r,pdate. Rapid Risk Assessment 8 April 2020. https://www.ecdc.europa.
eu/sites/default/files/documents/covid 19 rapid risk assessment corona virus disease 2019 eighth update
8 apri l 2020.pdf Accessed 16 April 2020.
Geddes, Linda. 2020. Does a high viral load or infectious dose make covid 19 worse? New Scientist, 27
March 2020. https J/www.newscientistcom/article/22388l9 does a high viral load or infectious dose
make covid 19 worse/. Accessed 16 April 2020.
Gopinath, Smita, Joshua S. Lichbnan, Denna M Bouley, Joshua E. Elias, and Denise M Monack. 2014. Role of
disease associated tolerance in infuctious superspreaders. Proceedings ofthe National Academy ofSciences of
the United SraJes ofAmerica ll 1(44): 15780 I 5785. https://doi.org/10.1073/pnas.1409968111.
Gould, Matthew, Indra Joshi and Ming Tag. 2020. The power of data in a pandemic. Technology in the NHS
Blog, 28 March 2020. UK Department of Health and Social Care. https J/healthtech.blog.gov.uk/2020/03
/28/the power of data in a pandemic/. Accessed 16 April 2020.
Kasulis, Kelly. 2020. 'Patient 31' and South Korea 's sudden spike in coronavirus cases. A{jazeera , 3
March 2020. httpsJ /www.aljazeera.com/news/2020/03/3 I south korea sudden spike coronavirus cases
200303065953841.hlml. Accessed 16 April 2020.
Lloyd Smith, J.O .. SJ. Schreiber, P.E. Kopp, and WM. GelZ. 2005. Superspreading atxl the effect of
individual variation on disease emergence. Nature 438: 3 55 359. https J/doi.org/10. I038/nature04153.
Mackenzie, Debora. 2020. Why coronavirus superspreaders may mean we avoid a deadly pandemic. New
Scientist, 18 February 2020. https://www.newscientist.com/artic le/2234388 why coronav irus
superspreaders may mean we avoid a deadly pandemic/. Accessed 16 April 2020.
Marineli, Filio, Gregory Tsoucalas, Mariana Karamanou, and George Androutsos. 2013. Mary Mallon (1869
1938) and the history of typhoid fever. Annals of Gastroenterology, 26 (2): 132 134.
Stein, Richard A. 2011. Super spreaders in infectious diseases. International JorLmal ofInfectious Diseases IS
(8): e.5 IO es 13. https://doi.org/10. I Ol 6/j.ijid201 0.06.020
Springer

R.A. 129

Case 1:20-cv-04834-KAM-RML Document 12-23 Filed 10/09/20 Page 8 of 8 PagelD #: 492

Asian Bioethics Rev iew
Wang, Dawai, Bo Hu, Chang Hu, Fangfang Zhu, Xing L iu, Jing Zhang, Binbin Wang, Hui Xiang,
Zhenshun Cheng, Yong Xiong, Yan Zhao, Yirong Li, Xinghuan Wang, and Zhiyong Peng. 2020.
Clinical characteristics of L38 hospitalized patients with 2019 novel coronavirus infected pneumonia in
Wuhan, China.JAMA 323(11): 1061 1069. https:l/doi.org/lO.IOOl/jama2020. 1585.
WHO. 2003. Emergencies preparedness, response. Update 30 - status ofdiagnostic test, significance of "s,,per
spreaders ", siti,aticm in China. 15 April 2003. ht1ps ://www.who.int/csr/sars/ardlive/2003_04_ 15/en/
Wong , Gary, Wenjun Liu, Ymxia Liu, Bcping Zhou, Yuhai Bi, and George F. Gao. 20 1. 5. MERS, SARS, and
Ebola: the role of super spreaders in infectious disease. Cell Host & Microbe 18(4): 398 40 I. https:/ldoi.
orgil 0.10 16/j.chom.2015.09.01 3.
Xu, Shunqing, and Yuanyuan Li. 2020. Comment beware of the second wave of COYID 19. Lanc.!l, 8 April
2020. https://doi.orgl I 0. LO L6/SO L40 6736(20)30845 X

Publisher's Note Springer Nature remains neutral with regard to jurisdictional claims in published maps and

institutional affiliations.

Springer

R.A. 130

Case 1:20-cv-04834-KAM-RML Document 12-24 Filed 10/09/20 Page 1 of 2 PagelD #: 493

No. 202.6

EXECUT IVE ORDER
Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREAS , on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York;
WHEREAS , both travel-related cases and community contact transmission of COVID-19 have
been documented in New York State and are expected to be continue;
WHEREAS , in order to facilitate the most timely and effective response to the COVID 19 emergency
disaster, it is critical for New York State to be able to act quickly to gather, coordinate, and deploy goods,
services, professionals, and volunteers of all kinds; and
NOW, THEREFO RE, I, Andrew M. Cuomo, Governor of the State of New York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or modify
any statute, local law, ordinance, order, rule, or regulation, or parts thereof, of any agency during a State
disaster emergency, if compliance with such statute, local law, ordinance, order, rule, or regulation would
prevent, hinder, or delay action necessary to cope with the disaster emergency or if necessary to assist or
aid
in coping with such disaster, I hereby temporarily suspend or modify, for the period from the date of
this
Executive Order through April 17, 2020 the following:

•

Section three of the Public Officer's Law shall not apply to an individual who is deemed necessary
to hire or to engage in a volunteer capacity to provide for an effective and efficient emergency
response, for the duration of such emergency;

•

Subparagraph (i) of subdivision 1 of section 73 of the Public Officers Law Sei::tipn shall not apply to
any person who is hired, retained, appointed, or who volunteers in any way to assist New York
State in its response to the declared emergency;

•

Subparagraph 5 of section 73 of the Public Officers Law Section shall not apply to a state officer or
employee, or a volunteer who is facilitating contributions or donations to assist New York State in
its response to the declared emergency;

•

Subparagraph 8 of section 73 of the Public Officers Law Section 73(8) and section 74 of the Public
Officer's Law shall not apply to volunteers or contractors who assist New York State in its
response, provided that any recusals shall be adhered to if determined necessary by the appointing
entity;

•

Legislative Law Section 1-M is suspended to the extent that any agency may receive a donation in
kind or otherwise, in any amount from any source, provided such donation is made to the State and
is administered by a state agency in furtherance of the response effort;

•

State Finance Law Section 11, to the extent necessary to facilitate an efficient and effective New
York State emergency disaster response, shall not apply to any state agency efforts to further the
response to the declared emergency;

./

R.A. 131

Case 1:20-cv-04834-KAM-RML Document 12-24 Filed 10/09/20 Page 2 of 2 PagelD #: 494

NOW, THEREFORE, by virtue of the authority vested in me by Section 29-a of Article 2-B of the
Executive Law to issue any directive during a disaster emergency necessary to cope with the disaster, I
hereby issue the following directives for the period from the date of Executive Order through April 17,
2020:
•

Effective on March 20 at 8 p.m.: All businesses and not-for-profit entities in the state shall
utilize, to the maximum extent possible, any telecommuting or work from home procedures that
they can safely utilize. Each employer shall reduce the in-person workforce at any work
locations by 50% no later than March 20 at 8 p.m. Any essential business or entity providing
essential services or functions shall not be subject to the in-person restrictions. This includes
essential health care operations including research and laboratory services; essential
infrastructure including utilities, telecommunication, airports and transportation infrastructure;
essential manufacturing , including food processing and pharmaceuticals; essential retail
including grocery stores and pharmacies; essential services including trash collection, mail, and
shipping services; news media; banks and related financial institutions; providers of basic
necessities to economically disadvantaged populations; construction; vendors of essential
services necessary to maintain the safety, sanitation and essential operations ofresidences or
other essential businesses; vendors that provide essential services or products, including
logistics and technology support, child care and services needed to ensure the continuing
operation of government agencies and provide for the health, safety and welfare of the public;

•

Any other business may be deemed essential after requesting an opinion from the Empire State
Development Corporation, which shall review and grant such request, should it determine that it
is in the best interest of the state to have the workforce continue at full capacity in order to
properly respond to this disaster. No later than 5 p.m. on March 19, 2020, Empire State
Development Corporation shall issue guidance as to which businesses are determined to be
essential.
G I V E N under my hand and the Privy Seal of the
State in the City of Albany this
eighteenth day of March in the year
two thousand twenty.

BY THE GOVERNOR

/vv,·

Secretary to the Governor

R.A. 132

Case 1:20-cv-04834-KAM-RML DoclfflMillllmiliah,0/i- cclniletlitil0.00/tRO:;o!i'age 1 of 4 PagelD # : 495

10/9/2020

r'~i~..,.,~
Centers for Disease
~/,v~,.A_control and Prevention

Coronavirus Disease 2019 (COVID-19)
Considerations for Communities of Faith
Considerations for Communities of Faith

' """

Updated May 23, 2020

CDC offers the following general considerations to help communities of faith discern how best to practice their beliefs while
keeping their staff and congregations safe. Millions of Americans embrace worship as an essential part of life. For many faith
traditions, gathering together for worship is at the heart of what it means to be a community of faith . But as Americans are
now aware, gatherings present a risk for increasing spread of COVID-19 during this Public Health Emergency. CDC offers
these suggestions for faith communities to consider and accept, reject, or modify, consistent with their own faith traditions, in
the course of preparing to reconvene for in-person gatherings while still working to prevent the spread of COVID-19.
This guidance is not intended to infringe on rights protected by the First Amendment to the U.S. Constitution or any other
federal law, including the Religious Freedom Restoration Act of 1993 (RFRA). The federal government may not prescribe
standards for interactions of faith communities in houses of worship, and in accordance with the First Amendment, no faith
community should be asked to adopt any mitigation strategies that are more stringent than the mitigation strategies asked of
similarly situated entities or activities.
In addition, we note that while many types of gatherings are important for civic and economic well-being, religious worship
has particularly profound significance to communities and individuals, including as a right protected by the First Amendment.
State and local authorities are reminded to take this vital right into account when establishing their own re-opening plans.

Scaling Up Operations
• Establish and maintain communication with local and State authorities to determine current mitigation levels in your
community.
• Provide protections for staff and congregants at higher risk for severe illness from COVID-19. Offer options for staff at
higher risk for severe illness (including older adults and people of all ages with certain underlying medical conditions)
that limit their exposure risk. Offer options for congregants at higher risk of severe illness that limit their exposure risk
(e.g., remote participation in services).
• Consistent with applicable federal and State laws and regulations, put in place policies that protect the privacy and
confidentiality of people at higher risk for severe illness regarding underlying medical conditions.
• Encourage any organizations that share or use the facilities to also follow these considerations as applicable.
• If your community provides social services in the facility as part of its mission, consult CDC's information for schools and
businesses and workplaces, as relevant, for helpful information.

Safety Actions
Promote healthy hygiene practices
• Encourage staff and congregants to maintain good hand hygiene, washing hands with soap and water for at least 20
seconds.
• Have adequate supplies to support healthy hygiene behaviors, including soap, hand sanitizer with at least 60 percent
alcohol (for those who can safely use hand sanitizer), tissues, and no-touch trash cans.

R.A. 133
https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

1/4

Case 1:20-cv-04834-KAM-RML DoclfflMillllmiliah,0/i- cclniletlitil0.00/tRO:;o!i'age 2 of 4 PagelD # : 496

10/9/2020

• Encourage staff and congregants to cover coughs and sneezes with a tissue or use the inside of their elbow. Used tissues
should be thrown in the trash and hands washed .
• Whenever soap and water are not readily available, hand sanitizer with at least 60% alcohol can be used.

•

• Consider posting signs on how to stop the spread
of COVID-19 and how to promote everyday protective measures
such as washing hands, covering coughs and sneezes, and properly wearing a mask l!!l .

•,

Masks
• Encourage use of masks among staff and congregants. Masks are most essential when social distancing is difficult. Note:
Masks should not be placed on children younger than 2 years old, anyone who has trouble breathing or is unconscious,
and anyone who is incapacitated or otherwise unable to remove the mask without assistance. Masks are meant to
protect other people in case the wearer is unknowingly infected but does not have symptoms.

Intensify cleaning, disinfection, and ventilation
• Clean and disinfect frequently touched surfaces at least daily and shared objects in between uses.
• Develop a schedule of increased, routine cleaning and disinfection.
• Avoid use of items that are not easily cleaned, sanitized, or disinfected.
• Ensure safe and correct application of disinfectants and keep them away from children .
• Cleaning products should not be used near children, and staff should ensure that there is adequate ventilation when
using these products to prevent children or themselves from inhaling toxic fumes.
• Ensure that ventilation systems operate properly and increase circulation of outdoor air as much as possible by opening
windows and doors, using fans, etc. Do not open windows and doors if they pose a safety risk to children using the
facility.
• If your faith community offers multiple services, consider scheduling services far enough apart to allow time for cleaning
and disinfecting high-touch surfaces between services. Take steps to ensure that all water systems and features (for
example, drinking fountains, decorative fountains) are safe to use after a prolonged facility shutdown to minimize the
risk of Legionnaires' disease and other diseases associated with water.

Promote social distancing
• Take steps to limit the size of gatherings in accordance with the guidance and directives of state and local authorities and
subject to the protections of the First Amendment and any other applicable federal law.
• Promote social distancing at services and other gatherings, ensuring that clergy, staff, choir, volunteers and attendees at
the services follow social distancing, as circumstances and faith traditions allow, to lessen their risk.
• Consider holding services and gatherings in a large, well-ventilated area or outdoors, as circumstances and faith
traditions allow.
• Consider appropriate mitigation measures, including taking steps to limit the size of gatherings maintaining social
distancing, at other gatherings such as funerals, weddings, religious education classes, youth events, support groups and
any other programming, where consistent with the faith tradition .
• Provide physical guides, such as tape on floors or walkways and signs on walls, to ensure that staff and children remain
at least 6 feet apart in lines and at other times (e.g. guides for creating "one-way routes" in hallways).

Take steps to minimize community sharing of worship materials and
other items
• Consistent with the community's faith tradition, consider temporarily limiting the sharing of frequently touched objects,
such as worship aids, prayer rugs, prayer books, hymnals, religious texts and other bulletins, books, or other items
passed or shared among congregants, and encouraging congregants to bring their own such items, if possible, or
photocopying or projecting prayers, songs, and texts using electronic means.
• Modify the methods used to receive financial contributions. Consider a stationary collection box, the main, or electronic
methods of collection regular financial contributions instead of shared collection trays or baskets.
• Consider whether physical contact (e.g., shaking hands, hugging, or kissing) can be limited among members of the faith
rnmm1mitv.
https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

R.A. 134

2/4

Case 1:20-cv-04834-KAM-RML DoclfflMillllmiliah,0/i- cclniletlitil0.00/tRO:;o!i'age 3 of 4 PagelD # : 497

10/9/2020
_..,,, ,. ,, _ , .. ..J.

• If food is offered at any event, consider pre-packaged options, and avoid buffet or family-style meals if possible.

Nursery/Childcare
• If a nursery or childcare will be provided during services and events, refer to CDC's information on preventing the spread
of COVID-19 in childcare settings and adapt as needed for your setting.
• If holding summer day camps, refer to CDC's information on youth and summer camps and adapt as needed.

Staffing and Training
• Train all clergy and staff in the above safety actions. Consider conducting the training virtually, or, if in-person, ensure
that social distancing is maintained.

Monitoring and Preparing

Check for signs and symptoms
• Encourage staff or congregants who are sick or who have had close contact with a person with COVID-19 to stay home.
Share CDC's criteria for staying home with staff and congregants so that they know how to care for themselves and
others. Consider posting signs at entrances with this information.

Plan for when a staff member or congregant becomes sick
• Identify an area to separate anyone who exhibits symptoms of COVID-19 during hours of operation, and ensure that
children are not left without adult supervision.
• Establish procedures for safely transporting anyone who becomes sick at the facility to their home or a healthcare
facility.
• Notify local health officials if a person diagnosed with COVID-19 has been in the facility and communicate with staff and
congregants about potential exposure while maintaining confidentiality as required by the Americans with Disabilities
Act (ADA) ['.'.i or other applicable laws and in accordance with religious practices.
• Advise those with exposure to a person diagnosed with COVID-19 to stay home and self-monitor for symptoms, and
follow CDC guidance if symptoms develop.
• Close off areas used by the sick person and do not use the area until after cleaning and disinfection. Ensure safe and
correct application of disinfectants and keep disinfectant products away from children.
• Advise staff and congregants with symptoms of COVID-19 or who have tested positive for COVID-19 not to return to the
facility until they have met CDC's criteria to discontinue home isolation.

Maintain healthy operations
• Implement flexible sick leave and related flexible policies and practices for staff (e.g., allow work from home, if feasible),
and provide requested reasonable accommodation absent undue hardship to individuals with disabilities under the
Americans with Disabilities Act (ADA)
or other applicable laws and in accordance with religious practices.
• Monitor absenteeism and create a roster of trained back-up staff.
• Designate a staff person to be responsible for responding to COVID-19 concerns. Staff, clergy, volunteers, and
congregants should know who this person is and how to contact them if they become sick or are around others
diagnosed with COVID-19. This person should also be aware of state or local regulatory agency policies related to group
gatherings.
• As volunteers often perform important duties (e.g., greeters, ushers, childcare), consider similar monitoring, planning,

and training for them. Consider that volunteer and staffing may need to increase to implement cleaning and safety
protocols and to accommodate additional services with reduced attendance.
• Communicate clearly with staff and congregants about actions being taken to protect their health.

R.A. 135

https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

3/4

Case 1:20-cv-04834-KAM-RML DoclfflMillllmiliah,0/i- cclniletlitil0.00/tRO:;o!i'age 4 of 4 PagelD # : 498

10/9/2020

Signs and Messages
• Post signs in highly visible locations (e.g., entrances, restrooms, gathering halls/community rooms/gyms) that promote
everyday protective measures
_and describe how to stop the spread
of germs (such as by properly washing
hands and properly wearing a mask !I ).

•

•

• Include messages (for example, videos) about behaviors that prevent the spread of COVID-19 when communicating
with staff and congregants (such as in emails and on community websites and social media accounts).
• Find freely available CDC print and digital resources on CDC's communications resources main page.

Closing
• Check state and local

health department notices daily about transmission in the community and adjust operations.

• In the event a person diagnosed with COVID-19 is determined to have been in the building and poses a risk to the
community, it is strongly suggested to dismiss attendees, then properly clean and disinfect the area and the building
where the individual was present before resuming activities.
Last Updated May 23, 2020

R.A. 136
https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

4/4

I Albany, NY

News

Government

app, COVID Alert NY.

Local

Coronavirus is still active in New York. We have to be smart.
Wear a mask, maintain six feet distance in public and
download the official New York State exposure notification

HEALTH

PUBLIC SAFETY

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

CONTACT

ABOUT

LEGISLATION

PRIORITIES

CORONAVIRUS

Action
Initiative
EXECUTIVE ORDERS

SCHEDULE
Governor
Cuomo Announces New Cluster

OCTOBER 6, 2020

PRESSROOM

GOVERNOR
GOVERNORANDREW
HOME
M. CUOMO

4
Services

Information on Novel
Coronavirus

October 8, 2020 | 2:30 pm

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

R.A. 137

SHARE

J'

~

.

•

./

6'.

Search

GET THE FACTS

,

,

D

499,_ _ _ _ _ _ _ __

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

CDC Director Dr. Tom Frieden.

Ross of EcoHealth Alliance, Dr. Michael Osterholm of the University of Minnesota and former

The plan was developed in consultation with national public health experts including Dr. Noam

surrounding communities. The new rules will be in effect for a minimum of 14 days.

and restrictions directly targeted to areas with the highest concentration of COVID cases and the

approach to attack these clusters and stop any further spread of the virus, including new rules

Counties. Working with the top public health experts, New York State developed a science-based

19 hot spots that have cropped up in Brooklyn, Queens, and Broome, Orange and Rockland

Governor Andrew M. Cuomo today announced a new cluster action initiative to address COVID-

New Rules and Restrictions in Effect for Minimum of 14 Days

Fines for Sponsors of Mass Gatherings Increased to $15,000

New Initiative Maps Clusters by Density of Cases to Address COVID Hot Spots in
Brooklyn, Queens, and Broome, Orange and Rockland Counties

Initiative Developed in Consultation with Leading National Public Health Experts—Dr.
Noam Ross of EcoHealth Alliance, Dr. Michael Osterholm of the University of
Minnesota and Former CDC Director Dr. Tom Frieden

Case 1:20-cv-04834-KAM-RML Document 12-26 Filed 10/09/20 Page 2 of 5 PagelD #: 500

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

R.A. 138

AUDIO

PHOTOS

Broome County (One Area, Yellow) - Click Here for Map

The initiative will currently apply to clusters in the following areas:

3. Take precautionary action in the outlying communities.

2. Take action in the area surrounding the cluster to stop the spread.

1. Take dramatic action within the cluster.

The initiative is composed of three steps:

measure, take action in the communities that are outlying that area."

take additional action in the communities surrounding the cluster. Then as a precautionary

Brooklyn (One Area, Red, Orange and Yellow) - Click Here for Map

• • •

Orange County (One Area, Red and Yellow) - Click Here for Map

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

R.A. 139

cases. Understanding that the people in that cluster interface with the surrounding communities,

you take the most dramatic action within the cluster itself where you have the highest density of

cluster and stop the spread, and we're announcing a special initiative to do just that. Step one,

cluster, you have to stop it at that point," Governor Cuomo said. "Our strategy is to crush the

there's one ring, two rings, three rings, and the rings continue across the pond. When you see the

that cluster almost in concentric circles. Drop a pebble into the pond, the pebble goes in, then

"A cluster is just that - it's a cluster of cases, a high density of cases, and it seeps and grows from

SHARE

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

•

I

I I

Rockland County (One Area, Red and Yellow) - Click Here for Map

Schools: Closed, remote only

Dining: Takeout only

Businesses: Only essential businesses open

Mass Gatherings: Prohibited

Houses of Worship: 25 percent capacity, 10 people maximum

Schools: Closed, remote only

Dining: Outdoor dining only, 4 person maximum per table

Businesses: Closing high-risk non-essential businesses, such as gyms and personal care

Mass Gatherings: 10 people maximum, indoor and outdoor

Houses of Worship: 33 percent capacity, 25 people maximum

need to be tested by Friday.

New York State Department of Health will establish a percentage of teachers and students/staff who

Schools: Open with mandatory weekly testing of students and teachers/staff for in-person settings. The

Dining: Indoor and outdoor dining, 4 person maximum per table

Businesses: Open

Mass Gatherings: 25 people maximum, indoor and outdoor

Houses of Worship: 50 percent capacity

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

Governor Cuomo also announced that fines for the sponsors of mass gatherings in violation of

The enforcement of the zones will go into effect as soon as tomorrow and no later than Friday.

•
•
•
•

•

Yellow Zone — Precautionary Zone

•
•
•

•

•

Orange Zone — Warning Zone

•
•
•
•
•

Red Zone — Cluster Itself

successively higher restrictions within each one:

The initiative will divide clusters and the areas around them into three categories with

•

Case 1:20-cv-04834-KAM-RML Document 12-26 Filed 10/09/20 Page 4 of 5 PagelD #: 502
• Queens (Two Areas, Red, Orange and Yellow) - Click Here and Here for Maps

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

R.A. 140

FACEBOOK

•

Services

Agencies

TWITTER

•

App Directory

YOUTUBE

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

•

•

Counties

FLICKR

CONNECT WITH US

Pressroom

Legislation

Language
Access

Judicial
Screening

Site Map

Disclaimer

Contact

•

Events

INSTAGRAM

Privacy Policy

Executive Orders

Press.Office@exec.ny.gov

Contact us by email:

Accessibility

•

About

Governor Andrew M. Cuomo

New York City: (212) 681 - 4640

Albany: (518) 474 - 8418

• Contact us by phone:

Contact the Governor's Press Office

•

Programs

RSS FEED

Schedule

Freedom of
Information Law
(FOIL)

Case 1:20-cv-04834-KAM-RML Document 12-26 Filed 10/09/20 Page 5 of 5 PagelD #: 503
state public health rules will be increased to $15,000.

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

R.A. 141

THE CITY OF NEW YORK

LAW DEPARTMENT

JAMES E. JOHNSON
Corporation Counsel

100 CHURCH STREET
NEW YORK, NY 10007

Melanie V. Sadok
phone: (212)356-4371
fax: (212)356-2019
email: msadok@law.nyc.gov

October 8, 2020
By ECF
The Honorable Gary L. Sharpe
Senior United States District Judge
James T. Foley U.S. Courthouse
445 Broadway, Room 112
Albany, NY 12207
Re: Soos, et al. v. Cuomo, et al., 1:20-CV-651 (GLS)(DJS)
Your Honor:
I am an Assistant Corporation Counsel in the office of James E. Johnson,
Corporation Counsel of the City of New York, attorney for defendant de Blasio in the abovereferenced matter. I write to inform the Court of a change in circumstances that affects the
ability of individuals to gather in certain areas of New York City. As the Court may be aware,
on October 6, 2020 Governor Cuomo (also a defendant in this matter) issued Executive Order
202.68 (the "Executive Order"), directing that the State Department of Health determine areas in
the State that require enhanced public health restrictions due to severe increases in the number of
COVID-19 cases and imposing mitigating measures in those areas. The Executive Order
establishes three zones based upon the severity of growth in COVID-19 cases and sets forth
different restrictions for each zone.
The Red Zones, which have experienced the sharpest increase in COVID-19
cases, has the greatest restrictions. Indeed, as of the drafting of this letter, the rate of positive
tests in the red zone in New York City is approximately 8% whereas the rest of the City hovers
at around 1%. To combat this resurgence, non-essential gatherings of any size are not permitted
in the red zone. However, houses of worship are permitted to be open at up to 25% capacity or a
maximum of 10 people, whichever is fewer. By contrast, all other non-essential businesses in
the red zone must be closed.
In the Orange Zones, which, as of the drafting of this letter have approximately a
5% positivity rate, the Governor's Executive Order 202.68 prohibits non-essential gatherings
greater than 10 people and allows up to 33% capacity in houses of worship or 25 people,
whichever is fewer. While certain other non-essential businesses (for which there is a high risk
for virus transmission) must be closed, other non-essential businesses may operate at the same

R.A. 142

50% capacity as the rest of the City (other than the Red Zones) While we believe there is a
public health rationale for restricting capacity at houses of worship in the orange zone to 33%,
the City will hold houses of worship to the 50% capacity limit imposed on other non-essential
businesses.
The Yellow Zones currently have approximately 3% positivity rate. Non-essential
gatherings greater than 25 people are prohibited, but up to 50% of capacity is allowed in houses
of worship. That is, houses of worship in the yellow zone are under the same restriction as
houses of worship in the rest of New York City. The Executive Order was effective October 6,
2020 and directs that it shall be enforced no later than Friday, October 9, 2020. For reference, the
Executive Order and current relevant maps can be accessed at:
https://www.governor.ny.gov/news/no-20268-continuing-temporary-suspension-andmodification-laws-relating-disasteremergency;https://nycgov.maps.arcgis.com/apps/instant/lookup/index.html?appid=021940a41da
04314827e2782d3d1986f
The State Department of Health has designated red, orange and yellow zones in
multiple areas in the State, including several areas in Brooklyn and Queens. Given the dangerous
increase in the positivity rate of COVID-19 in the zones designated by the Department of Health,
the City of New York will immediately begin enforcing the Executive Order as described above
as a necessary step to protect the public health and stop the further resurgence of COVID-19 in
New York City.
Respectfully submitted,
/s/
Melanie V. Sadok
Assistant Corporation Counsel
admitted pro hac vice
cc:

By ECF
Christopher A. Ferrara, Esq.
Attorney for Plaintiffs
Adrienne J. Kerwin
Assistant Attorney General
Attorney for Defendants Cuomo
and James

2

R.A. 143

10/9/2020

r'~i~..,.,~
Centers for Disease
~/,v~,.A_control and Prevention

Frequently Asked Questions: Calculating Severe Acute
Respiratory Syndrome Coronavirus 2 (SARS-CoV-2) RT-PCR
I ;::ihnr;::itnr\/ TPc::t PPrrPnt Pnc::iti\/it\/

Coronavirus Disease 2019 (COVID-19)

Updated Sept. 16, 2020

' """

FAQ

L

What is percent positivity?
Percent positivity represents the percentage of all COVID-19 (SARS-CoV-2 RT-PCR) tests conducted that are positive.
While the methods used to calculate percent positivity can differ, percent positivity provides important insights into
the transmission of an infectious disease, such as COVID-19 (SARS-CoV-2), in a geographical area (e.g., national,
regional, state, county). Percent positivity provides a strong indication of how widespread infection is in an area
where testing is being conducted, but is dependent upon whether testing is keeping up with the level of disease
transmission and the criteria used for testing (routine screening vs. diagnostic testing).

+

Why is calculating percent positivity important?
A high percent positivity occurs when many of the test results among those being tested and reported in a
community are positive. This can mean that
• There are a lot of infections in the community; or
• That only a subset of the community at greatest risk for SARS-CoV-2 infection is being tested; or
• There are reporting processes or delays that skew the results (e.g., prioritizing reporting of positive test results
over negative results).
The percent positivity goes down when more people tested are negative for COVID-19. This happens when the
number of infections goes down or when testing is expanded to include more people who are not infected. In
general, percent positivity will go down as more persons are being screened in non-outbreak settings (e.g., routine
screening of persons who are not infected by SARS-CoV-2 in schools, long-term care facilities, and workplaces) and
the results are reported .

What methods are used to calculate percent positivity?

+

• Differences in the numerators or denominators they use (e.g., tests/tests, people/tests, people/people). [See
figure below].
• Differences in the timeframe in which data are included (i.e., a seven-day versus a 14-day rolling average), as well
as what dates (e.g. specimen collection date, test date, result date) are used to assign tests to specific timeframes.

R.A. 144

https://www.cdc.gov/coronavirus/2019-ncov/lab/resources/calculating-percent-positivity-faq.html

1/3

10/9/2020

• Differences in the inclusion or exclusion of antigen test results. Antigen tests may be used for screening or
diagnostic purposes. Antigen test results may not be consistently reported to public health officials by clinics or
sites where routine screening is conducted {e.g., long-term care facilities, schools or workplaces).
• Differences in inclusion of screening tests results. With increased screening using both antigen and RT-PCR tests,
the ability to confidently interpret the meaning of percent positivity results will be impacted by the unknown
criteria for testing {routine screening vs. diagnostic testing of symptomatic persons).
• Differences in how test results are assigned to jurisdictions, including by the person's place of residence, the
provider's clinic location, the location the test specimen was collected, or the location of the laboratory.
• Differences in whether "indeterminate" or "inconclusive" results are included in the denominator {even though
these may represent a very small proportion of all results).

+

How is percent positivity calculated?
There are three ways percent positivity can be calculated.

+ mi
•
lffll + lffll ]

I

•

•

I•

Test over test - used by CDC
0 # of positive tests 0
(# positive tests+# negative tests)

People over tests-used by some states
# of new people with positive tests
(# of positive tests+# of negative tests)

People over People used by some states
# of new people with positive tests

(# of people with positive tests+# of people with negative tests)
Positive laboratory test resul t

•

Negative laboratory test result

What is the value of calculating percent positivity? Does it matter which method is used?

+

For surveillance purposes, the value of calculating percent positivity of laboratory tests for COVID-19 RT-PCR is to allow us
to follow the magnitude and trend of the pandemic. Any of the three methods for calculation (tests/tests, people/tests, or
people/people), when applied consistently and with clear communication, will allow public health officials to follow
magnitude and trends effectively, and the trends will be useful for local public health decision making.

I_

What does a high percent positivity mean?
A high percent positivity means that SARS-CoV-2, the virus that causes COVID-19, transmission is elevated in the
jurisdiction and community mitigation measures are warranted to reduce transmission. A high percent positivity
means there is a high rate of SARS-CoV-2 infections due to extensive transmission of the virus in the geographic area.
For details on steps you can take to slow the spread of the virus in your community, visit Implementation of
Mitigation Strategies for Communities with Local COVID-19 Transmission.

+

How can a high percent positivity be reduced?

R.A. 145
https://www.cdc.gov/coronavirus/2019-ncov/lab/resources/calculating-percent-positivity-faq.html

2/3

10/9/2020

To reduce the percent positivity, a community can work to reduce the coronavirus transmission. For a
comprehensive list of CDC recommendations for prevention of COVID-19 transmission, visit CDC's summary of
guidance.
A community can also do more testing. When there is a positive test, make sure that isolation of infected persons is
done to limit further transmission . Other prevention measures also help such as wearing a mask, washing hands
frequently, social distancing, avoiding large gatherings, and cleaning and disinfecting commonly used surfaces
regularly.

+

If I live in a place with high percent positivity, what should members of the community do?
Take steps to protect yourself and others from getting sick. Get tested if you have any symptoms or if you have been
exposed to someone who has tested positive for COVID-19.

+

Where does the federal government report percent positivity?
CDC currently provides data at the national level on RT-PCR laboratory test percent positivity on the CDC COVID Data
Tracker.
The Center for Medicare and Medicaid Services publishes percent positivity~ by county to help guide the frequency
of COVID-19 screening
of long-term care facility residents and staff.

•

The White House Coronavirus Task Force reports percent positivity at the national, state and county levels in the
Governor's Report, a weekly report that sent by the Vice President to each Governor.

+

Where can I find more information about calculating percent positivity?
For additional information and resources, visit CDC's web page on Calculating Severe Acute Respiratory Syndrome
Coronavirus 2 {SARS-CoV-2) Laboratory Test Percent Positivity: CDC Methods and Considerations for Comparisons
and Interpretation.

Last Updated Sept. 16, 2020

R.A. 146
https://www.cdc.gov/coronavirus/2019-ncov/lab/resources/calculating-percent-positivity-faq.html

3/3

Case 1:20-cv-04834-KAM-RML Documemni11,!Jy2Q;g,Edlffiii,&~

10/9/2020

fl!!); Page 1 of 5 PagelD # : 509

r'~i~..,.,~
Centers for Disease
~/,v~,.A_control and Prevention

Implementation of Mitigation Strategies for Communities
with Local COVID-19 Transmission
1nmm11nih1 I\AitiP;::itinn l=r~mP\J\/nrk

Coronavirus Disease 2019 (COVID-19)

Background

' """

This document describes the goals, guiding principles, and strategies for community mitigation to reduce or prevent local
COVID-19 transmission. Community mitigation activities are actions that people and communities can take to slow the spread
of a new virus with pandemic potential. COVID-19 is an infectious disease caused by a new coronavirus. Community
mitigation actions are especially important before a vaccine or therapeutic drug becomes widely available.
Because COVID-19 is highly transmissible and can be spread by people who do not know they have the disease, risk of
transmission within a community can be difficult to determine. Until broad-scale testing is widely implemented or we have a
more comprehensive and precise measure of disease burden, states and communities should assume some community
transmission or spread is occurring.
Individuals need to follow healthy hygiene practices, stay at home when sick, practice physical distancing to lower the risk of
disease spread, and use a cloth face covering (with some exceptions) in community settings when physical distancing cannot
be maintained. These universal precautions are appropriate regardless of the extent of mitigation needed.
Protecting the public's health is paramount. As communities work to reduce the spread of COVID-19, they are also addressing
the economic, social, and secondary health consequences of the disease. State, local, tribal, and territorial officials are best
positioned to determine the level of mitigation required . Mitigation strategies should be feasible, practical, and acceptable;
they should be tailored to the needs of each community and implemented in a manner that minimizes both morbidity and
mortality from COVID-19 and does not create or exacerbate any health disparities.
The information that follows provides a framework for states and localities as they consider which actions to take to mitigate
community transmission of COVID-19 in the United States. Selection and implementation of these actions should be guided
by the extent of disease transmission (Table 1). Demographic and other community characteristics, as well public health and
healthcare system capacity, will also drive decisionmaking on mitigation (Table 2). Finally, a set of possible cross-cutting
mitigation strategies for communities to consider is outlined (Table 3). More detailed and updated setting or sector specific
mitigation strategies can be found here.

Goals
The goal of community mitigation in areas with local COVID-19 transmission is to slow its spread and to protect all individuals,
especially those at increased risk for severe illness, while minimizing the negative impacts of these strategies. These strategies
are used to minimize morbidity and mortality of COVID-19 in societal sectors such as schools, workplaces, and healthcare
organizations.
Implementation is based on:
• Emphasizing individual responsibility for implementing recommended personal-level actions
• Empowering businesses, schools, and other settings to implement appropriate actions
• Prioritizing settings that provide critical infrastructure
services
R.A.
147
https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.html

1/5

Case 1:20-cv-04834-KAM-RML Documemni11,!Jy2Q;g,Edlffiii,&~

10/9/2020

fl!!); Page 2 of 5 PagelD # : 510

• Minimizing disruptions to daily life to the extent possible and ensuring access to health care and other essential services.

Guiding principles
• Community mitigation efforts aim to reduce the rate at which someone infected comes in contact with someone not
infected, or reduce the probability of infection if there is contact. The more a person interacts with different people, and
the longer and closer the interaction, the higher the risk of COVID-19 spread.
• Each community is unique. Appropriate mitigation strategies should be based on the best available data. Decision
making will vary based on the level of community transmission and local circumstances. Refer to Table 1.
• The characteristics of the community and its population, health system and public health capacity, and the local capacity
to implement strategies are important when determining community mitigation strategies. Refer to Table 2.

• As communities adjust mitigation strategies, they should ensure that the healthcare system capacity will not be
exceeded. Precautions should be taken to protect health care professionals and other critical infrastructure workers.
Communities need to assure healthcare systems have adequate staffing, a surplus of inpatient and ICU beds, and critical
medical equipment and supplies such as PPE.

• As communities adjust mitigation strategies, they should ensure public health capacity will not be exceeded. Public
health system capacity relies on detecting, testing, contact tracing, and isolating those who are or might be sick, or have
been exposed to known or suspected COVID-19 cases; it is important to stop broader community transmission and
prevent communities from having to implement or strengthen further community mitigation efforts.
• Attention should be given to people who are at higher risk for severe illness when determining and adjusting community
mitigation strategies.
• Certain settings and vulnerable populations in a community are at particularly high risk for transmission. This includes
but is not limited to congregate settings such as nursing homes and other long-term care facilities, correctional facilities,
and the homeless population.
• Mitigation strategies can be scaled up or down, depending on the evolving local situation, and what is feasible, practical,
and legal in a jurisdiction. Any signs of a cluster of new cases or a reemergence of broader community transmission
should result in a re-evaluation of community mitigation strategies and a decision on whether and how mitigation might
need to change.
• Cross-cutting community mitigation strategies can be organized into the following categories: promoting behaviors that
prevent spread; maintaining healthy environments; maintaining healthy operations; and preparing for when someone
gets sick. Presuming a community is not sheltering-in-place, cross-cutting strategies under each rubric are outlined
below and should be implemented to the extent possible, and in accordance with the amount of ongoing community
transmission. Refer to Table 3.
• Community mitigation strategies should be layered upon one another and used at the same time-with several layers of
safeguards to reduce the spread of disease and lower the risk of another spike in cases and deaths. No one strategy is
sufficient.
• There are range of implementation choices when setting or adjusting community mitigation plans. These choices offer
different levels of protection from the risk of community transmission .
• Communities need to decide the level of risk that is acceptable and make informed choices about implementing
mitigation plans accordingly.
• Individuals make choices about following the behavioral practices that are recommended . Compliance to community
mitigation decisions will also impact the spread of COVID-19.
• CDC offers setting-specific strategies for a variety of sectors that include businesses, schools, institutes of higher
education, parks and recreational facilities, and other places.
• Travel patterns within and between jurisdictions will impact efforts to reduce community transmission. Coordination
across state and local jurisdictions is critical - especially between jurisdictions with different levels of community
transmission .

Table 1. Level of mitigation needed by level of community transmission
and community characteristics
Level of Community
Tr.-:in~mi~dnn

Community characteristics and
,t,,.~rrintinn R.A.

https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.html

148

Level of mitigation
2/5

10/9/2020

Case 1:20-cv-04834-KAM-RML Documemni11,!Jy2Q;g,Edlffiii,&~

fl!!); Page 3 of 5 PagelD # : 511

---"'''t''-•-··

Substantial, uncontrolled
transmission

Large scale, uncontrolled community
transmission, including communal settings
(e.g., schools, workplaces)

Shelter in place

Substantial, controlled transmission

Large scale, controlled community
transmission, including communal settings
(e.g., schools, workplaces)

Significant mitigation

Minimal to moderate community
transmission

Sustained transmission with high likelihood or
confirmed exposure within communal settings
and potential for rapid increase in cases

Moderate mitigation

No to minimal community
transmission

Evidence of isolated cases or limited
community transmission, case investigations
underway; no evidence of exposure in large
communal setting

Low mitigation

•

CDC outlines a range of specific mitigation strategies
to consider to slow the spread of COVID-19 by level of mitigation
required. This includes protecting individuals at increased risk for severe illness, including older adults and persons of any age
with underlying health conditions, and the healthcare and critical infrastructure workforces.

Table 2. Factors to Consider for Determining Mitigation Strategies
Epidemiology

• Level of community transmission : more extensive mitigation will be needed when there is
greater community transmission
• Number and type of outbreaks in specific settings or with vulnerable populations, including,
but not limited to nursing homes and other long-term care facilities, correctional facilities,
meat and poultry processing plants, and the homeless population
• Severity of the disease
• Impact of the level of community transmission and any outbreaks on delivery of healthcare or
other critical infrastructure or services
• Epidemiology in surrounding jurisdictions

Community
Characteristics

• Size of community and population density
• Level of community engagement and support
• Size and characteristics of vulnerable populations
• Access to healthcare
• Transportation infrastructure (e.g., availability and use of mass transit)
• Type of business or industry
• Congregate settings (e.g., correctional facilities, homeless shelters)
• Planned large events/gatherings, such as sporting events
• Relationship of community to other communities (e.g., transportation hub, tourist destination,
volume of commuting, and other attributes)

Healthcare
Capacity*

• Healthcare workforce
(including
• Number of healthcare facilities
R.A.
149 ancillary healthcare facilities)

https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.html

3/5

10/9/2020

Case 1:20-cv-04834-KAM-RML Documemni11,!Jy2Q;g,Edlffiii,&~

fl!!); Page 4 of 5 PagelD # : 512

• Testing activity
• Intensive care capacity
• Availability of personal protective equipment (PPE)

Public Health
Capacity

• Public health workforce and availability of resources to implement strategies (e.g., resources to
detect, test, track, and isolate cases)
• Available support from other state/local government agencies and partner organizations

* Consult the Framework for Healthcare Systems Providing Non-COVID-19 Clinical Care During the COVID-19 Pandemic and
Ten Ways Healthcare Systems Can Operate Effectively during the COVID-19 Pandemic.

Table 3. Overview of Possible Mitigation Strategies to Consider in
Communities with Local COVID-19 Transmission Across Settings and
Sectors*
Promote
Behaviors that
Prevent Spread

• Educate people to stay home when sick or when they have been in close contact with someone
with COVID-19
• Teach and reinforce practicing hand hygiene and respiratory etiquette
• Teach and reinforce the use of cloth face coverings to protect others (if appropriate)
• Ensure adequate supplies are easily available (e.g., soap, hand sanitizer with at least 60%
alcohol, paper towels) to support healthy hygiene behavior
• Post signs or posters and promote messaging about behaviors that prevent spread

Maintain
Healthy
Environments

• Intensify cleaning and disinfection of frequently touched surfaces
• Ensure ventilation systems operate properly and increase circulation of outdoor air
• Ensure all water systems are safe to use
• Modify layouts to promote social distance of at least 6 feet between people - especially for
persons who do not live together
• Install physical barriers and guides to support social distancing if appropriate
• Close communal spaces, or stagger use and clean and disinfect between use
• Limit sharing of objects, or clean and disinfect between use

Maintain
Healthy
Operations

• Protect people at higher risk for severe illness from COVID-19
• To cope with stress, encourage people to take breaks from the news, take care of their bodies,
take time to unwind and connect with others, particularly when they have concerns
• Maintain awareness of local or state regulations
• Stagger or rotate scheduling
• Create static groups or "cohorts" of individuals and avoid mixing between groups
• Pursue virtual events. Maintain social distancing at any in-person events, and limit group size
as much as possible
• Limit non-essential visitors, volunteers, and activities involving external groups or
organizations, especially with those who are not from the local area
• Encourage telework and virtual meetings if possible
• Consider options for non-essential
R.A. travel
150 in accordance with state and local regulations

https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.html

4/5

10/9/2020

Case 1:20-cv-04834-KAM-RML Documemni11,!Jy2Q;g,Edlffiii,&~

fl!!); Page 5 of 5 PagelD # : 513

• Designate a COVID-19 point of contact
• Implement flexible and non-punitive leave policies
• Monitor absenteeism and create a back-up staffing plan
• Train staff on all safety protocols
• Consider conducting daily health checks such as temperature screening or symptom checking
• Encourage those who share the facilities to also adhere to mitigation strategies
• Put in place communication systems for:
o Individuals to self-report COVID-19 symptoms, a positive test for COVID-19, or
exposure to someone with COVI D-19
o

Notifying local health authorities of COVID-19 cases

o

Notifying individuals (employees, customers, students, etc.) of any COVID-19
exposures while maintaining confidentiality in accordance with privacy laws

• Notifying individuals (e.g, employees, customers, students) of any facility closures

Prepare for
When Someone
Gets Sick

• Prepare to isolate and safely transport those who are sick to their home or to a healthcare
facility
• Encourage individuals who are sick to follow CDC guidance for caring for oneself and others
who are sick
• Notify local health officials of any case of COVID-19 while maintaining confidentiality in
accordance with the Americans with Disabilities Act (ADA)
.
• Notify those who have had close contact with a person diagnosed with COVID-19 and advise
them to stay home and self-monitor for symptoms, and follow CDC guidance if symptoms
develop
• Advise individuals who are sick when it would be safe for them to return based on
CDC's criteria to discontinue home isolation
• Close off areas used by someone who is sick. Wait >24 hours before cleaning and disinfecting.
Ensure safe and correct use and storage of EPA-approved List N disinfectants
, including
storing products securely away from children .

* Not all bullets are relevant to each setting or sector.

The bullets are meant to be illustrative of community mitigation
measures to consider. Refer to CDC webpage for more detailed information by setting or sector.

Last Updated May 27, 2020

R.A. 151
https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.html

515

Case 1:20-cv-04834-KAM-RML Document 12-30 Filed 10/09/20 Page 1 of 2 PageID #: 514

No. 202.68
EXECUTIVE ORDER

Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York; and
WHEREAS, both travel-related cases and co=unity contact transmission of COVID-19 have
been documented in New Y erk State and are expected to continue;
NOW THEREFORE, I, Andrew M. Cuomo, Governor of the State ofNew York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or
modify any statute, local law, ordinance, order, rule, or regulation, or parts thereof, of any agency during a
State disaster emergency, if compliance with such statute, local law, ordinance, order, rule, or regulation
would prevent, hinder, or delay action necessary to cope with the disaster emergency or if necessary to
assist or aid in coping with such disaster, or to provide any directive necessary to respond to the disaster, do
hereby continue the suspensions and modifications oflaw, and any directives not superseded by a
subsequent directive contained in Executive Orders 202.31, 202.41, 202.42, 202.43, 202.51, 202.52,
202.56, as contained in Executive Order 202.63, and Executive Orders 202.61 and 202.62 for another thirty
days through November 5, 2020, and I hereby temporarily suspend or modify the following from the date
of this Executive Order through November 5, 2020:
•

Sections 12 and 206 of the Public Health Law, to the extent necessary to, notwithstanding
any other provision of this Executive Order, provide that any individual who encourages,
promotes or organizes a non-essential gathering as set forth in Department of Health
regulation, shall be liable for a civil penalty not to exceed $15,000 per day; and

•

Sections 12-a and 206(4) of the Public Health Law, to the extent necessary to authorize, at
the direction of the Commissioner of Health or the Commissioner's representative, any local
government official to assess, and the local government to retain; a civil penalty for
violations of Executive Orders issued pursuant to Section 29-A of the Executive Law, or any
regulations of the Department of Health, that impose requirements pertaining to maintaining
social distance and wearing of face coverings, for the duration of this disaster emergency,
and to conduct any hearing related to such penalties. Such penalties, if assessed on an
individual basis, shall not exceed $1,000 per violation, except as otherwise provided herein.

IN ADDITION, by virtue of the authority vested in me by Section 29-a of Article 2-B of the
Executive Law to issue any directive during a disaster emergency necessary to cope with the disaster, I do
hereby issue the following directives through November 5, 2020:
•

The Department of Health shall_ determine areas in the State that require enhanced public
health restrictions based upon cluster-based cases of COVID-19 at a level that compromises
the State's containment of the virus. Certain activities shall be restricted and any permitted
activities, in all three zones below, shall be conducted in strict adherence to Department of
Health guidance.

R.A. 152

Case 1:20-cv-04834-KAM-RML Document 12-30 Filed 10/09/20 Page 2 of 2 PagelD #: 5-15

o

•

Based upon the severity of the cluster activity, the Department ofHealth shall adopt
in the most severe, or "red zones," the following mitigation measures:
• Non-essential gatherings of any size shall be postponed or cancelled; all nonessential businesses, as determined by the Empire State Development
Corporation based upon published guidance, shall reduce in-person
workforce by 100%; houses of worship shall be subject to a capacity limit of
25% of maximum occupancy or 10 people, whichever is fewer; any
restaurant or tavern shall cease serving patrons food or beverage on-premises
and may be open for takeout or delivery only; and the local Department of
Health shall direct closure of all schools for in-person instruction, except as
otherwise provided in Executive Order.
o In moderate severity warning areas or "orange zones" the following mitigation
measures:
• Non-essential gatherings shall be limited to 10 people; certain non-essential
businesses, for which there is a higher risk associated with the transmission
of the COVID-19 virus, including gyms, fitness centers or classes, barbers,
hair salons, spas, tattoo or piercing parlors, nail technicians and nail salons,
cosmetologists, estheticians, the provision oflaser hair removal and
electrolysis, and all other personal care services shall reduce in-person
workforce by 100%; houses of worship shall be subjectto a maximum
capacity limit of the lesser of 33% of maximum occupancy or 25 people,
whichever is fewer; any restaurant or tavern shall cea:se serving patrons food
or beverage inside on-premises but may provide outdoor service, and may be
open for takeout or delivery, provided however, any one seated group or
party shall·not exceed 4 people; and the local Department of Health shall
direct closure of all schools for in-person instruction, except as otherwise
provided in Executive Order.
o In precautionary or "yellow zones," the following mitigation measures:
• Non-essential gatherings shall be limited to no more than 25 people; houses
of worship shall be subject to a capacity limit of 50% of its maximum
occupancy and shall adhere to Department of Health guidance; any restaurant
or tavern must limit any one seated group or party size to 4 people; and the
Department of Health shall issue guidance by October 9, 2020 regarding
mandatory testing of students and school personnel, and schools shall adhere
to such guidance.
The above directive shall be effective immediately, and at such time as notice is provided to
such affected areas, may be enforced and shall be enforced no later than Friday, October 9,
2020, as determined by the county in which the red zones, orange zones, and yellow zones
are located:

G I V E N under my hand and the Privy Seal of the
State in the City of Albany this sixth
day of October _in the year two
thousand twenty.

BY THE GOVERNOR

/}Le,.
Secretary to the Governor

R.A. 153

!FILED· E~
NYSCEF

<;g§~

co&

~ -f17-0

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I
cu111 iil -31tle 1 43/20

-

PagEk~clr~2r.P~ ~~~Vf ~~A: 412020
INDEX NO.

809297/2020

STATE OF NEW YORK
SUPREME COURT: COUNTY OF ERIE
SPORTSMEN'S TAVERN, LLC,
Petitioner,

Index No.: 809297/2020

vs.

AFFIRMATION IN
OPPOSITION TO THE
PETITION

NEW YORK STATE LIQUOR AUTHORITY,
Respondent.
STATE OF NEW YORK
COUNTY OF ALBANY

)
) ss.:

ELIZABETH M. DUFORT, M.D., FAAP, being duly sworn, deposes and says:
1)

I am the Medical Director of the Division of Epidemiology, New York State

Department of Health ("Department"). I have been the Medical Director since October 2014 and
employed by the Department since October 2014. As such, I provide medical and clinical subject
matter expertise and coordinate the Department's efforts to prevent the spread of communicable
diseases, improve vaccination and prevent vaccine preventable diseases among New Yorkers,
prevent and track healthcare associated infections, and respond to emerging infectious disease
outbreaks.
2)

I received my medical degree from the State University of New York at Buffalo,

School of Medicine in 2002. I completed an internship and residency in pediatrics at New York
University and Bellevue Hospital in 2005 and served as faculty with the AMPATH program in
western Kenya, 2005-2006.

1

R.A. 154
1 of 20

!FILED· E~
NYSCEF

co&

<;g§~~ ~ -f17-0

3)

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I
cu111 iil -31tle 1 43/20

INDEX NO.

809297/2020

PagEk~clr~2r.P~ ~~~Vf ~ ~ 7 14/2020

I also completed a fellowship in pediatric infectious diseases with the Alpert

Medical School of Brown University/Hasbro Children's Hospital in Providence, Rhode Island. I
subsequently served as a pediatric infectious disease clinician and assistant professor of pediatrics
at Brown University and Albany Medical College. I specialize in pediatric infectious diseases and
public health.
4)

• My responsibilities as they relate to COVID-19 include coordinating and engaging

with the overall COVID-19 response team, research and evaluation efforts, directing the CDCfunded NYS COVID-19 Surveillance for Emerging Threats Network for mothers and babies
("SET-NET"), supporting the CDC-funded NYS Emerging Infections Program's ("EIP") COVIDNet surveillance for COVID-19 associated hospitalizations, serving as a subject matter expert for
COVID-19 response efforts, and supporting schools reopening efforts.
5)

I am familiar with the facts set forth herein based upon personal knowledge,

discussions with Department staff, and Department records. I make this affidavit in support of
Respondent's Answer and Return in opposition to the Petition.

COVID-19
6)

On January 7, 2020, following an outbreak of pneumonia of unknown etiology in

.China's Wuhan Province, Chinese authorities identified a novel coronavirus-COVID-19. Its
spread around the world has been well documented. A copy of the WHO Novel Coronavirus
(2019-nCoV) Situation Report - 1 is attached hereto as Exhibit A.

2

R.A. 155
.2 of 20

!FILED· E~
NYSCEF

<;g§~

co&

~ -f17-0

7)

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I
cu111 iil -31tle 1 43/20

PagEkiclr~2r.P~ ~~~.Vf ~~A_ 412020
INDEX NO.

809297/2020

COVID-19 is a highly infectious and potentially deadly respiratory disease caused

by a novel coronavirus that spreads easily from person-to-person. A copy of the WHO Novel
Coronavirus (2019-nCo V) Situation Report- 3 is attached hereto as Exhibit B.
8)

Because there is no pre-existing immunity against this new virus, it has spread

worldwide in an exceptionally short period of time, posing a "serious public health risk." Id.
9)

On January 31, 2020, the World Health Organization ("WHO") declared a "public

health emergency of international concern." A copy of the Statement from the International Health
Regulations (2005) Emergency Committee is attached hereto as Exhibit C.
10)

Less than two months later, on March 11, 2020, the World Health Organization

declared COVID-19 a global pandemic. A copy of the WHO Director-General's opening remarks
at the media briefing on COVID-19 - 11 March 2020 is attached hereto as Exhibit D.
11)

On March 13, 2020, the President of the United States declared a national

emergency. A copy of the President's Proclamation is attached hereto as Exhibit E.

/2)

"Transmission of SARS-CoV-2 can occur through direct, indirect, or close contact

with infected people through infected secretions such as saliva and respiratory secretions or their
respiratory droplets, which are expelled when an infected person coughs, sneezes, talks or sings."
A copy of the WHO Article: Transmission ofSARS~Co V-2: implications for infection prevention
precautions is attached hereto as Exhibit F. "WHO, together with the scientific community, has

been actively discussing and evaluating whether SARS-CoV-2 may also spread through aerosols
in the absence of aerosol generating procedures, particularly in indoor settings with poor
ventilation." Id. "Current evidence suggests that SARS-CoV-2 may remain viable for hours to
days on surfaces made from a variety of materials." A copy of the CDC Article: Cleaning and
3

R.A. 156
3 of 20

!FILED· E~
NYSCEF

<;g§~

co&

~ -f17-0

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I
cu111 iil -31tle 1 43/20

INDEX NO.

809297/2020

PagEkiclr~2r.P~ ~~~/ f ~~~ 412020

Disinfection for Households is attached hereto as Exhibit G.

13)

COVID-19 has an incubation period of up to fourteen days. See Exhibit F. Social

distancing is one of the most effective means of limiting transmission of COVID-19. Id.
14)

The CDC has thus issued guidance recommending that people comply with social

distancing measures in order to prevent the spread of COVID-19. According to the CDC,
"[l]imiting face-to-face contact with others is the best way to reduce the spread" ofCOVID-19. A
copy of the CDC article Social Distancing is attached hereto as Exhibit H.
15)

In order to limit exposure to COVID-19 and slow its spread, the CDC recommends

keeping "at least six feet away from other people" and limiting "close contact with others outside
your household in indoor and outdoor spaces" including avoiding groups and crowded places. Id.
Social distancing "is one of the best tools we have to avoid being exposed to this virus and slowing
its spread locally and across the country and world" because it "helps limit contact with infected
people and contaminated surfaces." Id.
16)

The rapid spread of COVID-19 in New York, in the United States, and worldwide,

presented and continues to present a grave threat to New Yorkers and to New York's health care
system. However, by taking strong action to ensure social distancing as well as other important
measures, New York has mitigated that threat. To avoid a devastating resurgence of COVID-19,
responsible parties, business owners, and the public must continue to adhere to the Executive
Orders and guidance.

4

R.A. 157
4

of 20

!FILED· E~
NYSCEF

<;g§~

co&

~ -f17-0

17)

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I
cu111 iil -31tle 1 43/20

Pagl:k§clr~2r.P~ ~~~Vf ~~~ 412020
INDEX NO.

809297/2020

As of September 14, 2020, 922,252 people have died of COVID-19 worldwide1;

193,195 people have died of COVID-19 in the United States of COVID-192 ; and 25,390 have died
in the State of New York ofCOVID-193•
COVID-19 Surges in New York

18)

New York recorded its first cases of COVID-19 on March 1, 2020, in New York

City and on March 2, 2020, in Westchester County.
19)
Executive

On March 7, 2020, Governor Cuomo declared a State of Emergency. A copy of
Order

202

is

attached

hereto

as

Exhibit

14 ,

available

at

https://www.govemor.ny.gov/news/no-202-declaring-disaster-emergency-state-new-york. As of
March 7, 2020, 60 people had tested positive for COVID-19 in the State of New York. See Fn. 3.
Cases in the United States totaled 275. See Fn. 2. Cases worldwide totaled 179,111, with 7,426
deaths reported. See Fn. 1.
20)

By March 20, 2020, the number of individuals testing positive for COVID-19 in

New York approached 10,000, and deaths exceeded 150. See Fn. 3.
21)

By April 20, 2020, over 267,000 individuals had tested positive for COVID-19, and

over 13,000 people had died from COVIn-19 in New York State. See Fn. 3. See also,
https://www .syracuse.com/coronavirus/2020/06/where-is-coronavirus-in-ny-see-map-charts-of-

1 WHO Coronavirus Disease (COVID-19) Dashboard found at https://covidl9.who.int/ (last viewed September 14,
2020).
2 CDC Covid Tracker found at https://www.cdc.gov/covid-data-tracker/index.html#cases (lastviewed September
14, 2020).
3 NYSDOH COVID-19 Tracker found at https://covidl 9tracker.health.ny.gov/views/NYS-COVID 19Tracker/NYSDOHCOVID- l 9Tracker-DailyTracker?%3Aembed=yes&%3Atoolbar=no&%3Atabs=n#/views (last
viewed September 14, 2020).
4 All of Governor Cuomo's Executive Orders can be found at https://www.govemor.ny.gov/executiveorders.

5

R.A. 158
5 of 20

!FILED· E~
NYscEF

<;g§~

co&~~~

~ -f17-0

lJ &ffll

0&(14 , 20~ 0 1 ~ :
c ~ cu111 iil -31tle 1 43/20

PagEk~clr~2r.P~ ~~~.Vf ~~h_ 412020
INDEX NO.

809297/2020

covid-l 9-cases-deaths-hospitalizations-sunday-june-14.html. (includes similar charts with trends
over time).
22)

These events placed significant strain on New York State's healthcare system. For

example, as the virus spread, New York faced a shortage of hospital beds, ventilators, and personal
protective equipment such as masks and gloves.
23)

As a result, alternate care sites were set up, including at the Javits Center in New

York City. The United States Navy sent the U.S.N.S. Comfort, a Mercy-class hospital ship, to New
York to assist with medical care.
24)

Funeral homes were also overwhelmed, resulting in the use of mass graves to bury

the dead.
25)

At the worst stage of the pandemic, New York State had more coronavirus cases

than any. single country in the world.
26)

Among other measures aimed at flattening the curve, slowing the spread of

COVID-19, and preventing the health care system from becoming overburdened, Governor
Cuomo issued multiple Executive Orders restricting gatherings.
27)

On March 16, 2020, gatherings in excess of 50 people were prohibited. On-

premises service of food and beverages in all bars and restaurants were indefinitely suspended and
gambling establishments, gyms, and movie theaters were indefinitely closed. A copy of Governor
Cuonio's Executive Order 202.3 is attached hereto as Exhibit J. All non-essential state and local
workers to stay home, "except for those personnel essential to the ... response to the COVID-19
emergency." A copy of Governor Cuomo's Executive Order 202.4 is attached hereto as Exhibit
K. All schools were closed. Id.
6

R.A. 159
6 of 20

!FILED· E~
NYSCEF

<;g§~

co&

~ -f17-0

28)

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I
cu111 iil -31tle 1 43/20

. INDEX

NO.

809297/2020

PagEktclr~2r.P~ ~6~Vf ~~fJ. 4/2020

On March 18, 2020, all malls and places of public amusement closed. A copy of

Governor Cuomo's Executive Order 202.5 is attached hereto as Exhibit L.
New York State on PAUSE
29)

On March 20, 2020, the governor announced the New York State on PAUSE

initiative.
30)

The 10-point New York State on PAUSE plan is as follows :
•

All non-essential businesses statewide closed, effective March 22, 2020, at 8pm;

• .Non-essential ·gatherings of individuals of any size for any reason (e.g., parties,
celebrations or other social events) are canceled or postponed at this time;
•

Any concentration of individuals outside their home must be limited to workers
providing essential services and social distancing should be practiced;

•

When in public, individuals must practice social distancing of at least six feet from
others·
·

'

•

Businesses and entities that provide other essential services must implement rules
that help facilitate social distancing of at least six feet;

•

Individuals should limit outdoor recreational activities to non-contact and avoid
activities where they come in close contact with other people;

•

Individuals should limit use of public transportation to when absolutely necessary
and should limit potential exposure by spacing out at least six feet from other
riders;

•

Sick individuals should not leave their home unless to receive medical care and
only after a telehealth visit to determine if leaving the home is in the best interest
of their health;

•

Young people should also practice social distancing and avoid contact with
vulnerable populations; and

•

Use precautionary sanitizer practices such as using isopropyl alcohol wipes.
7

R.A. 160
7

of 20

!FILED· E~
NYSCEF

<;g§~

co&

~ -f17-0

31)

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I .
cu111 iil -31tle 1 43/20

PagEk~clr~2r.P~ ~~~Vf ~~;\ 412020
INDEX NO.

Among the more important measures the Governor adopted as part of the New

York on PAUSE initiative were restrictions on non-essential gatherings.
32)

On March 23, 2020, the Governor issued Executive Order 202.10, which banned

"[n]on-essential gatherings of any size for any reason." A copy of Governor Cuomo's Executive
Order.202.10 is attached hereto as Exhibit M.
33)

That restriction remained in place until May 21 , 2020, when the Governor issued

Executive Order 202.32 to permit non-essential outdoor gatherings ofup to ten individuals for
religious services or Memorial Day service or commemoration, provided the participants follow
the social distancing and cleaning and disinfection protocols established by the Department. A
copy of Governor Cuomo's Executive Order 202.32 is attached hereto as Exhibit N.
34)

The following day, May 22, 2020, the Governor issued Executive Order 202.33,

which further modified the ban to permit non-essential outdoor gatherings of up to ten
individuals for any lawful purpose or reason, provided the participants follow the social
distancing and cleaning and disinfection protocols established by the Department. A copy of
Governor Cuomo' s Executive Order 202.33 is attached hereto as Exhibit 0.
35)

On June 15, 2020, the Governor issued Executive Order 202.42, which extended

Executive Order 202.33 until July 15, 2020, and further modified the restriction to permit nonessential outdoor gatherings of up to twenty-five individuals for any purpose or reason, provided
the gathering was in a region that had reached Phase Three of the re-opening plan and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. A copy of Governor Cuomo' s Executive Order 202.42 is attached hereto as
8

R.A. 161
8 of 20

809297/2020

!FILED· E~
NYSCEF

co&

<;g§~ ~ -f17-0

~~~

c

0&(14 , 20~ 0 1 ~ : l J ~ I
cu111 Ill
-31ile 1 43/20

PagEk~clr~2r.P~ ~~~Vf ~~A. 412020
INDEX NO.

809297/2020

Exhibit P.
36)

On June 15, 2020, the Governor issued Executive Order 202.45, which permits

non-essential gatherings of up to 50 individuals for any purpose or reason, provided the
gathering was in a region that had reached fourth phase of the re-opening plan, and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. A copy of Governor Cuomo's Executive Order 202.45 is attached hereto as
Exhibit Q.
APRIL, MAY, and JUNE 2020-New York Appears to Flatten the Curve

37)

Before the New York State on PAUSE initiative, the daily increase in the number

of positive COVID-19 tests had been rising quickly. On March 19, the number of positive tests
increased nearly 70%, from, 1,769 to 2,950. For the remainder of March and early April, the
number of positive tests increased at an average rate of approximately 20% per day. On April 9,
2020, alone, over 10,000 people tested positive for COVID-19. Since April 9, 2020, the number
of positive tests per _day has declined steadily. On May 28, 2020, over 1,551 people tested positive
for COVID-19. On June 29, 2020, 46,428 people were tested and only 319 tested positive-a
positivity rate below .7 %. 5
New York Forward

38)

When New York transitioned from New York State on PAUSE to New York

Forward, four phases were created to guide non-essential businesses and offices, as well as the
essential businesses that remained open, on how to reopen.

See https://forward.ny.gov/ny-

Found at https://covid19tracker,health.ny.gov/views/NYS-COVID 19-Tracker/NYSDOHCOVID- 19TrackerDailyTracker?%3Aembed=yes&%3Atoolbar=no&%3Atabs=n (last viewed September 12, 2020).

5

9

R.A. 162
9 of 20

forward.
39)

Due to the success of the people of the State of New York at flattening the curve,

all regions are in Phase Four. See https://forward.ny.gov/.
40)

The Governor and the Department of Health are constantly monitoring transmission

and infection rates. See COVID-19 Early Warning Monitoring System Dashboard6 .
41)

Providing transmission and infection rates remain stable, restrictions can be relaxed

allowing for larger gatherings.
42)

By following the guidelines and requirements, such as social distancing and

wearing masks, New York has successfully reduced the spread of the virus. As testing throughout
the

state

has

increased,

the

number . of positive

cases

has

decreased.

See

https://forward.ny.gov/percentage-positive-results-region-dashboard. On August 2, 2020, the
downward trend of positive cases continued as 51,839 individuals were tested and 545 of those
tested positive. Id.
43)

The transmission rate, also known as the reproduction rate-which measures the

number of individuals infected on average by an infected individual-was at 3.59 on February 24,
2020. The rate was as low as ,67 on April 17, 2020. The rate remained consistent between .67 and
.73 until May when the NY Forward transition began. Since reopening the rate has remained low.
but has begun inching up as the state progresses through the phases of reopening. On September
14, 2020, the transmission rate was 1.07%, slightly above the critical 1.0, which warrants close
monitoring. See https://rt.live/.

6

Found at httPs://forward.ny.gov/early-warning-monitoring-dashboard (last viewed September 14, 2020).

10

R.A. 163
10 of 20

44)

The goal of all restrictions in the Executive Orders and guidance is to reduce the

opportunity for the virus to spread.
The Pandemic Continues to Present a Grave Threat to the Health and Safety of the People
of the State of New York

45)

Despite the gains that New York has made, the pandemic is not over. On July 29,

2020, WHO reported 16,558,289 individuals confirmed positive for COVID-19, and 656,093
confirmed COVID 19 deaths worldwide. See Fn. 1. On July 29, 2020, the CDC reported that
4,339,997 individuals in the United States had tested positive for COVID-19, and 148,866 had
died of COVID-19. See Fn. 2.
46)

Indeed, during the week of July 18 through July 24, the United States reported the

highest seven-day average of new COVID-19 cases with the highest-number of new cases reported
in a single day on July 24, 2020- 74,818. Id.
47)

Oh September 5, 2020, WHO reported a total 27,738,179 individuals confirmed

positive for COVID-19, and 899,916 confirmed COVID-19 deaths worldwide. See Fn. 1.
48)

A second wave of the COVID-19 pandemic is currently sweeping United States.

On September 14, 2020, the CDC reported that 6,467,481 individuals in the United States had
tested positive for COVID-19, and 193,195 had died of COVID-19. See Fn. 2.
49)

As of September 12, 2020, 34 states and one territory had a positivity rate of over

10%, or higher than 10 per 100,000 residents, over a seven-day rolling average, including
Alabama, Alaska, Arkansas, California, Delaware, Florida, Georgia, Guam, Hawaii, Idaho,
Illinois, Indiana, Iowa, Kansas, Kentucky, Louisiana, Maryland, Minnesota, Missouri, Mississippi,
Montana, Nebraska, Nevada, North Carolina, North Dakota, Ohio, Oklahoma, South Carolina,
11

R.A. 164
11 of 20

South Dakota, Tennessee, Texas, Utah, Virginia, West Virginia, and Wisconsin. See COVID-19
Travel Advisory, available at https://coron~virus.health.ny.gov/covid-19-travel-advisory.
50)

In an effort to sustain the gains attributable to the PAUSE initiative, the Governor,

o,n June 24, issued Executive Order 205, "Quarantine Restrictions on Travelers Arriving in New
York." A copy of Governor Cuomo's Executive Order 205 is attached hereto as Exhibit R. The
Order requires all travelers entering New York from a state with a positive test rate higher than
10 per 100,000 residents, or higher than a 10% test positivity rate, over a seven-day rolling
average, to quarantine for a period of 14 days consistent with Department of Health regulations
for quarantine. See also https://coronavirus.health.ny.gov/covid-19-travel-advisory.
51)

Executive Order 205 gives discretion to the Commissioner of the Department of

Health to issue additional protocols for essential workers, or for other extraordinary
circumstances, when a quarantine is not possible, provided such measures continue to safeguard
the public health. See Exhibit R.
52)

On June 24, 2020, the Office of the Commissioner for the New York State

-Department issued the "Interim Guidance for Quarantine Restrictions on Travelers Arriving in
New York State Fallowing Out of State Travel." See NYS Interim Guidance for Quarantine
Restrictions on Travelers Arriving in New York State Following Out of State Travel, available at
https ://coronavirus.health.ny. gov/covid-19-travel-advisory. ·
53)

All individuals traveling to New York from any of the restricted states must

complete the form upon entering New York. Travelers coming to New York from designated
states through means of transport, including trains and cars, must fill out the form online. Id.
This includes individuals traveling to New York State to attend ticketed events and
12

R.A. 165
12 of 20

performances.

Risks for Non-essential Business and Indoor Gatherings
54)

Restrictions on the operation of noµ-essential businesses and indoor gatherings

are necessary to ensure sufficient space for proper distancing, thereby reducing potential
transmission rates.
55)

EO 202.6 listed what bus~nesses and services in New York State were deemed

"essential" and directed Empire State Development ("ESff ') to issue guidance to further clarify
which businesses would be considered "essential" or "non-essential." A copy of Governor
Cuomo's Executive Order 202.6 is attached hereto as Exhibit S. On March 23, 2020, the
Governor barred all non-essential gatherings of any size. See Exhibit M. All of these measures
were aimed at eliminating situations in which people were likely to congregate and mingle in a
way that could increase the spread of the COVID-19 virus.
56)

Such situations included places of public amusement and restaurants/bars. On

March 18, 2020, the Governor directed the closure of "all places of public amusement, whether
indoors or outdoors, including but not limited to, locations with amusement rides, carnivals, amusement
parks, water parks, aquariums, zoos, arcades, fairs, children's play centers, :funplexes, theme parks, bowling
alleys, family and children's attractions," but the directive did not apply "to public parks and open recreation
areas." See Exhibit L.
57)

Venues at which the public would watch any type of entertainment, sporting, or

other event -- including musical performances -- were thus closed under EO 202.5. That
restriction, implemented to address the risks associated with the non-essential congregating and
mingling of people, especially indoors, remains in effect.
. 13

R.A. 166
13 of 20

58)

The ESD guidance issued for EO 202.6 listed the following business specifically

as non-essential and unable to request designation as essential:
•

Any large gathering or event venues, including but not limited to establishments
that host concerts, conferences, or other in-person performances or presentations
in front of an in-person audience;

•

Any facility authorized to conduct video lottery gaming or casino gaming;

•

Any gym, fitness centers, or exercise classes, except the remote or streaming
service noted above;

•

Any movie theater, except drive-ins;

•

Any indoor common portions of retail shopping malls with 100,000 or more
square feet of retail space available for lease; and ·

•

All places of public amusement, whether indoors or outdoors, including but not
limited to, locations with amusement rides, carnivals, amusement parks, water
parks, .arcades, fairs, children's play centers, funplexes, theme parks, bowling
alleys, family and children's attractions.
A copy of the Empire State Development Guidance on Executive Order 202.6 Guidance For

Determining Whether A Business Enterprise Is Subject To A Woriforce Reduction Under Recent
Executive Orders is attached hereto as Exhibit T.
59)

These non-essential businesses were directed to monitor the NY Forward website

for any reopening developments. Id.
60)

EO 202.8 requires that all non-essential businesses reduce their in-person

workforce by one hundred percent. A copy of Governor Cuomo's Executive Order 202.8 is
attached hereto as Exhibit U. As music venues are non-essential businesses, under this EO music
venues must close (there can be no staff on-site). These requirements of EO 202.8 are mirrored
in Department's emergency regulations at 10 NYCRR § 66-3.4.

14

R.A. 167
14 of 20

!FILED: ER.IE COUNTY CLERK 09/14/2020 12 .- 13 PMI
INDEX NO. 809297/2020
NYSCEFgs@. ~ ~-9I-Me°34=KAM=-R'Mt 1'ut• II IE!iil 1.2-~1 F lfeu 10!09'/20 Page~fil~ Plfl:Q;'c~ rf:0~9Q 4 ; 2020

61)

EO 202.45 permitted low risk indoor and outdoor entertainment to reopen,

provided that such businesses follow Department guidance available. See Exhibit Q. The types
of indoor activities contemplated by this guidance are museums, historical sites, aquariums, and
other similar types, which all have in common that patrons/attendees move through the space and
are not stagnant for an extended period of time. Both sets of guidance expressly state that
concerts or similar types of performances should remain closed. A copy of the Department's
Master Guidance for Low Risk Indoor and Outdoor Activities is attached hereto as Exhibit V . As
such, EO 202.8's rule on reducing a non-essential businesses in-person workforce by 100% is
~till in effect for this type of business.
62)

On July 6, 2020, Executive Order 202.48 extended the closure order for video

lottery gaming or casino gaming, gyms, fitness center or classes, indoor common portions of
retail shopping malls, and.all places of public amusement, whether indoors or outdoors. A copy
of Governor Cuomo'-s Executive Order 202.48 is attached hereto as Exhibit W.
63)

. In Phase Four, malls, professional sports with no fans, and low risk arts and -

entertainment were allowed to reopen and the Department provided summary guidance for each.
A copy of Governor Cuomo's Executive Order 202.50 is attached hereto as Exhibit X.
64)

All forms of indoor entertainment involving performances that are the primary

attraction for customers (su:ch as the ones Petitioner seeks to advertise), and which usually
involve large gatherings or crowds, with common arrival, seating, viewing, and departure times
continue to be restricted statewide.

15

R.A. 168
15 of 20

!FILED:

C~

NYSCEFgs@.>S'{--

65)

Y
=KA ~

a Lill i ill

.: l

1 ~ : 13

a'/ 20

ifeu !CY

INDEX NO.

The sole exception to this rule is for outdoor drive-in concerts, which have been

allowed by ESD, provided that all attendees remain in their vehicles except to use restroom
facilities.
66)

There is a narrowly tailored exception for incidental background music in

restaurants because different groups of people do not tend to coordinate their arrival at, and
departure from, a dining experience at the same time, which avoids unnecessary congregation,
and because such music serves as a background accompaniment to a meal, as opposed to an
event in and of itself, which would be an attraction that is distinct from the dining experience, A
copy of the New York State Liquor Authority Guidance for Phase 3/4 is attached hereto as
Exhibit Y.
67)

Ordinary restaurant service is not an appropriate comparator for a venue that

relies on musical performances to attract customers.
68)

These risks of congregating and mingling are not associated with incidental live

music performances in restaurants, as permitted under current State-issued guidance.
69)

In the case of ordinary restaurant service, the customers arrive and leave at

different times. In contrast, musical performances twically are scheduled to take place at a
particular time, which means the guests all arrive and leave together at roughly the s·ame time, a
fact that increases the chances of further mingling and transmission of the virus.
70)

Musical performances and other .similar events generally last for a much longer

period of time than ordinary restaurant dining. This is especially so as people arrive early to get
good seats and may linger after the performance is finished. By contrast, in ordinary restaurant ·
dining, customers can be expected_to finish a meal within an hour or two. A lengthy period of
16

R.A. 169
16 of 20

~9±

809297/2020
4 ; 2020

Page~fil~ Plfl:Q;'c~ rf:0

time occupying the same space is an important factor in increased risk of transmitting the
COVID-19 virus.
Large and Super-Spreader Gatherings
71)

Gatherings, both indoor and outdoor, pose a significant risk of becoming super-

spreader events. For example, "[a]s scientists have learned more about COVID-)9, it has become
clear that so-called superspreader incidents-in which one person infects a disproportionate
number of other individuals-have played an oversized role in the transmission of the virus that
causes the disease." A copy of.the Scientific American Article How Superspreading Events
Drive Most COVID-19 Spread is attached hereto as Exhibit Z.
72)

"The more individuals you pile into one place, the greater the opportunity for the

coronavirus to infect many people at once .... If you max out at five people, it will be very hard
to have a superspreading event .... But as a group's size' increases, so does the risk of transmitting
the virus to a wider cluster. A large group size also increases the chance that someone present
will be infectious." Id.
73)

It is critically important to control the size of gatherings, both indoor and outdoor,

since "as a group's size increases, so does the risk of transmitting the virus to a wider cluster. A
large group size also increases the chance that someone present will be infectious.'' Id.
74)

Aresearch team "found that superspreading events tended to happen in indoor

spaces, with people in close proximity. Social occasions led to more clusters than exposure in the
workplace or home - mass transmissions occurred at weddings, temples, bars and karaoke
parties, for instance. The risk seems to be higher if people are raising their voices in some way,
such as singing or shouting."

A copy of the New Scientist Article Finding coronavirus
17

R.A. 170
17 of 20

superspreaders may be key to halting a second wave is attached hereto as Exhibit AA.
75)

As CDC stated in guidance released on Friday June 12, 2020: The more people an

individual interacts with at a gathering and the longer that interaction lasts, the higher the potential
risk of becoming infected with COVID-19 and COVID-19 spreading. A copy of the CDC Article
Considerations for Events and Gatherings is attached hereto as Exhibit BB.
76)

Gatherings provide an ideal platform for the efficient transmission of COVID-19

t~ multiple people at once. Those individuals who contract COVID-19 at a gathering may
themselves become super-spreaders if they attend further gatherings while they are
asymptomatic. A copy of the NIHArticle COVID-19 Super spreaders definitional quandaries is
attached hereto as Exhibit CC.
77)

A super-spreader, usually identified in retrospect, has a greater than average

propensity to infect a larger number of people and it is thought that "10% of the [COVID-19]
cases may be responsible for 80% of the transmission". Id.
78)

"[A]ny large gathering or movement of groups or individuals ·can constitute

super-spreading." Id.
79)

. The idea of "super-spreaders" or super-spreading events is not new to COVID-19.

"[S]uper-spreading was thought to be a driver of MERS, SARS and, to a lesser extent, Ebola."

80)

Different activities have different requirements. The Department has provided

guidance for large social gatherings, religious services, and food service/restaurants. There are
no guidelines for concert halls or music venues because musical performances are not permitted.

18

R.A. 171
18 of 20

!FILED:

C~

NYSCEFgs@.>S'{--

81)

Y
=KA ~

a Lill i ill

.: l

1 ~ : 13

a'/ 20

ifeu !CY

INDEX NO.

Large social gatherings were only permitted if 10 or fewer people were in

attendance during Phase One, 25 or fewer people attending during Phases Two and Three, and
now if 50 or fewer people attend a social gathering during Phase Four. See
https://coronavirus.health.ny. gov/travel-large-gatherings-and-quarantines. During a large social
gathering, "[i]ndividuals must wear face coverings when they are in a public and are: within six·
feet of distance from other individuals; or in a situation or setting where they are unable to
maintain six feet of distance from other individuals .... " Id.
82)

The guidance for food services is very detailed. There can be no more than 50%

of maximum occupancy, excluding employees. Copy of the Department's Food Service
Summary Guidelines is attached hereto as Exhibit DD.
83)

"All indoor and outdoor tables with seating for customers must be separated by a

minimum of 6 ft. in all dir~ctions. Wherever distancing is not feasible between tables, physical
b~ers must be enacted between such tables." Id.
· 84)

The operator of the food.service site, as the "responsible party," must "[c]learly

signal 6 ft. spacing in any lines for customers waiting to order, pick-up food, be seated, or use the
restroom, as well as in any pick-up or ·payment location.
85)

It .is important to consider the intention behind the guidance and the activities that

take place during normal business operations - here, musical performances and food service.
For example, when going to a restaurant for a meal, the expectation during normal business
operations is that small parties (a maximum of 10 individuals per table) are there to eat their
meal and leave, not mix and mingle with other patrons at the restaurant for hours.

19

R.A. 172
19 of 20

~91

809297/2020
4 ; 2020

Page~fil~ Plfl:Q;'c~ rf:0

86)

Based on the activities that take place during each event, it is important to follow

the proper guidelines for that event.
87)

Currently there are no guidelines for the ticketed indoor performances or concerts

that Petitioner seeks to host because there are not permitted.

Responsible Parties
88)

For industries where people may gather, guidelines are directed at a responsible

party - the individual who will ensure that the guidelines and EOs are being adhered to at the
gatherings. See https://forward.ny.gov/statewide-guidelines. It is the responsible party for any
gathering who must ensure that masks are worn, soap and water and/or hand sanitizer are
available, proper distances are maintained, and any necessary markings are made on the floor or
ground to show proper distancing.
89)

It is important for responsible parties to follow State and local guidance to prevent

transmission of COVID-19.

WHEREFORE, it is respectfully requested that the Court deny the relief sought
in the Petition.

SUSAN G. CARTIER
Notary Public, State of New York
No. 02CA6129083
Qualified in ~lbany County

aI

Commission Expires June 20, 20- .

20

R.A. 173
20 of 20

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
JENNA M. DIMARTILE, JUSTIN G. CRAWFORD,
PAMELLA GIGLIA, JOE DUROLEK, and
DAVID SHAMENDA,
Plaintiffs,

DECLARATION
Civil No. 20-cv-859
(GTS)(CFH)

-againstANDREW M. CUOMO, LETITIA JAMES,
MARK POLONCARZ, EMPIRE STATE
DEVELOPMENT CORPORATION, and
ERIE COUNTY DEPARTMENT OF HEALTH,
Defendants.

Howard A. Zucker, M.D., J.D., on the date noted below and pursuant to § 1746 of title 28
of the United States Code, declares the following to be true and correct under penalty of perjury
under the laws of the United States of America:
Background and Qualifications
1.

I am the Commissioner of the New York State Department of Health

("Department"). I make this declaration in my capacity as the Commissioner after consultation

with Department program staff directing the initiatives detailed below. I respectfully submit this
declaration in order to place before the Court certain testimony and documents relevant to the
relief requested. I am familiar with the matters set forth herein, either from professional
knowledge, conversations with Department staff, or on the basis of documents that have been

1

R.A. 174

provided to and reviewed by me. I have been asked to assist New York State in its response to
the COVID- 19 public health emergency. I have attended meetings of the Governor's COVID -19
Response and Recovery Task Force (the "COVI D- 19 Task Force").

2.

I have extensive knowledge of pediatric medicine and care and am aware of many

family health issues. I am board-certified in six specialties/subspecialties and trained in
pediatrics at Johns Hopkins Hospital, anesthesiology at the Hospital of the University of
Pennsylvania, pediatric critical care medicine/pediatric anesthesiology at The Children's
Hospital of Philadelphia, and pediatric cardiology at Children's Hospital Boston/Harvard

Medical School. I was a professor of clinical anesthesiology at Albert Einstein College of
Medicine of Yeshiva University and pediatric cardiac anesthesiologist at Montefiore Medical
Center in the Bronx. I also served as associate professor of clinical pediatrics and anesthesiology
at Columbia University College of Physicians & Surgeons and pediatric director of the ICU at
New York Presbyterian Hospital. I am a former Columbia University Pediatrics Teacher of the
Year.
3.

As Commissioner of the Department, I must "take cognizance of the interests of

health and life of the people of the state, and of all matters pertaining thereto and exercise the
functions, powers and duties of the department prescribed by law." Public Health Law ("PHL")

§206(1)(a).
4.

I preside over the State's Office of Public Health, whic h includes epidemiology,

the Medicaid program, the New York State Public Health and Health Planning Council, and the
Wadsworth Center, New York's premier public health lab, as well as the entire health care

workforce, and health care facilities.
2

R.A. 175

5.

In the last five months, I have been personally involved in the development and

implementation of what is known as the "New York State on PAUSE" initiative-restrictions

implemented through a series of executive orders and associated guidance designed to stop the
transmission of the novel coronavirus (COVID-19)

and I am also familiar with the detailed

plan that the State adopted to allow the safe reopening of each New York industry, including the
food and beverages services industry.
6.

I submit this declaration in support of the application by Defendants Governor

Andrew M. Cuomo, Attorney General Letitia James and Empire State Development Corporation
("ESD") (collectively "State defendants"), for a stay pending appeal of the c ourt's August 7,

2020 order granting two sets of plaintiffs a preliminary injunction enjoining the enforcement of
the State's 50-person gathering limit at their respective wedding celebrations. (ECF # 20.) The

first of the two weddings in the underlying complaint took place within hours of the C ourt's
Order. The second of those weddings is scheduled to place on Saturday, August 22, with
approximately 175 guests in attendance at an indoor facility at the Arrowhead Golf Club in
Akron, Erie County, New York. (ECF # 1, ¶¶ 80-81.)
7.

The injunction rests on an assumption that is contradicted by information that has

guided the formulation of the executive order at issue here. The Court assumed that a wedding
celebration has a "high degree of similarity" to an ordinary dining situation in a restaurant
serving a comparable number of people. (ECF # 20, p. 22.) In fact, there are many important
differences between such a celebration and ordinary restaurant dining, and those differences are
highly significant from a public health perspective. At a restaurant, parties come and go at
different times, they dine separately from one another, and they spend, perhaps, an hour or two at
3

R.A. 176

a meal. At a wedding or other celebratory event, guests arrive and leave at roughly the same
time, they do so for the very purpose of celebrating together, making mingling among guests
inevitable, and they usually spend far more time in the event space than patrons typically spend
dining in a restaurant. As more fully set forth below, these differences greatly increase the
probability of transmission of the COVID-19 virus. Therefore, the number of people permitted
in a restaurant for ordinary restaurant dining cannot be used for a social gathering at the same
facility, such as a wedding or other similar event. Because such an event carries a greatly
increased risk of transmission of disease, the number of attendees must be more limited than the
number permitted for ordinary restaurant dining, in order to maintain comparable control of
transmission risk.
8.

To be clear, the restrictions applicable to this gathering, if reinstated by a stay of

the injunction, would not prohibit Plaintiffs from proceeding with their wedding celebration on
August 22. Nor would those restrictions prohibit Plaintiffs from having a religious ceremony. If
reinstated by a stay of the injunction pending appeal, the restrictions would simply limit the size
of the in-person gathering at the August 22 wedding to 50 people or fewer. That same restriction
applies uniformly to all social gatherings across the State in Phase 4 of the reopening plan,
regardless of the events' type or purpose. It applies to civil wedding ceremonies and

denominational ceremonies equally. And it applies to large events of other kinds, including, for
example, award banquets or retirement dinners.
9.

For the reasons set forth below, a stay pending appeal of the C ourt' s Preliminary

Injunction is critically necessary because of the high risk that allowing 175 guests to attend in
person the August 22 wedding at issue here could revive the spread of coronavirus in New York
4

R.A. 177

State and defeat the careful, phased reopening now in progress. Public health demands
compliance with the State's gathering limits at the upcoming August 22 event as well as at future

still-unidentified events.
Potential Super-Spreader Events
10.

A "super-spreader" event is one in which one person infects a disproportionate

number of other individuals. As we have learned more about COVID-19, it has become clear
that super-spreader incidents have played an oversized role in the transmission of the
coronavirus. (See ECF #14-2, Ex. O.) A super-spreader event, usually identified in retrospect,
has a greater than average propensity to infect a larger number of people, and it is thought that
10% of the COVID-19 cases may be responsible for 80% of the transmission. (ECF #14-2, Ex.
R.)
11.

One hallmark of a super-spreader event is its size. As CDC stated in June 12,

2020 guidance, the more people with whom an individual interacts at a gathering and the longer
that interaction lasts, the higher the potential risk of becoming infected with COVID-19 and
COVID-19 spreading. (ECF #14-2, Ex. Q.) A s a group's size increases, so does the risk of
transmitting the virus to a wider cluster. A large group size also increases the chance that
someone present will already have the virus and be contagious, even if entirely asymptomatic.
(ECF #14-2, Ex. O.) This is the reason that size limits have been imposed on gatherings of all
kinds by the Executive Orders.
12.

The number of people in a room is not, however, the sole determinant of the risk

of transmission. In particular, the risk is much higher when the people in a room arrive and
depart at the same time, are there for a communal purpose that encourages mingling, and spend
5

R.A. 178

long hours there together. Weddings and other social gatherings thus entail a much higher risk
of transmission at any given size than opening a restaurant to the same number of individuals in
separate dining parties.
a. Weddings and other social gatherings generally involve much more direct
interaction and mingling among the attendees than ordinary restaurant dining. At the wedding at
issue here, the 175 guests will be "friends and family" (ECF # 1 i!85)----indeed, "close, intimate
friends and family members" (ECF #4-1 at 9)

who can be expected to interact socially and

physically over the several hours scheduled for the event. By contrast, in an ordinary restaurant
situation, the patrons at each table do not usually know those at other tables and are not generally
present for the purpose of interacting with those at other tables. During normal business
operation, a restaurant expects that small parties ( under the State's current rules, a maximum of
10 individuals per table are allowed) are there to eat their meals and leave, not mix and mingle
with other patrons at the restaurant for hours.
b. Weddings and other similar events generally last for a much longer period of time
than ordinary restaurant dining. This is especially so after the wedding ceremony itself, and
during the celebration, which in this case is scheduled to take place at an indoor facility where
guests will be served a meal over many hours. 1 By contrast, in ordinary restaurant dining,
customers can be expected to finish a meal within an hour or two. A lengthy period of time

For example, for the wedding celebration that proceeded on August 7, on authority of the
court's preliminary injunction, the reception was scheduled to take place over a period of five
and half hours, from 5:30 to 11:00 pm. See https://www.theknot.com/us/jenna-dimartile-andjustin-crawford-aug-2020.
1

6

R.A. 179

occupying the same space is an important factor in increased risk of transmitting the COVID-19
virus.
c. While the gathering limit at issue is not specific to weddings, it is worth noting
that large wedding celebrations

and in particular the large event planned for August 22

have

several features that make them particularly potent spreaders of disease. This wedding is
planned to take place indoors, and researchers have found that super-spreading events tended to
happen in indoor spaces, with people in close proximity. And the risk seems to be higher if
people are raising their voices in some way, such as singing or shouting, as frequently happens at
celebrations, including wedding celebrations. (ECF #14-2, Ex. P.) In general, social gatherings
have led to more clusters of disease than exposure in workplaces or homes

for example, mass

transmissions have occurred at wedding celebrations, bars and karaoke parties.
d. In the case of ordinary restaurant service, the customers arrive and leave at different
times. In contrast, wedding celebrations typically are scheduled to take place at a particular time,
which means the guests all arrive and leave together at roughly the same time, a fact that increases
the chances of further mingling and transmission of the virus.
13.

Thus, the risks posed by large numbers of people at social gatherings are much

greater than the risks posed by the same number of patrons dining indoors, separately in a
restaurant. Social gatherings of large numbers of people, like the 175 people currently planned
for the August 22 wedding, provide a vehicle for the efficient transmission of COVID-19 to
multiple people at once. Those individuals who contract COVID-19 at such a gathering may
themselves spread the virus further should they come in contact with others, which they could do
while asymptomatic. (ECF #14-2 Ex. R.)
7

R.A. 180

14.

For example, the first super-spreader event in New York occurred when a 50-

year-old man in New Rochelle started showing signs of illness on Saturday, February 22, 2020,
but attended a bat mitzvah and a funeral at his synagogue, Young Israel of New Rochelle. As has
been well publicized, his interaction with the other people at those gatherings created the State's
first coronavirus cluster.2
15.

A CDC report of a large gathering in Arkansas in March provides an additional

example of how easily and rapidly coronavirus transmission can occur. Two asymptomatic
individuals, a husband and wife, attended events at a church with a total of 92 attendees on
March 6-8. They both developed symptoms a few days after the events. Of the 92 attendees, 35
(38%) had confirmed COVID-19 cases and there were three deaths. In the community, at least
26 COVID-19 other cases were confirmed and there was one death. 3
16.

Even if a venue promises to enforce social distancing protocols, and to assure that

guests wear masks at all times when not seated at their tables, there are practical limits on a
venue's ability to fulfill such promises when hosting a large gathering such as that at issue here,

where 175 friends and family will join together from various locations to mingle and celebrate.
Indeed, surveys show that, nationwide, at least one-third of Americans do not wear masks to

2

See, e.g., https://www.lohud.com/story/news/politics/2020/03/13/coronavirus-timeline-newyork-how-we-got-here-and-where-were-headed/5045463002/.
3

See https://www.cdc.gov/mmwr/volumes/69/wr/mm6920e2.htm.
8

R.A. 181

prevent the spread of coronavirus.4 Even in New York, a significant minority of people are not
consistently complying with social distancing protocols. 5
New York Restrictions on Activities Designed to Prevent the Spread of Coronavirus
17.

On March 7, 2020, Governor Cuomo issued Executive Order ("EO") 202 to

combat the then-emerging COVID-19 pandemic, declaring a statewide disaster emergency until
September 7, 2020, pursuant to New York State Executive Law § 29. Through EO 202, as
amended and extended, the Governor suspended various state and local laws, rules, and
regulations to the extent necessary to respond to, and ultimately recover from, the COVID-19
disaster emergency, again pursuant to New York State Executive Law § 29.
18.

Following the initial issuance of EO 202, Governor Cuomo issued various

supplemental Executive Orders, continuing the temporary suspension and modification of certain
laws relating to the state of emergency. To date, the Governor has issued over fifty additional
Executive Orders related to the COVID-19 disaster emergency, each of which suspends or
modifies specified legal provisions pursuant to Executive Law § 29-a and makes declarations
related to the disaster emergency. As relevant here, the Executive Orders have addressed social
gatherings and the gradual reopening of various sectors of the economy, including the foodservices sector.6

4

See https://www.pewresearch.org/fact-tank/2020/06/23/most-americans-say-they-regularlywore-a-mask-in-stores-in-the-past-month-fewer-see-others-doing-it/
5

See https://scri.siena.edu/wp-content/uploads/2020/07/ICS0620CV-Release-d_finalv2.pdf

True and correct copies of relevant Executive Orders are available at
https://www.governor.ny.gov/executiveorders.
6

9

R.A. 182

19.

To date, these efforts have been largely successful in halting the spread of

COVID-19. After reaching a peak in early April of around 48% positive test results of those
tested, the percentage of positive test results has been reduced as of this writing to less than 1%
in every region of the State but Long Island, where it is 1.2%. 7
Restrictions on Social Gatherings to Prevent Coronavirus Spread
20.

On March 12, 2020, the Governor by executive order directed cancellation of

"any large gathering or event for which attendance is anticipated to be in excess of five hundred

people," directed that smaller gatherings be limited to 50 percent of a location's occupancy
capacity, and directed closure of theaters for live performances in large cities. See EO 202.1.8
21.

As we gained a greater understanding of the extent of the spread of the virus in

New York, subsequent executive orders tightened these restrictions further. On March 16, 2020,
EO 202.3 ordered the cancellation of any large gathering or event, including a gathering for
purposes of religious worship, or a concert, conference or performance, if more than 50 people
were expected to be in attendance. (ECF # 14-1, Ex. M.) That Executive Order also required
gyms, fitness centers and movie theaters to cease operations. See id. And on March 18, 2020,
EO 202.5 directed the closure of all places of public amusement. (ECF # 14-1, Ex. L.) Venues at
which the public would watch any live entertainment or sporting event or were thus closed. See
id.

7

See https://forward.ny.gov/percentage-positive-results-region-dashboard.

8

See https://www.governor.ny.gov/news/no-2021-continuing-temporary-suspension-andmodification-laws-relating-disaster-emergency.
10

R.A. 183

22.

I was involved in the process of developing these Executive Orders on the basis of

what we knew of the COVID-19 virus at the time. We had input from a team of epidemiologists
at the Department 's Center for Community Health, which is within the Office of Public Health.
The decision to cancel events in performances spaces, instead of merely limiting attendance, was
based on several factors: not only the risk of transmission during the performance itself, but also
the fact that scheduled performance events lead to large groups of people arriving at the same
time, looking for seating at the same time, using the same common areas and amenities, and then
leaving at the same time. These are all settings in which people congregate and mingle, often in
close proximity within an indoor environment, and are thus the very conditions the State's

COVID-19 Task Force was trying to prevent as a community mitigation strategy.
23.

As conditions worsened in the State, on March 23, 2020, EO 202.10 imposed a

total ban on all non-essential gatherings, such as "parties, celebrations or other social events."
(ECF # 14-1, Ex. E.)
24.

The closures and restrictions on particular sectors of the economy were designed,

among other reasons, to minimize circumstances in which people, and groups of people,
congregate and mingle, especially within indoor environments. According to available scientific
information, close person-to-person contact is the primary vector in which COVID-19 is most
likely to spread. To limit exposure to COVID-19 and slow its spread, the CDC recommends
social distancing and limiting close contact with others outside your household in indoor and
outdoor spaces including avoiding groups and crowded places.
25.

With respect to the food-services sector in particular, the COVID-19 Task Force

recognized that the complete closure of restaurants would not only potentially cripple that
11

R.A. 184

industry, but would also cut off a significant food supply source to New York citizens, a service
we consider essential. On the other hand, service of food and beverages in restaurants would
inevitably result in significant congregating and mingling. The restaurant industry thus
presented a complex case in which these interests needed to be balanced with care.
26.

Ultimately, the Taskforce concluded that during a period when the State

continued to experience a high rate of infection, the service of food and drink for consumption
on the premises posed too great a risk of further spreading the virus, but that serving food and
drink for takeout and delivery could be managed while minimizing congregating and mingling
crowds. Accordingly, on March 16, 2020, EO 202.3 ordered that restaurants and bars cease
serving patrons food or beverages on premises, allowing such establishments to provide take-out
and delivery services only. (ECF # 14-1, Ex. M.)
The Loosening of Restrictions on Gathering Limits and the Phased Reopening of
Sectors of the Economy
27.

In May 2020, the Governor implemented New York Forward, the 10-Point Plan

previously announced on March 22, 2020, for the phased and safe reopening and reduction of
restrictions on businesses in various industries. Under the plan, as regions in the State satisfy
identified COVID-19 testing and other metrics, they move through five potential phases of
recovery, in which gathering limitations and other restrictions are gradually loosened.
28.

At the same time, new Executive Orders gradually loosened the restrictions on

gatherings. On May 21, 2020, EO 202.32 permitted a gathering of 10 of fewer for any religious
service or ceremony. (ECF # 14-1, Ex. F.) The next day, EO 202.33 extended the same 10person limit to non-essential gatherings held for any purpose. (ECF # 14-1, Ex. G.)

12

R.A. 185

29.

On June 15, 2020, EO 202.42 permitted any region that had entered Phase 3 of the

State's reopening plan to allow gatherings of 25 or fewer individuals "for any lawful purpose or
reasons." (ECF # 14-1, Ex. I.)

30.

And on June 26, 2020, EO 202.45 permitted social gatherings of up to 50 people

"for any lawful purpose or reason," so long as the region had reached Phase 4 of the State's

reopening plan. (ECF # 14-1, Ex. J.) The permitted gatherings were still subject to Department of
Health protocols relating to social distancing, face covering, cleaning, and disinfection. See id.
Further, indoor gatherings could not exceed 50% of the building's capacity. See id.

31.

Because all regions of the State are now in Phase 4, gatherings of up to 50 persons

are once again permitted for any purpose, including weddings.
32.

Additionally, as regions of the State progressed through the various phases of

recovery, restrictions various sectors of the economy, including the food-service sector, were
loosened accordingly. By Phase 2, restaurants were permitted to open outside areas for dining,
subject to social distancing and other health and safety protocols. Thereafter, and continuing to
Phase 4, restaurants are permitted to offer indoor dining, but at 50% of maximum capacity,
exclusive of employees. 9 The capacity limit was designed to decrease density indoors. And there
are other restrictions on the indoor dining how permitted. Among other things, tables
indoors or outdoors

whether

must be separated by a minimum of six feet; patrons over age 2 must wear

9

Indoor dining has been postponed in New York City, however. See
https://www.governor.ny.gov/news/no-20248-continuing-temporary-suspension-andmodification-laws-relating-disaster-emergency.
13

R.A. 186

face coverings at all times except when they are seated at their tables; individuals seated at each
table must be members of the same party; and no more than 10 people can be seated at a table. 10
33.

In support of loosening the previously applicable restrictions and gradually

reopening the State's economy, our goal was to balance the needs of each industry to conduct the

core activities and operations of business with the health and safety interests of the business
owners and operators, employees, customers, and the public at large

a primary feature of which

is to avoid congregating and mingling of people, and groups of people, anywhere and promote
appropriate social distancing of at least six feet between individuals everywhere.
34.

The restrictions on restaurants are of critical importance. In the past few weeks

alone, even with these restrictions in place, I have learned that fifteen clusters of Coronavirus
victims have been traced back to indoor dining.
The Contemplated Wedding Celebration Is Not Comparable to the Other Events Cited by
Plaintiffs and the Court
35.

I have explained above, in paragraph 12, how the 175-guest wedding currently

planned for August 22 differs from ordinary restaurant dining for a similar number of people.
Plaintiffs and the Court also compared the anticipated gathering to three other group settings: (a)
outdoor graduations; (b) special education classes; and (c) mass protests triggered by the killing
of George Floyd. None of those examples provides a valid comparator.
Outdoor Graduations

10

https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/Food_Services_Summary_
Guidelines.pdf
14

R.A. 187

36.

In June 2020, with the rate of new infections at its lowest level since the

beginning of March 2020, the State authorized outdoor graduations. As noted previously in
paragraph 24, outdoor events are less likely to spread Coronavirus than indoor ones.
37.

The State recognized that schools generally have large spaces, such as football

fields, where those in attendance can be spread out, and that ample time can be allowed during
which small groups of people, families for example, can enter and exit one at a time, to assure
compliance with social-distancing protocols. Moreover, a graduation is a one-time event in a
given community. Even then, DOH guidance on graduations strongly urges the use of other
alternatives (i.e. virtual ceremonies, ceremonies where people stay in their cars, etc.). See
https://coronavirus.health.ny.gov/system/files/documents/2020/06/doh_covid19_updatedgraduati
onguidance_061420.pdf
38.

Outdoor graduations are also subject to numerous additional restrictions.

Gatherings for the purposes of graduation ceremonies can occur only outdoors, and they are
subject to a 150-person gathering limit, inclusive of all students, guests, teachers, administrators,
and staff. All attendees are required to remain outdoors at all times, with the exception of
restroom use, and must remain six feet apart from other attendees at all times, excluding
immediate family members or household members. See id.
39.

Signs, tape, or other materials must be used to demarcate six feet of distance

between students and others while standing and walking. Any chairs for students, guests and
staff must be at least six feet apart. See id.
40.

If a school divides its graduating class into groups and conducts a separate

ceremony for each group in order to comply with the 150-person limit, all CDC and NYSDOH
15

R.A. 188

cleaning and disinfection protocols must be adhered to in between ceremonies, including
cleaning and disinfection of any shared surfaces (such as chairs, podiums, handrails, etc.). See
id.
41.

All attendees at the graduation must wear a mask or face covering at all times, if

they are over age two and able to medically tolerate a covering. Individual students may
temporarily remove their masks or face coverings only while crossing the award area or having
their individual photo taken. See id.
42.

Moreover, all person-to-person contact during the celebration is prohibited.

Individuals may not shake hands. Diplomas, or any other items, can only be handed from one
designated individual (e.g. superintendent, principal) to students if both individuals are wearing a
face covering and either using gloves or applying hand sanitizer between touching of objects.
Otherwise, diplomas, or any other items, must be pre-arranged for students to retrieve them
without direct interaction with other individuals. See id.
43.

Sharing or exchanging materials of any kind, such as throwing graduation caps

and giving of gifts poses an increased risk of transmission of COVID-19 and is prohibited, as
well. See id.
44.

Students may walk across a stage or area and pose for a picture individually.

However single-direction flow should be marked to cross the graduation stage or take a photo,
and the standing locations of graduates waiting to cross the graduation stage or take a photo must
be clearly marked to ensure all individuals remain at least six feet apart at all times. See id.
45.

It is strongly encouraged that the length of ceremonies be limited to shorten the

time the individuals are exposed to each other. Additionally, group performances and speakers
16

R.A. 189

should be limited, and precautions must be taken to ensure that individuals do not share
microphones or other equipment, unless it is appropriately cleaned and disinfected between use.
See id.
46.

Staff must be assigned to monitor entrances and egresses to prevent congregation.

The staggering of arrival times to ease crowds at access points should be considered. See id.
47.

It is not realistic to expect a venue hosting a wedding, or other social celebration,

to utilize these graduation-specific guidelines. As with its restrictions relating to social
gatherings, discussed above, the State's graduation-specific restrictions are tied to the conduct

that is traditionally expected at a graduation ceremony. That conduct is markedly different from
that which takes place at a wedding celebration, where physical contact such as hugging is an
evitable part of the celebratory nature of the event . Accordingly, the State's 50 -person indoor
gathering limit applicable to social gatherings is appropriately tailored to anticipate the conduct
and interaction that any reasonable person would expect to occur at a social gathering.
Special Education Classes
48.

Special education classes typically involve the same teacher with the same group

of students. They consequently do not create the risk that infected people from different
communities will mingle and then disperse, thus super-spreading the virus.
Civil Rights Protests
49.

The State imposed gathering limits without regard to purpose. There is no

exception for protests. No Executive Order allows or authorizes them. The question of how
much force, if any, should be used to enforce these limits is left to local law enforcement

17

R.A. 190

agencies, who must exercise discretion in these cases as in others in deciding whether and to
what extent the use of force is warranted to enforce the law in light of all relevant circumstances.
Conclusion
50.

New York is one of the few States in the United States that successfully reduced

the community transmission of COVID-19 and has so far avoided the resurgence of COVID-19
cases. (See ECF #14-2 ¶¶40-41.) In the last two months across the country, spikes in COVID-19
cases have been tied to bars and restaurants in other States where there are reports of alcoholassociated partying and lack of adherence to face coverings, social distancing, and other rules to
reduce the close congregation and comingling of patrons. The COVID-19 Task Force remains
gravely concerned that the relaxing of the restrictions the State has implemented will lead to
increases in the spread of the virus, resulting in a serious, but avoidable, impact on the health and

lives ofNew York's population.

Dated: August 11, 2020
Albany, New York

____________________________
Commissioner Howard A. Zucker, M.D., J.D.

18

R.A. 191

Case 20-3572, Document 30, 10/22/2020, 2958598, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
22nd day of October, two thousand twenty.
Before:

William J. Nardini,
Circuit Judge.
________________________________
ORDER
Agudath Israel of America, Agudath Israel of
Kew Garden Hills, Agudath Israel of
Madison, Agudath Israel of Bayswater, Rabbi
Yisroel Reisman, Rabbi Menachem Feifer,
Steven Saphirstein,

Docket No. 20-3572

Plaintiffs - Appellants,
v.
Andrew M. Cuomo, Governor of the State of
New York, in his official capacity,
Defendant - Appellee.
________________________________

Appellants Agudath Israel of America et al., move for an emergency injunction pending
appeal. Appellants seek a decision no later than October 23, 2020 at 5:00 pm. Appellee Andrew
M. Cuomo opposes the motion.
IT IS HEREBY ORDERED that the request for an administrative stay of the district court
decision denying Appellants’ motion for a temporary restraining order and preliminary
injunctions is DENIED. The motion is referred to the panel sitting on November 3, 2020. It will
be heard in tandem with the motion seeking similar relief filed in The Roman Catholic Diocese
of Brooklyn v. Governor Andrew M. Cuomo, Docket No. 20-3590. Appellee’s opposition to the
motion is due by noon on October 27, 2020. Appellant’s reply is due by noon on October 29,
2020.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

R.A. 192

